<html>
<title> - H.R. 3048, H.R. 3148 and H.R. 4734</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                  H.R. 3048, H.R. 3148 and H.R. 4734

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              June 5, 2002

                               __________

                           Serial No. 107-122

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 -------
80-011              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 5, 2002.....................................     1

Statement of Members:
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Angapak, Nelson N. Sr., Executive Vice President, Alaska 
      Federation of Natives, Oral statement on H.R. 3048.........    10
        Oral statement on H.R. 3148..............................    12
        Prepared statement on H.R. 3048..........................    11
        Prepared statement on H.R. 3148..........................    13
        Prepared statement on H.R. 4734..........................    19
    Brown, Margaret, Cook Inlet Region, Inc......................    36
        Prepared statement on H.R. 3048..........................    37
    Bullard, Loretta, President, Kawerak, Inc....................    39
        Prepared statement on H.R. 4734..........................    42
    Gibbons, David, Forest Supervisor, Chugach National Forest, 
      Anchorage, Alaska..........................................     5
        Prepared statement on H.R. 3048..........................     6
    Hession, Jack, Senior Regional Representative, Sierra Club, 
      Northwest/Alaska Region, Oral statement on H.R. 3048.......     7
        Oral statement on H.R. 4734..............................    25
        Prepared statement on H.R. 3048, H.R. 3148, and H.R. 4734     8
    Hoffman, Paul, Deputy Assistant Secretary for Fish and 
      Wildlife and Parks, U.S. Department of the Interior, Oral 
      statement on H.R. 3048.....................................     3
        Oral statement on H.R. 3148..............................    26
        Oral statement on H.R. 4734..............................    20
        Prepared statement on H.R. 3048..........................     4
        Prepared statement on H.R. 3148..........................    27
        Prepared statement on H.R. 4734..........................    22
    Olrun, Eben, Chairman, Native Veterans Association of Alaska.    46
        Prepared statement on H.R. 3148..........................    48
    Sampson, Walter, Vice President of Lands, NANA Regional 
      Corporation................................................    51
        Prepared statement on H.R. 3148..........................    52

Additional materials supplied:
    Caspersen, Jann L., Board Member, Native Veterans Association 
      of Alaska, and Gunnery Sergeant, Retired, U.S. Marine 
      Corps, Statement submitted for the record on H.R. 3148.....    55
    Joule, Hon. Reggie, Representative, Alaska State Legislature, 
      Letter submitted for the record on H.R. 3148...............    56
    Kapsner, Hon. Mary, Representative, Alaska State Legislature, 
      Letter submitted for the record on H.R. 3148...............    57
    Leighton, Robert P., Alaska Native Veteran, Sitka, Alaska, 
      Letter submitted for the record on H.R. 3148...............    58
    Marrs, Carl H., President and CEO, Cook Inlet Region, Inc., 
      Letter submitted for the record on H.R. 3148...............    59
    Nathaniel, Larry A., Chairman, Athabascan Tribal Governments, 
      Letter and statement submitted for the record on H.R. 4734.    60
    O'Connor, Michael G., President and CEO, Ouzinkie Native 
      Corporation, Letter submitted for the record on H.R. 3148..    64
    Paulsen, Frederick A,, Veteran, Prince William Sound, Alaska, 
      Letter submitted for the record on H.R. 3148...............    65
    Pourchot, Pat, Commissioner, Alaska Department of Natural 
      Resources, Letter submitted for the record on H.R. 3148....    66
    Salcedo, Betsy, University of New Mexico Law School, 2002 
      Juris Doctor Graduate, Letter submitted for the record on 
      H.R. 3148..................................................    68
    Sensmeier, Sergent Raymond, Vietnam Veteran, Yakutat, Alaska, 
      Letter submitted for the record on H.R. 3148...............    69
    Thomas, Hon. Edward K., President, Central Council of the 
      Tlingit and Haida Indian Tribes of Alaska, Statement 
      submitted for the record...................................    70
    Walker, Hugh, Treasurer, Alaska Native Veterans Association, 
      Letter submitted for the record on H.R. 3148...............    74
    Walleri, Michael J., Attorney for the Koyukuk River Basin 
      Moose 
      Co-management Team, Inc., Statement submitted for the 
      record on H.R. 4734........................................    75
    Widmark, Lawrence, Chairman, Sitka Tribe of Alaska, Letter 
      submitted for the record on H.R. 3148......................    81
    Williams, Orie, President and CEO, Doyon, Limited, Letter 
      submitted for the record on H.R. 3148......................    82


 LEGISLATIVE HEARING ON H.R. 3048, TO RESOLVE THE CLAIMS OF COOK INLET 
 REGION, INC., TO LANDS ADJACENT TO THE RUSSIAN RIVER IN THE STATE OF 
ALASKA; H.R. 3148, TO AMEND THE ALASKA NATIVE CLAIMS SETTLEMENT ACT TO 
PROVIDE EQUITABLE TREATMENT OF ALASKA NATIVE VIETNAM VETERANS; AND H.R. 
 4734, TO EXPAND ALASKA NATIVE CONTRACTING OF FEDERAL LAND MANAGEMENT 
FUNCTIONS AND ACTIVITIES AND TO PROMOTE HIRING OF ALASKA NATIVES BY THE 
 FEDERAL GOVERNMENT WITHIN THE STATE OF ALASKA, AND FOR OTHER PURPOSES.

                              ----------                              


                        Wednesday, June 5, 2002

                     U.S. House of Representatives

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 11:03 a.m., in 
room 1334, Longworth House Office Building, Hon. James V. 
Hansen (Chairman of the Committee) presiding.

  STATEMENT OF THE HON. JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    The Chairman. The Committee will come to order. Today's 
hearing is on three bills that address Alaska Native land 
issues. All three bills, H.R. 3048, H.R. 3148, and H.R. 4734, 
were introduced by Congressman Don Young of Alaska, the former 
Chairman of this Committee.
    H.R. 3048 resolves the claims of Cook Inlet Region, Inc., 
to lands adjacent to the Russian River in the State of Alaska.
    The Chairman. H.R. 3148 amends the Alaska Native Claims 
Settlement Act to provide equitable treatment of Alaska Native 
Vietnam veterans.
    The Chairman. The last bill, H.R. 4734, expands Alaska 
Native contracting of Federal land management functions and 
activities and promotes the hiring of Alaska Natives by the 
Federal Government within the State of Alaska.
    The Chairman. The Committee appreciates the efforts of the 
witnesses in being here today, many of whom have traveled all 
the way from Alaska. We look forward to your testimony. Before 
we begin our first panel, I would like to mention that the 
State of Alaska has informed the Committee that they will 
provide written testimony on all three bills.
    [The prepared statement of Mr. Hansen follows:]

    Statement of The Honorable James V. Hansen, a Representative in 
                    Congress from the State of Utah

    Today's hearing is on three bills that address Alaska Native land 
issues. All three bills, H.R. 3048, H.R. 3148 and H.R. 4734 were 
introduced by Congressman Don Young of Alaska.
    H.R. 3048 resolves the claims of Cook Inlet Region, Inc. to lands 
adjacent to the Russian River in the State of Alaska. H.R. 3148 amends 
the Alaska Native Claims Settlement Act to provide equitable treatment 
of Alaska Native Vietnam veterans. The last bill, H.R. 4734, expands 
Alaska Native contracting of Federal land management functions and 
activities and promotes the hiring of Alaska Natives by the Federal 
Government within the State of Alaska.
    The Committee appreciates the efforts of the witnesses in being 
here today, many of whom traveled all the way from Alaska. We look 
forward to your testimony. Before we begin with our first panel, I 
would like to mention that the State of Alaska has informed the 
Committee that it will provide written testimony on all three bills.
                                 ______
                                 
    The Chairman. It is always a pleasure to turn this over to 
my good friend from Alaska and former Chairman. Mr. Young, if 
you will take the gavel, I will leave.
    Mr. Young. Thank you, sir. Can I move the bills today?
    The Chairman. You can do what you want. You have got the 
show.
    [Laughter.]
    Mr. Young. [Presiding.] Thank you, Mr. Chairman. I would 
like to extend a warm welcome to all my Alaskans, who traveled 
here to provide testimony on these three bills. I would like to 
call up panel No. 1.
    Mr. Hoffman is Deputy Assistant Secretary for Fish and 
Wildlife and Parks of the Department of Interior. Mr. Hoffman 
will actually testify on all three of these bills.
    David Gibbons, Forest Supervisor of Chugach National Forest 
of Anchorage, Alaska, will testify only on H.R. 3048.
    Jack Hession, Senior Regional Representative, Sierra Club, 
Anchorage Field Office, will testify on all three bills.
    Mr. Nelson Angapak, Executive Vice President of the Alaska 
Federation of Natives, will be testifying on H.R. 3048 and H.R. 
3148.
    I want to welcome panel No. 1 and panel No. 2 to today's 
hearing. I would ask the witnesses to again keep their 
testimony to 5 minutes. Any written testimony will be accepted 
into the record and we look forward to the testimony on these 
pieces of legislation.
    By the way, these are outstanding pieces of legislation, 
originally authored by the groups that are represented here, 
and it is my job, to make sure they get their voice heard in 
Congress. We hope that we have all three bills before the Full 
Committee and favorably reported out, with a vote on the floor 
of the House, and hopefully, the Senate will see the wisdom of 
passing these bills.
    First, we will hear on H.R. 3048, and Mr. Hoffman, I 
believe, is the first one up. Mr. Hoffman?

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY FOR FISH 
       AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Thank you, Mr. Chairman, for the opportunity 
to testify on behalf of the Department of the Interior on these 
three bills today.
    H.R. 3048, the Russian River Lands Act, this bill codifies 
a settlement of a 20-year-old issue. The Cook Inlet Region, 
Incorporated, selected nearly 2,000 acres some time back under 
the Alaska Native Claims Settlement Act. There have been a lot 
of discussions over the years, and through the efforts of many 
people on the ground and the application of what Secretary 
Norton calls her four Cs, communication, cooperation, 
consultation, and the service of conservation, the parties have 
reached an agreement.
    The confluence of the Russian River and the Kenai River is 
a critically important component to the public recreation of 
the area. There are over 50,000 anglers each year, sockeye 
salmon, silver salmon, rainbow trout fisheries are outstanding. 
It represents a $5.8 million per year economic benefit to the 
area.
    The settlement that has been agreed upon by the parties on 
the ground includes or retains Federal ownership or fishing 
easements to allow continued public access to the river for 
fishing, to the campgrounds, parking lots, and land around the 
confluence of the rivers. All public fishing rights are 
retained. The Fish and Wildlife Service will convey cultural 
archaeological resources on 502 acres to CIRI. The Forest 
Service will convey 42 acres of land on the hill overlooking 
the confluence as well as another 20 acres adjacent to the 
Sterling Highway.
    This bill includes money to build a visitors' center that 
will be run cooperatively between CIRI, the Fish and Wildlife 
Service, and the U.S. Forest Service, and it provides for CIRI 
to build additional visitors' service infrastructure on that 
site for their economic benefit.
    It also provides for the potential of an additional 
exchange of land on the Sterling Highway that will provide 
economic benefit to CIRI as they acquire frontage property on 
the newly--when the highway is rebuilt, while at the same time 
providing and protecting important brown bear habitat.
    We do have concerns about Section 3(b), the authorization 
of actions section, where it references notwithstanding other 
provisions of the law. If that verbiage was struck from the 
Act, we would wholeheartedly support the passage of this bill, 
Mr. Chairman.
    Mr. Young. Repeat that. What part do you want struck out?
    Mr. Hoffman. Three (b), Section 3(b), entitled 
``Authorization of Actions.'' It says, notwithstanding other 
provisions of the law, and then it goes on to authorize the 
agencies to execute the agreement. We believe that the 
agreement can be fully executed without taking away the 
provisions of the other laws.
    Mr. Young. I do not know why that is in there, frankly, but 
we will take a look at it and see what happens.
    Mr. Hoffman. Thank you.
    [The prepared statement of Mr. Hoffman follows:]

  Statement of Paul Hoffman, Deputy Assistant Secretary for Fish and 
   Wildlife and Parks, U.S. Department of the Interior, on H.R. 3048

    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to testify today on H.R. 3048, a bill to resolve Native 
claims to lands adjacent to the Russian River, located on the Kenai 
National Wildlife Refuge and Chugach National Forest on Alaska's Kenai 
Peninsula. The Department of the Interior supports the enactment of 
H.R. 3048 if amended to address the Administration's concerns with 
Section 3(b). The bill settles all land claims in the vicinity of the 
confluence of the Russian and Kenai Rivers, allows continued public use 
of the area, and protects the area's vast historic and cultural 
resources.
Background
    Over time, the Cook Inlet Region, Inc. an Alaska Native Regional 
Corporation, selected nearly 2000 acres at the confluence of the Kenai 
and Russian Rivers, pursuant to Section 14(h)(1) of the Alaska Native 
Claims Settlement Act. CIRI valued these lands as existing cemetery 
sites and historical places.
    Concern by the United States over the validity of the selections 
was complicated by the recreational use of the Russian River area by 
the public. Each year over 50,000 anglers fish the confluence area, 
primarily for sockeye salmon, and additionally for rainbow trout and 
silver salmon. The economic value to Kenai Peninsula alone is estimated 
at $5.8 million annually, directly attributed to the Russian River 
fishery. It has been a high priority goal to preserve the public's 
access to these fertile fishing grounds.
    The issues at Russian River between CIRI and the United States have 
been ongoing for nearly 20 years. Three years ago the parties decided 
that rather than engage in lengthy, expensive litigation, they would 
negotiate a settlement agreement that provided each party the interest 
it deemed necessary. The Russian River Section 14(h)(1) Selection 
Agreement was signed by the three principals in July 2001. The 
Agreement provides consensus on the following points:
    <bullet> The public campgrounds, parking lots, and most of the 
land in the vicinity of the confluence of the Kenai and Russian Rivers 
remain in federal ownership and control.
    <bullet> The right of the public to continue fishing remains 
unchanged from the current status.
    <bullet> The Fish and Wildlife Service will convey to CIRI all 
archaeological and cultural resources from 502 acres of Refuge lands 
certified by the Bureau of Indian Affairs.
    <bullet> The Forest Service will convey to CIRI fee title to a 42-
acre parcel overlooking the confluence of the two rivers, and a second 
parcel of about 20 acres upstream of where the Sterling Highway crosses 
the Kenai River. The 20-acre parcel will be subject to ANCSA Section 
14(h)(1) provisions which require protection of the cultural resources. 
In addition, a public easement along the bank of the Kenai River will 
be reserved and administered by the Forest Service to allow continued 
public fishing on the parcel.
    <bullet> With these conveyances, CIRI will relinquish all ANCSA 
Section 14(h)(1) claims in the area.
    <bullet> The parties will pursue construction of a public 
visitor's interpretive center for the shared use of all three parties 
to be built on the 42-acre parcel to be conveyed to CIRI. The visitor's 
center would provide for interpretation of both the natural and 
cultural resources of the Russian River area. Included in the subject 
bill is an appropriation for construction of the proposed visitor 
center.
    <bullet> In conjunction with the visitor's interpretive center, 
the parties will pursue establishment of an archaeological research 
center and repository that will facilitate the management of the 
cultural resources in the area.
    <bullet> CIRI may develop certain visitor-oriented facilities on 
the 42-acre parcel. These facilities may include a lodge, staff 
housing, restaurant, etc., which would include space for agency 
personnel as well as CIRI staff.
    <bullet> The parties will enter into a Memorandum of Understanding 
for the purpose of insuring the significant activities at Russian River 
are carried out in a cooperative and coordinated manner.
    <bullet> The agreement also authorizes, but does not require, an 
exchange of land where CIRI would receive Kenai Refuge lands adjacent 
to the Sterling Highway and/or Funny River Road in return for FWS 
receiving CIRI lands of equal value near the Killey River which are 
important brown bear habitat. This would provide additional lands for 
CIRI development and economic benefit while protecting important 
habitat and migration routes for the Kenai brown bear which has been 
designated by the State of Alaska as a species of special concern.
    Legislation is necessary to provide authority currently lacking to 
convey the cultural resources on the Refuge, convey the two small 
parcels within the Forest, and to adjust refuge and wilderness 
boundaries in the potential exchange. It would also ratify the 
Selection Agreement already agreed to by the three parties. The 
Administration is concerned with the waiver in section 3(b) that could 
exempt activities under the Agreement from current law. The 
Administration supports authorization of exchanges through normal 
public review, including title review and disclosure of the fiscal and 
environmental effects of the exchanges, to ensure equal value and full 
awareness of the consequences of the exchanges.
    Finally, the bill includes an authorization of appropriation for 
$13.8 million to the Department of Agriculture for the construction of 
the visitors interpretive center and archaeological research center.
Summary and conclusions:
    H.R. 3048, if enacted, would resolve long standing issues of land 
ownership and land entitlement at one of the most popular public 
recreation locations in Alaska. It would provide for the conveyance of 
land and interests in land to Cook Inlet Region, Inc., an Alaska Native 
Regional Corporation for cultural preservation and economic benefit. It 
would provide for continued public use of the most popular salmon 
fishing site in the State of Alaska, and continued federal management 
of the natural resources of the area. It would ratify the provisions of 
the Russian River Selection Agreement which provides mutual benefits 
for Alaska Natives, the general public and agencies of the United 
States. We would support passage of H.R. 3048 if amended to address 
Administration concerns with Section 3(b).
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or the other members may have.
                                 ______
                                 
    Mr. Young. I believe, Mr. Gibbons, you want to testify on 
that part. You are up.

   STATEMENT OF DAVID R. GIBBONS, FOREST SUPERVISOR, CHUGACH 
               NATIONAL FOREST, ANCHORAGE, ALASKA

    Mr. Gibbons. Mr. Chairman, Committee members, thank you for 
the opportunity to testify today on H.R. 3048, the Russian 
River Land Act. I am David Gibbons, the Forest Supervisor of 
the Chugach National Forest.
    The Department of Agriculture also supports the enactment 
of H.R. 3048, if amended to address the concerns addressed in 
Section 3(b). H.R. 3048, if enacted, would resolve a 
longstanding dispute of land selection rights and management 
rights in the Russian River area. Public lands at the junction 
of these rivers was withdrawn from disposal by the USDA Forest 
Service under Public Laws and set aside for a specific 
management purpose. This withdrawal created a conflict with the 
historic site selection filed by Cook Inlet Region, 
Incorporated, under Section 14(h)(1) of the Alaska Native 
Claims Settlement Act.
    The U.S. Forest Service, the Fish and Wildlife Service, and 
Cook Inlet Region, Incorporated, worked together to address 
these legal concerns and management objectives for all parties. 
On July 26, 2001, the three parties reached agreement on a 
resolution that would fulfill the goals of each party. The 
Russian River Selection Agreement provides for many things that 
Mr. Hoffman aptly described earlier.
    Legislation is necessary to provide the authority currently 
lacking to convey the cultural resources, convey the two small 
parcels within the forest, and to adjust refuge and wilderness 
boundaries in a potential exchange. The bill would ratify the 
selection agreement already agreed to by the three parties.
    The Administration is concerned with the waiver in Section 
3(b) that could exempt activities under the agreement from 
current law. The Administration supports authorization of 
exchanges through normal public review, including title review 
and disclosure of fiscal and environmental effects of these 
changes and to ensure equal value and full awareness of the 
consequences of exchanges.
    We appreciate the efforts by you, Congressman Young, to 
develop and sponsor this bill and thank you for the opportunity 
to comment, and I would be pleased to answer any questions you 
may have.
    Mr. Young. Thank you.
    [The prepared statement of Mr. Gibbons follows:]

  Statement of David R. Gibbons, Forest Supervisor, Chugach National 
         Forest, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Committee Members, thank you for the opportunity 
to testify today on H.R. 3048, the Russian River Land Act. I am Dave 
Gibbons, Forest Supervisor of the Chugach National Forest. The 
Department of Agriculture supports the enactment of H.R. 3048 if 
amended to address Administration concerns with Section 3b.
    H.R. 3048, if enacted, would resolve a long-standing conflict of 
land selection rights and management of public activities at the 
junction of the Russian and Kenai Rivers in Alaska. The public lands at 
the junction of these rivers was withdrawn from disposal by the USDA 
Forest Service under public land laws and set aside for a specific 
management purpose. This withdrawal created a conflict with a historic 
site selection filed by Cook Inlet Region Incorporated (CIRI) under 
Section 14(h)(1) of the Alaska Native Claims Settlement Act.
    The U.S. Forest Service, U.S. Fish and Wildlife Service and Cook 
Inlet Region Incorporated (CIRI) worked together to address legal 
concerns and management objectives of all parties. On July 26, 2001, 
the three parties reached agreement (Russian River Section 14(h)(1) 
Selection agreement) on a solution that would fulfill the goals of each 
party. The Russian River Selection 14(h)(1) Selection Agreement 
provides consensus on the following points:
    <bullet> The public campgrounds, parking lots, and most of the 
land in the vicinity of the confluence of the Kenai and Russian Rivers 
remain in Federal ownership.
    <bullet> The right of the public to continue fishing remains 
unchanged from the current status.
    <bullet> The Fish and Wildlife Service will convey to CIRI all 
archaeological and cultural resources from 502 acres of Refuge lands 
certified by the Bureau of Indian Affairs.
    <bullet> The Forest Service will convey to CIRI fee title to a 42-
acre parcel overlooking the confluence of the two rivers, and a second 
parcel of about 20 acres upstream of where the Sterling Highway crosses 
the Kenai River. The 20-acre parcel will be subject to Alaska Native 
Claims Settlement Act (ANCSA) 14(h)(1) provisions, which require 
protection of the cultural resources. In addition, a 50-foot public 
easement along the bank of the Kenai River will be reserved and 
administered by the Forest Service to allow continued public fishing on 
the parcel.
    <bullet> With these conveyances, CIRI will relinquish all ANCSA 
14(h)(1) claims in the Sqilantnu Archeological District.
    <bullet> The parties will pursue construction of a public 
visitor's interpretive center for the shared use of all three parties 
to be built on the 42-acre parcel to be conveyed to CIRI. The visitor's 
center would provide for the interpretation of both the natural and 
cultural resources of the Russian River area. Included in the subject 
bill is an appropriation for the construction of the proposed visitors 
center.
    <bullet> In conjunction with the visitor's interpretive center, 
the parties will pursue the establishment of an archeological research 
center and repository that will facilitate the management of cultural 
resources in the area.
    <bullet> CIRI may develop certain visitor-oriented facilities on 
the 42-acre parcel. These facilities may include a lodge, staff 
housing, restaurant, etc., that would include space for agency 
personnel as well as CIRI staff.
    <bullet> The parties will enter into a Memorandum of Understanding 
for the purpose of insuring the significant activities at Russian River 
are carried out in a cooperative and coordinated manner.
    <bullet> The agreement also authorizes, but does not require, an 
exchange of land where CIRI would receive Kenai Refuge lands adjacent 
to the Sterling Highway and/or Funny River Road in return for FWS 
receiving CIRI lands of equal value near the Killey River that is 
important brown bear habitat. This would provide additional lands for 
CIRI development and economic benefit while protecting important 
habitat and migration routes for the Kenai brown bear.
    Legislation is necessary to provide authority currently lacking to 
convey the cultural resources on the Refuge, convey the two small 
parcels within the Forest, and to adjust refuge and wilderness 
boundaries in the potential exchange. The bill would also ratify the 
Selection Agreement already agreed to by the three parties.
    The Administration is concerned with the waiver in Section 3b that 
could exempt activities under the Agreement from current law. The 
Administration supports authorization of exchanges through normal 
public review, including title review and disclosure of the fiscal and 
environmental effects of the exchanges, to ensure equal value and full 
awareness of the consequences of the exchanges. We appreciate efforts 
by Representative Young to develop and sponsor H.R. 3048. Thank you for 
the opportunity to comment. I would be pleased to answer any questions 
you may have.
                                 ______
                                 

  STATEMENT OF JACK HESSION, SENIOR REGIONAL REPRESENTATIVE, 
              SIERRA CLUB, NORTHWEST/ALASKA REGION

    Mr. Young. Mr. Hession? I guess you are going to testify on 
them all, but just stick to this one bill right now.
    Mr. Hession. I am sorry, Mr. Chairman?
    Mr. Young. I guess you are going to testify on all three 
bills?
    Mr. Hession. Yes, sir. I said in my submitted statement 
that I would submit some views for the record, but since I 
wrote the testimony, I did check with the U.S. Fish and 
Wildlife Service and have a couple of brief remarks.
    Mr. Young. Go ahead.
    Mr. Hession. Essentially, we can support this measure, Mr. 
Chairman. It balances adequately, in our view, private and 
public interests.
    However, we have one objection and it is a minor one--well, 
it is not minor. One provision would recommend the 
authorization of future exchange of Kenai National Wildlife 
Refuge lands adjacent to the Sterling Highway at Russian River 
for privately owned land near the Killey River within the 
refuge. The Sterling Highway is Kenai National Wildlife Refuge 
wilderness, and up to 3,000 acres of this would be conveyed out 
of public ownership as part of a future land exchange.
    We recommend that the Committee withhold authorization of 
this or any other future exchange requiring Congressional 
approval pending receipt of a proposal and the Committee's 
review and determination if the proposal is in the public 
interest. Giving advance approval to a future land exchange, 
whether involving wilderness or non-wilderness Federal lands, 
would be unprecedented and, in our view, unwise.
    If the authorization were deleted, we would have no 
objection to passage of this bill. Thank you, Mr. Chairman.
    Mr. Young. Thank you.
    [The prepared statement of Mr. Hession follows:]

Statement of Jack Hession, Senior Regional Representative, Sierra Club 
                        Northwest/Alaska Region

    Good morning. My name is Jack Hession. Thank you for inviting me to 
testify on behalf of the Sierra Club, which is a national environmental 
organization of over 700,000 members with chapters in every state. I am 
a regional representative of the Sierra Club based in Anchorage.
    In summary, the Sierra Club strongly opposes H.R. 3148 and H.R. 
4734.
H.R. 3148, to provide equitable treatment of Alaska Native Vietnam 
        Veterans
    This bill would supersede Public law 105-276 of 1998, which was an 
amendment to the Alaska Native Claims Settlement Act to give certain 
Alaska Native veterans of the Vietnam War era or their heirs an 
opportunity to apply for a Native allotment. The Sierra Club testified 
in support of the 1998 law.
    Let me briefly review the 1998 statute. The Alaska Vietnam Veterans 
Native Allotment Act redressed the grievance of those Alaska Native 
veterans who were in the armed forces during the 1969-71 period of the 
Vietnam War era (1964-75), and who missed the opportunity to apply for 
a Native allotment prior to the 1971 repeal of the Alaska Native 
Allotment Act of 1906 (Allotment Act).
    During 1970 and 1971, the Department of the Interior and several 
Alaska Native organizations made a major effort to alert Alaska Natives 
through the media and other means to the approaching repeal of the 
Allotment Act in the soon to be passed Alaska Native Land Claims 
Settlement Act of 1971 (ANCSA). Natives who considered themselves 
eligible to receive an allotment were urged to apply before the 
Allotment Act was rescinded. Approximately 9,000 applications were 
received.
    In the mid-1990's Alaska Native veterans who were in the military 
in 1970-71, and who did not apply for an allotment before repeal of the 
Allotment Act, asked Congress to reopen the Allotment Act for them. In 
a report to Congress that was the basis for the 1998 law, the 
Department of the Interior found that Alaska Natives serving in the 
military during 1970-71 may have not had a chance to apply for an 
allotment because of their service.
    The report also found that Native veterans who served prior to 
1970, and thus prior to the 1970-71 Federal outreach effort, had the 
same opportunity to apply for an allotment as Alaska Native non-
veterans. Native veterans serving after 1971, the year the Allotment 
Act was repealed, obviously were not denied the opportunity to file an 
application because of their military service.
    In response to the Department's report, Congress in the 1998 
statute reopened the Allotment Act to applications by qualified Native 
veterans who were in the Service during the three-year period 1969-71. 
In a 2000 amendment to the law, heirs of Native veterans who served 
1964-71 and who were killed or died as a result of injuries sustained 
during their service period, were authorized to apply for an allotment.
    In addition, the 1998 Act required the Secretary to study the 
situation of other Native veterans who did not file for an allotment 
and who are not eligible under the 1998 law. The Secretary determined 
that veterans serving prior to 1969 who were mentally or physically 
disabled as a result of their military service may not have had the 
opportunity to apply for an allotment before the Allotment Act was 
repealed.
    Thus, with the exception of an undetermined number of physically or 
mentally disabled veterans, the 1998 law as amended has provided 
equitable treatment to those Native veterans who missed the opportunity 
to apply for an allotment because of their military service.
    H.R. 3148 would replace the carefully crafted 1998 law. Eligibility 
to apply for an allotment would be expanded to include all Alaska 
Native veterans who served during the Vietnam War era (1964-75), or 
their heirs.
    The bill would eliminate the requirement of the original Allotment 
Act and the 1998 law that applicants demonstrate use and occupancy of 
the land claimed, that is, ``prove up'' their claims. The bill would 
guarantee that any acreage applied for would be conveyed by requiring 
the Secretary to approve all applications, except if third parties 
contested or protested a filing.
    H.R. 3148 raises obvious questions of fairness and of its 
constitutionality. If Alaska Native veterans of the Vietnam War era are 
given any 160 acres of their choosing, the Committee could probably 
expect similar requests from other Native veterans of other wars, and 
perhaps from other non-Native veterans as well.
H.R. 3148's effect on the public lands
    This bill would have a major adverse impact on the Federal lands of 
Alaska. It would amend the 1998 law to delete ``unappropriated and 
unreserved'' lands from those lands not available for allotment 
applications. This would allow new applications to be filed anywhere 
within the national parks, wildlife refuges, wild and scenic rivers, 
and national forest wilderness areas of the Alaska National Interest 
Lands Conservation Act of 1980 (ANILCA). Under the 1998 law, 
applications can be filed only within the ANCSA village withdrawal 
areas within national parks and wildlife refuges, and the Secretary has 
discretion to substitute other public lands if he or she finds the 
original application to be incompatible with the purposes of the 
conservation system unit.
    Dropping the ``unappropriated and unreserved limitation'' would 
also open other public lands that have never been open to applications 
and that remain unavailable under the 1998 law. These include the 
Tongass and Chugach National Forests that have been reserved since 
1906; military withdrawals; Federally acquired lands including Native 
allotments and Native corporation lands; and various small tracts 
acquired under the settlement laws such as trade and manufacturing 
sites and homesites.
    The impact of H.R. 3148 on the National Interest Lands of ANILCA 
can be gauged by referring to the results of the 1998 law. According to 
the U.S. Fish and Wildlife Service in Alaska, during the application 
period about 250 allotment applications have filed for land within 
national wildlife refuges, including nearly one hundred on the Yukon 
Delta NWR, and another 28 on Kodiak NWR.
    In the national park system units, about a dozen applications have 
been received, with more expected because the BLM is allowing 
applicants to submit revised applications after the deadline. In the 
Tongass National Forests, which are not open to applications under the 
1998 law, more than 80 applications have been filed nonetheless.
    These applications have been made by Native veterans who served 
during a three-year period, 1969-71. H.R. 3148 would add veterans who 
served between August 5, 1964 and the end of 1968, and from January 1, 
1972 to May 7, 1975. Assuming that Alaska Native enlistment was evenly 
distributed over the Vietnam War era, the Committee could expect 
several hundred more applications to be submitted if H.R. 3148 is 
enacted.
    This dramatic increase in privately owned tracts within 
conservation system units and the national forests would come at a time 
when the Federal land management agencies are acquiring private 
inholdings, including Native allotments and Native corporation lands, 
pursuant to Congressional direction in ANILCA. For example, the U.S. 
Fish and Wildlife Service has used $150 million, mostly from Exxon 
Valdez Oil Spill (EVOS) litigation settlement funds, to acquire Native 
allotments and Native corporation lands on Kodiak and Afognak Islands 
for addition to Kodiak NWR. Recently the Service completed negotiations 
to acquire thousands of acres of Native Group holdings at Point 
Possession for addition to the Kenai NWR, using privately donated 
funds.
    Similarly, the U.S. Forest Service has acquired thousands of acres 
in Prince William Sound using EVOS funds, including a vast tract near 
Chenega within the Congressionally designated Nellie Juan-College Fiord 
Wilderness Study Area.
    The National Park Service has acquired mining claims in the 
Kantishna area of Denali National Park at a cost of millions of dollars 
in appropriated funds, in a successful effort to avoid incompatible 
commercial development of these tracts.
    Under H.R. 3148, all of these acquired lands would be open to new 
allotment applications and subsequent guaranteed conveyance out of 
Federal ownership. Because H.R. 3148 would eliminate the requirement of 
the 1998 law to show past use and occupancy, there is the possibility 
that some potential applicants could decide to select acquired lands 
with known high property values.
    In conclusion, we strongly recommend against enactment of H.R. 
3148. Congress, in enacting the Alaska Native Vietnam Veterans 
Allotment Act of 1998, has provided equitable treatment to most Native 
veterans who for reasons of wartime service may not have had an 
opportunity to apply for an allotment. The Act inadvertently omitted 
Native veterans who were physically or mentally injured during their 
service and who may also have missed the opportunity to apply. A 
technical amendment to the 1998 statute could bring these veterans the 
benefits of that Act.
H.R. 4734, to expand Alaska Native contracting of Federal land 
        management functions and activities and to promote hiring of 
        Alaska Natives by the Federal Government
    H.R. 4734 would establish an ``Alaska Federal Lands Management 
Demonstration Project.'' At the request of an Indian tribe or tribal 
organization the Secretary ``shall enter into a contract with the 
Indian tribe or tribal organization for the Indian tribe or tribal 
organization to plan, conduct, and administer programs, services, 
functions, and activities, or portions thereof, requested by the Indian 
tribe or tribal organization and related to the administration of a 
conservation system unit or other public land unit that is 
substantially located within the geographic region of the Indian tribe 
or tribal organization.''
    Indian tribes and tribal organizations are defined in Sec. 5 (2) to 
include Native village and regional corporations.
    In addition, the Secretary is required to provide the Indian tribe 
or tribal organization the appropriated funds the Secretary ``...would 
have otherwise provided for the operation of the requested programs, 
services, functions, and activities.''
    Not less than six Indian tribes or tribal organizations, 
representing the various regions of Alaska, are to be selected for a 
demonstration project in each of two fiscal years. Management contracts 
for each project would remain in effect for five consecutive fiscal 
years.
    H.R. 4734 would also establish a ``Koyukuk and Kanuti National 
Wildlife Refuges Demonstration Project'' similar to the other 12 
individual demonstration projects referred to above.
    This bill is a formula for turning over management of 12 national 
conservation system units or other public land units to private 
entities--in this case Alaska Native organizations and corporations--
for five years. Management of two national wildlife refuges would also 
be contracted to a private organization.
    National conservation system units are the national parks, wildlife 
refuges, wild and scenic rivers, and national forest wilderness areas 
of ANILCA. ``Public land units'' include the Tongass and Chugach 
National Forests, National Petroleum Reserve Alaska, military 
reservations, and BLM management units.
    We oppose the idea of transferring management from the established 
Federal land management agencies to any private entity through a 
demonstration project or by any other means. Management of the Federal 
lands must remain the sole responsibility of the Federal Government. 
This is the fundamental principle that H.R. 4734 would overturn.
    Although firmly opposed to the idea of ``privatizing'' Federal land 
management, we continue to strongly support--as we did in a pilot 
program on local hire passed in the last Congress--Federal agency 
efforts to increase local employment as part of the management of 
Federal lands in Alaska. Sections 1307 and 1308 of ANILCA have resulted 
in such employment, and as the results of the pilot project for the 
four National Park System units show, increasing numbers of local 
residents have been hired at the four units.
    H.R. 4734 comes a year and a half after Congress enacted Public Law 
106-488, ``An Act to improve Native hiring and contracting by the 
Federal Government within the State of Alaska, and for other 
purposes.'' As originally introduced in the Senate, the legislation 
would have authorized Alaska Native entities to assume management 
responsibilities for National Park System units. This provision was 
deleted, while a provision establishing the Northwest Alaska pilot 
program was retained.
    We recommend that the Committee take the same approach to H.R. 
4734: delete the proposed demonstration projects under private 
entities, and instead call for more pilot projects and similar measures 
designed to increase local employment in the management of the public 
lands.
    One very practical way of achieving the local hire goals of this 
bill would be to provide the Federal land management agencies with the 
funds they need to fully carry out their numerous responsibilities 
under existing laws. In general, the agencies are understaffed, 
particularly in the remote regions where local employment opportunities 
are most needed. A substantial increase in agency budgets for 
additional field staff could go a long way toward achieving the local 
hire goals we all support.
    Thank you, Mr. Chairman, for considering our views.
                                 ______
                                 
    Mr. Young. Mr. Angapak?

   STATEMENT OF NELSON N. ANGAPAK, EXECUTIVE VICE PRESIDENT, 
                  ALASKA FEDERATION OF NATIVES

    Mr. Angapak. Good morning, Mr. Chairman, members of the 
Committee, ladies and gentlemen. For the record, my name is 
Nelson Angapak, Sr., Executive Vice President, Alaska 
Federation of Natives. As you may already know, Mr. Chairman, 
AFN is a State-wide Native organization founded in 1966 to 
represent Alaska's 100,000-plus Alaska Natives on issues of 
concern to us. On behalf of AFN, its Board of Directors, and 
membership, thank you very much for giving me an opportunity to 
testify on H.R. 3048.
    H.R. 3048 is a demonstration that Section 2(b) of ANCSA can 
actually be followed. Section 2(b) of ANCSA states, in part, 
``settlement should be accomplished rapidly, with certainty, 
without litigation, with maximum participation by the Natives 
in decisions affecting their rights and property.''
    Mr. Chairman, today is June 5, 2002. More than 30 years 
ago, we were promised that our land settlement would be 
resolved rapidly. AFN feels H.R. 3048 is a step in the right 
direction in fulfillment of a promise that was made to us with 
the passage of the Alaska Native Claims Settlement Act. H.R. 
3048 is a product of negotiations between the United States 
Fish and Wildlife Service, the United States Forest Service, 
and CIRI, and Mr. Chairman, it demonstrates that where there is 
good will among all the parties, that there can be actually a 
step toward a fulfillment of our land entitlements promised us 
30 years ago.
    With that in mind, Mr. Chairman, AFN recommends that 
Congress passes H.R. 3048 because it will lead to fulfillment 
of the promise made us 30 years ago. Again, thank you very 
much, Mr. Chairman, for your continued interest in the well-
being of the Native corporations.
    Mr. Young. Thank you, Nelson.
    [The prepared statement of Mr. Angapak follows:]

 Statement of Nelson N. Angapak, Sr., Executive Vice President, Alaska 
                  Federation of Natives, on H.R. 3048

    Mr. Chairman, Honorable members of the U.S. House Resources 
Committee, ladies and gentlemen:
    For the record, my name is Nelson N. Angapak, Sr., Executive Vice 
President, of the Alaska Federation of Natives (AFN). As you may 
already know, AFN is a statewide Native organization formed in 1966 to 
represent Alaska's 100,000+ Alaska's Eskimos, Indians and Aleuts on 
concerns and issues which affect the rights and property interests of 
the Alaska Natives on a statewide basis.
    On behalf of AFN, its Board of Directors and membership, thank you 
very much for inviting AFN to submit its statement to the Committee on 
H.R. 3048. It is a privilege and honor to testify in front of your 
Committee.
    I ask that this written statement and my oral comments be 
incorporated into the record of this public hearing.
H.R. 3048
    President Richard M. Nixon signed P.L. 92-203, Alaska Native Claims 
Settlement Act, (ANCSA) into law on December 18, 1971. In Section 2(b) 
of ANCSA, Congress declared that:
        ``settlement should be accomplished rapidly, with certainty, 
        without litigation, with maximum participation by Natives in 
        decisions affecting their rights and property...''
    Today is June 5, 2002; and the promises made to us by ANCSA remain 
unfulfilled insofar as land is concerned. For example, the title of the 
lands we selected will remain clouded until such time the mandates of 
Section 14(c) of ANCSA are fulfilled.
    H.R. 3048 is a positive demonstration that there was maximum 
participation by Natives in decisions affecting their rights and 
property...'' as mandated by Congress by Section 2(b) of ANCSA. The 
terms and conditions that would be codified if H.R. 3048 passes 
Congress, and is signed into law by President Bush, is a product of the 
negotiations between the United States Fish and Wildlife Service (FWS), 
the United States Forest Service (USFS), and Cook Inlet Region, 
Incorporated (CIRI) for the past three years.
    The Alaska Federation of Natives applauds the efforts of these 
parties in fulfilling Section 2(b) of ANCSA in what is now before this 
Committee in form of H.R. 3048.
    AFN encourages the passage of H.R. 3048 as it is part of the 
fulfillment of a promise made by Congress; that is, settlement of the 
claims of the Alaska Natives against the Federal Government should be 
accomplished rapidly and with certainty; insofar as the Alaska Native 
Community is concerned, and in this instance, Cook Inlet Region, Inc.
    Thank you again for inviting me to testify in front of this 
Committee on H.R. 3048. If you have any questions concerning this 
statement, I can entertain them now.
                                 ______
                                 
    Mr. Young. I understand that Mr. Hession wants to testify 
on the other two bills, or are we going to leave that alone? 
Mr. Angapak, you also are going to say something about H.R. 
3148, or was that your statement on both?
    Mr. Angapak. Mr. Chairman, I do have a statement on H.R. 
3148.
    Mr. Young. OK. Do you want to present your testimony on 
H.R. 3148 now?
    Mr. Angapak. I can present that, Mr. Chairman.
    Mr. Young. Go right ahead.

   STATEMENT OF NELSON N. ANGAPAK, EXECUTIVE VICE PRESIDENT, 
                  ALASKA FEDERATION OF NATIVES

    Mr. Angapak. Mr. Chairman, let me begin my statement on 
H.R. 3148 with the following quote. ``For those who fought for 
freedom has a flavor of protected, we will never know.''
    Mr. Chairman, I am honored that the Committee invited 
Walter Sampson and Eben Olrun, both distinguished Vietnam-era 
veterans, both with distinguished medals on the battlefield. 
Mr. Chairman, H.R. 3148 is a bill we feel will finally fulfill 
the promise that was made to the Native people of Alaska back 
in 1906. However, insofar as veterans are concerned, Alaskan 
veterans are concerned, we are requesting through H.R. 3148 
that the land base be expanded for the veterans, because at the 
present time, all of the lands in the State of Alaska are 
appropriated in one form or another.
    So with that in mind, Mr. Chairman, we request that the 
land base of the Native Allotment Act for veterans be expanded 
in such a way that the veterans will be able to apply for 
Native allotments from all vacant public lands in Alaska.
    We also recommend the removal of the National Forest 
Exclusion for this reason. All of the veterans in Southeast 
Alaska who have applied for Native allotments are likely not to 
get their Native allotments. Yet, they have inhabited that 
territory long before the arrival of Western society. I think 
it is very unfair that just because of the existence of the 
national forests in Southeast Alaska and South Central Alaska 
that our Native people and particularly our veterans who risked 
their lives to protect this nation cannot even apply for Native 
allotments in their home territory.
    We recommend, Mr. Chairman, that the qualifying dates be 
expanded from August 5, 1964, to May 7, 1975. The Alaska Native 
Allotment Act as it was originally passed for the Native 
people, the first 64 years of the Native Allotment Act as it 
applies to the Native people of Alaska, only 245 Natives 
applied for allotments because it was a best-kept secret.
    Mr. Chairman, we also recommend that the legislative 
approval process of ANILCA be extended to allotments applied 
for by the veterans.
    We also recommend that, Mr. Chairman, the use and occupancy 
requirement, insofar as the Alaska Native veterans are 
concerned be removed. There are precedents for this, because in 
the history of this nation, this nation has a proud history of 
being able to provide land for its veterans.
    Mr. Chairman, I could go on, but very briefly, pursuant to 
the terms of Public Law 105-276, approximately 1,110 veterans 
could have applied for allotments, but as it turned out, 741 of 
those applied for allotments and a greater percentage of them 
in Southeast Alaska were removed.
    Mr. Chairman, I have other proposed additions to H.R. 3148, 
but I would like to, with your permission, submit them in a 
formal written statement.
    Mr. Young. Thank you, Nelson. As you noticed, the timer is 
not working, so I am going to be keeping the time and you did 
stay within the 5 minutes. I do not understand this modern 
technology at all, why it is not working, but I will keep my 
watch, and it is a Timex, so be careful, it is poised on exact 
time.
    [Laughter.]
    [The prepared statements of Mr. Angapak follow:]

 Statement of Nelson N. Angapak, Sr., Executive Vice President, Alaska 
                  Federation of Natives, on H.R. 3148

    Mr. Chairman, Honorable members of the U.S. House Resources 
Committee, ladies and gentlemen:
    For the record, my name is Nelson N. Angapak, Sr., Executive Vice 
President, of the Alaska Federation of Natives (AFN). As you may 
already know, AFN is a statewide Native organization formed in 1966 to 
represent Alaska's 100,000+ Alaska's Eskimos, Indians and Aleuts on 
concerns and issues which affect the rights and property interests of 
the Alaska Natives on a statewide basis.
    On behalf of AFN, its Board of Directors and membership, thank you 
very much for inviting AFN to submit its statement to the Committee on 
H.R. 3148. It is a privilege and honor to testify in front of your 
Committee.
    I ask that this written statement and my oral comments be 
incorporated into the record of this public hearing.
    At the outset, I want to take this opportunity to thank you and the 
U.S. House Resources Committee for having worked with AFN and the 
Alaska Native Community during the past millennium on issues of concern 
to AFN and the Alaska Native Community. During the last millennium, 
U.S. Congress passed a series of historic legislation that benefitted 
the Alaska Native Community. Some examples of such legislation include, 
but are not limited to: P.L. 92-203, the Alaska Native Claims 
Settlement Act; Indian Child Welfare Act, Self-determination, Title III 
of the Alaska National Interest Lands Conservation Act; just to name a 
few.
AFN Supports the Passage of H.R. 3148
    AFN lobbied for the reopening of the Native Allotment Act of May 
17, 1906 for the Alaska Native veterans who were unable to apply for 
Native Allotments because they were serving in active duty in the U.S. 
Armed Forces of this nation. Congress corrected this oversight by the 
inclusion of Section 41 of P.L. 105-276 and AFN thanks you for having 
the courage to act affirmatively on this by authorizing those of us who 
served in active duty in the U.S. Armed Forces with the authority to 
apply for Native Allotments if we served for at least six months of 
active duty during the period January 1, 1969 to December 31, 1971.
    We are returning to Congress to seek your support of amending P.L. 
105-276 in the following manner:
    1. Expand the land base of P.L. 105-276: P.L. 105-276 mandates that 
the Alaska Native Veterans of the ``Nam Era can only apply for lands 
that are vacant, unappropriated, and unreserved lands. As you know, 
almost all the lands in Alaska are appropriated and reserved; and in 
particular, after the enactment of the Alaska National Interest Lands 
Conservation Act into public law. AFN proposes that the Alaska Native 
veterans be allowed to apply for Native Allotments on unoccupied public 
lands in Alaska. Expanding the land base in this manner will increase 
the land base from which veterans can apply for as Native Allotments.
    2. Remove National Forest Exclusion: Almost, if not all of the 
Native Allotment applications of the Alaska Native veterans of 
Southeast Alaska; and to some degree, South-Central Alaska will be 
denied because of the National Forest Exclusion. Collectively, largest 
concentrations of Alaska Native veterans reside in these regions of 
Alaska. AFN recommends that Congress removes this restriction; at the 
very least for the ``Nam Era Alaska Native veterans of these two 
regions. This act on the part of Congress will remove one of the most 
bizarre limitations that face Alaska Native veterans in their quest for 
Native Allotments.
    3. Expand the Qualifying Date from August 5, 1964 to May 7, 1975: 
This nation recognizes the ``Nam Era Conflict dates to be from August 
5, 1964 to May 7, 1975; and likewise, these dates are used by various 
Federal agencies as dates for the ``Nam Conflict; therefore, AFN 
recommends that Congress expands the Alaska Native Veteran qualifying 
dates to these dates. If this happens, approximately 1,174 Alaska 
Natives who served outside of January 1, 1969 to December 31, 1971 will 
become eligible to apply for Native Allotments.
    At this point, I would like to take this opportunity to advise the 
U.S. House Resources Committee members that historically, the Alaska 
Natives and the American Indians have, on a per capita basis, the 
greatest number of membership served in active duty in the U.S. Armed 
Forces; and in particular, during the major military conflicts of this 
nation. The Honorable George W. Bush, President of the United States of 
America referenced this fact recently during his stop over in 
Anchorage, AK. We thank President Bush for the public recognition of 
this fact.
    It is AFN's hope that Congress will recognize the patriotism of the 
Alaska Natives to this nation enacting H.R. 3148 into a statute. This 
recognition is long over due.
    4. Extend the Legislative Approval Process of the Alaska National 
Interest Lands Conservation Act (ANILCA) to Alaska Native Veterans 
Native Allotment Process: Section 905 (a)(1) of ANILCA mandates that 
the Native Allotments pending before the Secretary of the Interior on 
December 18, 1971 be considered legislatively approved on the 180th day 
after the enactment of ANILCA. AFN recommends that the legislative 
approval process of Section 905 ANILCA be extended to the Native 
Allotment applications of the Alaska Native veterans
    5. Use and Occupancy: Throughout the history of this nation, this 
country has provided certain privileges to the military and veterans of 
this nation. For example, 43 U.S.C. 183 suspended, in part, the 
residency requirements until 6 months after the individual was 
discharged from military service. AFN recommends the waiver of use and 
occupancy requirement of the Native Allotment Act as it applies to the 
``Nam Era Alaska Native veterans and their Native Allotment 
applications. One example that illustrates this point is that a 
deserving Alaska Native Vietnam veteran who was paralyzed during the 
Vietnam conflict would be rejected if that veteran were unable to 
complete the five years of use of the claimed land and, had not used 
the land for five years before the war.
    The Honorable Don Young's staff did an excellent job of identifying 
the major obstacles which made it difficult for the Alaska Native 
Veterans of the ``Nam Era to apply for Native Allotments. These are 
identified as follows in summary form:
    1. P.L. 105-276's first obstacle is: Alaska Native Vietnam veterans 
can only apply for land that was vacant, unappropriated, and unreserved 
when their use first began.
    2. The second obstacle is: Alaska Native Vietnam veterans can only 
apply if they served in active military duty from January 1, 1969 to 
December 31, 1971 (even though the Vietnam conflict began August 5, 
1964 and ended May 7, 1975).
    3. The third obstacle is: Alaska Native Vietnam veterans must prove 
they used the land (applied for in their native allotment application) 
in a substantially continuous and independent manner, at least 
potentially exclusive of others, for five or more years.
    If the Honorable Don Young's proposed amendments are accepted by 
Congress, AFN feels that the original intent of P.L. 105-276 will be 
realized and we applaud his staff, and in particular, Ms. Cynthia 
Ahwinona, for her diligence and hard work in assisting us in moving our 
proposed amendments to P.L. 105-276. With Ms. Ahwinona's able 
assistance, AFN has been able to move its proposed amendments to P.L. 
105-276 this far during this and past Congressional Sessions. We extend 
AFN's gratitude for her hard work on behalf of the people of Alaska, 
and in particular, the Alaska Natives.
Best Kept Secret
    In its May 19, 2002 issue, The Anchorage Daily News printed a story 
on the Native Allotment Act of May 17, 1906 and I quote:
        ``On May 17, 1906, a law went into effect that has been 
        described by one legal specialist as ``the best-kept secret the 
        government has ever had.'' That was Alaska Legal Services 
        attorney Carol Yeatman's description of the Native Allotment 
        Act, which aimed to provide up to 160 acres of land to 
        individual Alaska Natives. It was to extend the Dawes Act of 
        Feb. 8, 1887, to Alaska.''
        ``Although virtually all Alaska Natives were eligible to apply 
        for land that had been used by their families and other 
        relatives for subsistence purposes for generations, in the 
        first 64 years of the Act, only 245 allotments were approved, 
        according to Alaska Legal Services. Most Natives were unaware 
        of the law, and between language barriers and government red 
        tape, those who did apply for an allotment often faced 
        literally decades of waiting.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Anchorage Daily News, May 19, 2002 Edition
---------------------------------------------------------------------------
ANCSA
    Passage of the Alaska Native Claims Settlement Act of 1971 closed 
the door on further allotment applications pursuant to the terms and 
conditions of the May 17, 1906 as that statute applies to the Alaska 
Natives.
Section 41 of P.L. 105-276
    Section 41 of P.L. 105-276 authorized approximately 1,110 Alaska 
Native veterans who served in active duty in the U.S. Armed Forces from 
January 1, 1969 to December 31, 1971 with the right to apply for Native 
Allotments. The Alaska Federation of Natives honored Native veterans at 
the 1998 convention, and the allotment change was one of AFN's 
initiatives that year.
    This following is a summary of Alaska Native Veteran Application 
Statistics as of April 9, 2002 according to Bureau of Land Management 
records:
    1. Applications Received--741
    2. Number of Parcels--990
    3. Number of Applications without Land Descriptions--240
    4. Number of Parcels Rejected--133
    5. Number of Parcels Appeals have been Filed On--32
    6. Number of Parcels Appeals have been Dismissed On--8
    7. Number of Parcels Field Exams Requested for--52 <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ Bureau of Land Management, April 9, 2002, Anchorage, AK (1 to 
7)
---------------------------------------------------------------------------
    The discrepancy between the number of applicants and the number of 
parcels applied for is a result of some veterans applying for two 
parcels of land as statutorily authorized by Section 41 of P.L. 105-
276.
    Reason for Rejections (Some parcels were rejected for more than one 
reason):
     1. Land Applied for was Previously Conveyed 46
     2. Non-Resident--13
     3. Tongass N.F. (U/O doesn't predate withdrawal)--9
     4. Nunivak Island (U/O doesn't predate withdrawal)--3
     5. Kenai Moose Range (U/O doesn't predate Withdrawal)--1
     6. Chugach N. F. (U/O doesn't predate withdrawal)--3
     7. Denali N. P. (U/O doesn't predate withdrawal)--1
     8. St Lawrence Island (U/O doesn't predate withdrawal)--1
     9. Failure to Correct Application Deficiencies--2
    10. Ineligible Military Service Dates--27
    11. Inactive National Guard Service--14
    12. Less Than Honorable Military Service--1
    13. Applicant 'has a pending 1906 NA Application--1 <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ Bureau of Land Management, April 9, 2002, Anchorage, AK (1 to 
13)
---------------------------------------------------------------------------
    The greatest concentrations of Alaska Natives are located in 
Southwest and Southeast Alaska, historically speaking. This is also 
true, in our opinion, of the Alaska Natives who served in active duty 
in the U.S. Armed Forces from January 1, 1969 to December 31, 1971. The 
Alaska Native veterans located in Southwest Alaska have a better chance 
of having their allotment applications approved than those living in 
Southeast Alaska. In Southeast Alaska, virtually all, if not all of the 
Native Allotment Applications of Alaska Native veterans, will be denied 
by Bureau of Land Management because of the existence of the Tongass 
National Forest. Some of the Alaska Native veterans' allotment 
applications in Southcentral Alaska will also be denied because of the 
existence of the Chugach National Forest. In both instances, the 
existence of the Tongass and Chugach National Forests in Southeast and 
Southcentral Alaska respectively leads to automatic rejection of Native 
Allotment applications of the Alaska Native veterans of these regions 
because of the National Forest exclusion.
National Forests
    Some veterans received medals and other citations because of their 
heroic actions in the battlefields of Southeast Asia. One such veteran 
is Larry Evanoff of Chugachmiut and an AFN Board member. He once 
jokingly told me that he was full of bullet holes but has only one 
Purple Heart. He risked his life, just as these two gentlemen with me 
did, yet, their reward by our government is to reject their 
applications because of the accident of their locations. Mr. Evanoff 
advised me that his allotment application is being rejected by Bureau 
of Land Management because it is located within the Chugach National 
Forest.
    Some of the Alaska Native veterans in Southeast and Southcentral 
Alaska did not apply for Native Allotments as authorized by Section 41 
of P.L. 105-276 because they know that their applications will be 
automatically rejected because of the existences of Tongass and Chugach 
National Forests respectively. AFN recommends that Congress considers 
removing the National Forest exclusion, at the very least, insofar as 
the Alaska Native veterans and their Native Allotment Applications are 
concerned.
Proposed Additions to H.R. 3148
    The Alaska Federation of Natives is submitting the following 
proposed technical amendments to the Alaska Native Claims Settlement 
Act for your consideration:
    SECTION 3: AMEND 43 U.S.C. Section 1636(D)(1)(A)(II) BY ADDING 
``AND ASSESSMENTS AS FOLLOWS:
        Amend 43 U.S.C. Section 1636(d)(1)(A)(ii) of the Alaska Native 
        Claims Settlement Act by adding ``and assessments'' between 
        'taxes' and 'by' such that it reads
            (ii) real property taxes and assessments by any 
            governmental entity;
Justification
    The 1987 amendments to ANCSA exempted ANCSA lands of Native 
Corporations from being taxed by any governmental entity so long as 
these lands remain undeveloped. Recently, some municipal governments 
began monetary ``assessments'' of ANCSA lands because they feel that 
the 1987 amendments to ANCSA did not specifically prohibit the 
``assessment'' of ANCSA lands for ``improvements'' placed on ANCSA 
lands at the request of third parties. These ``improvements'' include 
placement of water and sewer lines, power lines, etc. on or over ANCSA 
lands. The Native Corporations did not request the placements of these 
``improvements'' on their lands.
    AFN contends that the Congress intended to exempt undeveloped 
Native lands from taxation including assessments, in order to prevent 
Native Village Corporations from being forced to pay for local 
assessments on undeveloped lands, and to prevent executions against 
Native Corporation monies and investments for unpaid assessments. AFN 
urges the Congress to amend ANCSA Section 1636 land protections by 
adding the two words as highlighted below:
        Sec. 11(d)(1)(A) Notwithstanding any other provision of law or 
        doctrine of equity all land and interest in land in Alaska 
        conveyed by the Federal Government pursuant to the Alaska 
        Native Claims Settlement Act to a Native individual or Native 
        Corporation . . . shall be exempt, so long as such land and 
        interests are not developed or leased or sold to third parties 
        from:
            (i) adverse possess and similar claims based upon estoppel;
            (ii) real property taxes and assessments by any 
            governmental entity;
            (iii) judgments . . ..
    AFN further urges the Congress to make the application of this 
amendment retroactively effective to end assessments that local 
governments are already imposing on undeveloped lands of Native Village 
Corporations. This taking of ANCSA assets for unwanted development is 
unfair and must be prevented.
SECTION 4: RELATION TO CIVIL RIGHTS ACT OF 1964.
    The Alaska Native Claims Settlement Act (Public Law 92-203, 
December 18, 1971, 85 Stat. 688, 43 U.S.C. 1601, et seq.), as amended, 
is further amended by inserting, in section 29(g) (43 U.S.C. 
Sec. 1626(g)):
    (1) after ``joint ventures'' the words ``sole proprietorships,''; 
and
    (2) after ``equity'' the words ``, or with which the Native 
Corporation or affiliate engages in one or more commercial transactions 
that exceed a total of $20,000 in the calendar year, within the course 
and scope of such commercial transaction,''.
    This amendment amends 43 U.S.C. Sec. 1626(g) to read as follows:
        For the purposes of implementation of the Civil Rights Act of 
        1964, [42 U.S.C. Sec. 2000a et seq.], a Native Corporation and 
        corporations, partnerships, joint ventures, sole 
        proprietorships, trusts, or affiliates in which the Native 
        Corporation owns not less than 25 per centum of the equity, or 
        with which the Native Corporation or affiliate engages in one 
        or more commercial transactions that exceed a total of $20,000 
        in the calendar year, within the course and scope of such 
        commercial transaction, shall be within the class of entities 
        excluded from the definition of ``employer'' by section 
        701(b)(1) of Public Law 88-352 (78 Stat. 253) [42 U.S.C. 
        Sec. 2000e(b)(1)], as amended, or successor statutes.
Justifications
    The 1987 amendments to ANCSA exempted Native corporations from 
Federal anti-discrimination provisions in employment, to allow Native 
corporations to prefer shareholder hiring. Such a policy benefits 
Alaska Natives by providing increased jobs in that community. This 
amendment would also exempt from the Civil Rights Act of 1964 
contractors with which a Native Corporation does more than $20,000 
worth of commercial transactions in a calendar year.
    SECTION 5: APPLICABILITY OF NATIONAL WILDLIFE REFUGE RESTRICTIONS
        Section 22(g) of the Act is amended by striking 
        `Notwithstanding' and all that follows through `of such 
        Refuge.'.
    When ANCSA was signed into law, section 22(g) ordered that lands 
selected by the village corporations from the wildlife refuge lands 
would be subject to rules and regulations that governed refuge lands. 
There is some uncertainty of the applicability of this law insofar as 
ANILCA created wildlife refuge lands are concerned. U.S. Fish and 
Wildlife Service contends that 22(g) created a Federal interest on 
ANCSA selected lands and thus requires no compensation to the ANCSA 
corporations. The Native corporations contend that this law is 
applicable only on refuge lands in place at the time of the passage of 
ANCSA.
    AFN proposes to amend Sec. 22(g) of ANCSA by lifting its 
requirement that lands selected by the village corporations from 
refuges be governed as if they are wildlife refuge. This amendment 
supports the Alaska Native position and further clarify that lands 
selected by the ANCSA corporations became private lands the moment they 
were selected by the ANCSA corporations.
Justifications
    When Congress passed the Alaska Native Claims Settlement Act, it 
promised the Alaska Natives, in part, that their claims against the 
Federal Government would be settled ``rapidly, in conformity with the 
real economic and social needs of Natives, without litigation, with 
maximum participation in decisions affecting their rights and 
property...''
    ANCSA was signed into law on December 18, 1971. The use of the 
lands selected by the village corporations from the refuges remain 
subject to the rules and regulations that govern refuges. This 
restriction limits the village corporations from gaining true ownership 
of these lands as private lands. This restriction is paramount to 
taking of privately held lands for public use without just compensation 
to the landowners.
    U.S. Fish and Wildlife Service uses the 22(g) restriction as a 
means of reducing the fair market value of the lands selected and 
conveyed to the village and regional corporations when such lands are 
involved in land trades.
    This amendment will give the affected village corporations an equal 
footing as the other ANCSA corporations insofar as land ownership is 
concerned. This amendment will finally allow Congress to fulfill its 
promise of meeting the real economic and social needs of the Alaska 
Natives when Congress passed ANCSA some twenty-eight (28) years ago.
    SECTION 6. CLARIFICATION OF LIABILITY FOR CONTAMINATION
        ``SEC. 43. Notwithstanding section 107 of the Comprehensive 
        Environmental Response, Compensation, and Liability Act of 
        1980, or any other provision of law, no person acquiring any 
        interest in land under this Act shall be liable for the costs 
        of removal or remedial action, any damages, or any third party 
        liability arising out of or as a result of any contamination on 
        that land at the time that such land was acquired under this 
        Act unless such person was directly responsible for such 
        contamination.''
    AFN proposes to amend ANCSA such that the ANCSA Corporations will 
be cleared and absolved of any and all harm and any liability of the 
contaminants found on what eventually became ANCSA lands if such 
contaminants were placed on those lands while they were owned or were 
under the management of the Federal Government.
Justifications
    Some of the lands selected by and conveyed to the ANCSA 
Corporations were contaminated when these lands were owned or under the 
management of the Federal Government. Because of this, the ANCSA 
Corporations must be cleared and absolved of any and all harm and any 
an all liability of the contaminants found on what eventually became 
ANCSA lands if such contaminants were placed on those lands while they 
were owned or were under the management of the Federal Government.
    Congress meant what it stated that the ``settlement of the claims 
of the Alaska Natives against the Federal Government must be done in 
such a way that the real economic and social needs of the Alaska 
Natives are met.'' Forcing the ANCSA corporations to clean up the 
contaminants placed on these lands may bankrupt some of the ANCSA 
corporations because the cost of cleaning them may exceed the monies 
that the ANCSA corporations received pursuant to the terms and 
conditions of P.L. 92-203. If this happens, the original intent of 
Congress of meeting the real economic and social needs of the Alaska 
Natives will be defeated.
Lesnoi, Inc.
    AFN would like to go on record of asking the U.S. House Resources 
Committee to consider confirming the fact that Lesnoi, Inc. is an ANCSA 
village corporation in accordance to the terms and conditions of P.L. 
92-203, The Alaska Native Claims Settlement Act. The people who are 
really suffering in the instance of Lesnoi, Inc. is its Alaska Native 
shareholders who legally and timely enrolled into this village 
corporation on or before December 18, 1974.
    Thank you for your consideration. I would be willing to answer any 
questions that the Committee might have on my written and oral 
statements.
                                 ______
                                 

   Supplemental Statement of Nelson N. Angapak, Sr., Executive Vice 
                President, Alaska Federation of Natives

    Mr. Chairman, Honorable members of the U.S. House Resources 
Committee:
    We reviewed H.R. 3148 and found that there two clarifying 
amendments we would like the Committee to consider during the mark-up 
of H.R. 3148. They are as follows:
Clarifying Amendments to H.R. 3148
    Upon closer review of H.R. 3148, we found that we should pursue 
clarifying amendments to H.R. 3148 as follows:
    1. Compensatory Language: H.R. 3148 allows, if enacted into law, 
upon the approval of the ANCSA corporations affected, the Alaska Native 
veterans with the right to apply for Native Allotments on lands 
selected or conveyed to them. H.R. 3148 is silent, insofar as 
compensating ANCSA corporations is concerned, for the lands that the 
Alaska Native veterans apply for from ANCSA corporate selected or 
conveyed lands.
    AFN recommends that H.R. 3148 be amended, during the mark-up, in 
such a manner that it clarifies that ANCSA corporations will be 
compensated, acre for acre, for the lands that Alaska Native veterans 
apply for as Native Allotments if such lands were selected by or have 
been conveyed to the ANCSA corporations.
    Rationale: First and foremost, Congress, through the Alaska Native 
Claims Settlement Act, promised the ANCSA corporations certain amounts 
of land on a per capita as well as on the land loss formula. This 
amendment will clarify that the land entitlements of the ANCSA 
corporations will remain intact even if the Alaska Native veterans 
apply for Native Allotments on ANCSA selected or conveyed lands. AFN 
feels that such an amendment will make it easier for the ANCSA 
corporations to allow the Alaska Native veterans to apply for Native 
Allotments on lands they selected or conveyed to them.
    This same language should be extended to the State lands similarly 
affected.
    2. Subsurface lands: The Federal Government reserves unto itself 
oil and gas and mineral estates of the lands applied for and approved 
as Native Allotments. This policy is uniformly followed by the Federal 
Government on Native Allotments in the State of Alaska.
    H.R. 3148 is silent on this issue. AFN recommends that H.R. 3148 
claries that the subsurface of the ANCSA lands applied for as Native 
Allotments remain with the regional corporation in which that Native 
Allotment is located.
    Rationale: This amendment will assure the regional corporations 
that their subsurface estates will remain intact as they were prior to 
the Alaska Native veteran applying for that land as a Native Allotment.
    Please consider incorporating these proposed amendments into H.R. 
3148 when the U.S. House Resources Committee marks-up H.R. 3148 at some 
point in the future.
    Thank you for your consideration. If you have any questions 
concerning these supplemental comments on H.R. 3148, please call me at 
the Alaska Federation of Natives at 907-274-3611.
                                 ______
                                 

 Statement of Nelson N. Angapak, Sr., Executive Vice President, Alaska 
                  Federation of Natives, on H.R. 4734

    For the record, my name is Nelson N. Angapak, Sr., Executive Vice 
President, of the Alaska Federation of Natives (AFN). As you may 
already know, AFN is a statewide Native organization formed in 1966 to 
represent Alaska's 100,000+ Alaska's Eskimos, Indians and Aleuts on 
concerns and issues which affect the rights and property interests of 
the Alaska Natives on a statewide basis.
    On behalf of AFN, its Board of Directors and membership, thank you 
very much for inviting AFN to submit its statement to the Committee on 
H.R. 4734. It is a privilege and honor to testify in front of your 
Committee.
    I ask that this written statement and my oral comments be 
incorporated into the record of this public hearing.
    AFN Supports the Passage of H.R. 4734
    Public Law No. 106-488, allows, on a pilot project basis, 
preferential treatment of Native hire and contracting within NANA 
Regional Corporation and Bering Straits Native Corporation boundaries. 
This statute is a step in the right direction insofar as partial 
implementation of Sections 1306 and 1307 of the Alaska National 
Interest Lands Conservation Act (ANILCA) is concerned. AFN supports 
amending P.L. 106-488 make its application statewide in nature, and 
H.R. 4734 would accomplish that when it is enacted into statute.
    H.R. 4734 would accomplish the following:
    <bullet> Expand Alaska Native contracting authority in regard to 
Federal resources and conservation unit management in Alaska.
    <bullet> Expand authorization for co-management of fish and 
wildlife resources and applies only in Alaska.
    <bullet> Make at least some of the existing contracting provisions 
mandatory rather than discretionary.
    Sections 1306 and 1307 of ANILCA gives preference to Native 
corporations in the siting of agency facilities and in obtaining 
concessions for visitor services. Section 1308 makes special provision 
for the Federal management agencies to employ local residents. With the 
limited experience of the siting of some agency facilities on Native 
lands, these promises have gone unfulfilled. National Federal policy to 
``mirror America'' in employment, for example, effectively limits the 
employment of Alaska Natives in the state to the percentage of Native 
Americans in the National population, even though the Native population 
percentage in Alaska, and particularly rural Alaska, is much higher.
    P.L. 93-638: Title IV of P.L. 93-638, enacted in 1994, was intended 
to expand the ability of tribal organizations with self-governance 
compacts to include non-BIA Interior Department activities in their 
compacts when there is a close relationship between the Federal 
activity and the Native Community. A glance at the map suggests that in 
Alaska, Title IV should be a vehicle for at least some expansion of 
Native compacting to the administration of Federal land units and 
management of fish and wildlife. The Department of the Interior has 
concluded that compacting non-BIA functions is completely discretionary 
except for explicit ``Native'' programs, and both the National Park 
Service and the U.S. Fish and Wildlife have conveniently concluded they 
have no such programs.
    The non-profits have approached the Federal land agencies numerous 
times with proposals for 638 contracts with virtually no success for 
any program which isn't considered specifically ``Native'' by the 
Interior Department. The Interior Department's resistance to 638 
contracting non-BIA programs has progressively hardened over the last 
few years.
    Some factors that Congress should take into account as it 
deliberates on H.R. 4734 include the following:
    <bullet> Cooperative Management: Section 119 of the Marine Mammals 
Protection Act authorizes the Secretary of the Interior to enter into 
cooperative agreements with Native organizations regarding conservation 
and subsistence.
    <bullet> ANILCA Section 806 also authorizes cooperative agreements 
among Federal agencies, the state, Native corporations and other 
parties. Although there are several examples in Alaska of successful 
cooperative agreements, Native groups are still not an equal player in 
Federal decisions that affect their subsistence-based way of life. Both 
statutory provisions are discretionary. The inability to contract any 
of the underlying Federal functions has hindered Native efforts to 
fully take advantage of these sections. In general, the Federal 
agencies only support cooperative agreements when they want something 
specific from the Native Community or in circumstances where Federal 
agency does not otherwise have opportunity to regulate.
    Some examples of what might be contracted out by Federal agencies:
    <bullet> U.S. Fish and Wildlife Service, at least in the Yukon 
Delta National Wildlife, has utilized the local Alaska Natives in 
banding black brand and other migratory birds that nest and rest in 
this refuge. This act on the part of the managers of this refuge, the 
largest national wildlife refuge of its type in the United States, has 
created employment opportunities in an area where it is needed. More 
importantly, this act on the part of the managers of this refuge has 
created a friendly atmosphere between the Native people who reside 
either within the boundaries of this refuge. This in turn is creating a 
feeling of trust between the Alaska Natives in this region and the U.S. 
Fish and Wildlife Service. The branding of black brand is an example of 
the kind of program that could be contracted out to the Native 
organizations within this region.
    <bullet> Broadened Native contracting and co-management authority 
will make Federal land management and fish and wildlife management more 
responsive to the local needs and concerns, without sacrificing 
national interests. It will help bridge the gap between local 
communities and the Federal bureaucracies and increase local support of 
the conservation system units in Alaska. Native contracting will also 
keep more of the economic benefit of these vast Federal enclaves in 
rural Alaska, much of which has high unemployment and is in ``economic 
disaster'' because of declining fisheries.
    Section 2(b), ANCSA: Section 2(b) of the Alaska Native Claims 
Settlement Act mandates the participation of the Alaska Natives on 
decisions affecting their rights and property. Amending P.L. 106-488 in 
the manner proposed by H.R. 4734 is a step toward the fulfillment of 
this congressional mandate.
    Finally, H.R. 4734 is not the solution to the subsistence impasse 
in Alaska, nor is it primarily directed at subsistence, and because a 
Federal takeover of subsistence fisheries has occurred in Alaska, 
native contracting and co-management will be a means of keeping on-the-
round control in the hands of Alaskans.
    It must be understood, beyond any shadow of doubt, H.R. 4734 is a 
bill whose goal is to increase employment opportunities within the 
Native Community. It will go all ways to fulfill what we were promised 
by sections 1307 and 1308 of ANILCA.
    Again, thank you for allowing me to testify on this bill. If you 
have any questions concerning my statement on H.R. 4734, I will 
entertain them at this time.
                                 ______
                                 
    Mr. Young. I believe, Mr. Hoffman, you have got some 
objections to a bill of mine, H.R. 4734. Do you have any other 
comments on any of the other legislation while you are at it?
    Mr. Hoffman. Yes, sir.
    Mr. Young. One thing I can tell you, I am not particularly 
happy with you or the Department right now. We did not get your 
testimony against this legislation until last night. I have 
been through seven Administrations and one of these days, I am 
going to get mad enough to say you guys can kiss my ear. You 
are not going to have the right to give us testimony 12 hours 
before the hearing. This is not you personally, this is an 
attitude down in that Department, regardless of who the 
Secretary is, of dragging their feet, delaying tactics. I call 
it the arrogance of the Department and it is very disturbing to 
me.
    These bills are not new bills. They have been in forever. 
They have been introduced about 3 years in a row. Now to have 
testimony saying you are against something, it bothers me. So I 
would like to have you address H.R. 4734 and then I am going to 
ream you a little more. Go right ahead.

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY FOR FISH 
       AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Yes, sir. Thank you. I apologize for the late 
submission of the testimony. It was a difficult testimony to 
vet through all the various bureaus of the Department--
    Mr. Young. Pardon me. Vet, my ear. This is your Department. 
Now, you tell Mrs. Norton or anybody else this is your 
responsibility. I am getting tired of you passing the buck from 
one Department to another Department, another Agency to another 
Agency. I asked you for the testimony. You are testifying now 
for the Department of Interior.
    Mr. Hoffman. Yes, sir.
    Mr. Young. This is not the way to run the ship. Now, this 
White House was elected for a reason, to get things done. I 
went through 8 years of nonsense, and 8 years before that of 
nonsense. Go ahead.
    Mr. Hoffman. Sir, regarding H.R. 4734, first of all, the 
Department of the Interior very much supports the purpose and 
concept of Native hiring, Native contracting, and economic 
development opportunities for Native Alaskans. We believe that 
Title IV of the Indian Self-Determination and Education Act of 
1994 provides for this. The Native Hiring and Contracting Act 
of 2000 also provides for this. In fact, we have a very 
significant population of Native hires in many of our national 
parks in Alaska and Fish and Wildlife Service units, and these 
are not just seasonal jobs. Many of them are division chiefs on 
up.
    We are not perfect, but we are certainly trying. We feel 
that we have made a lot of progress and we want to make more 
progress and we hope that that progress will be allowed to 
continue.
    The bill does pose numerous and substantial challenges to 
us. I will just lower my voice there, sir.
    Mr. Young. It got you there, but the thing that disturbs me 
the most, I believe Mr. Angapak also said it very well, 22 
years ago, we passed this legislation, and I do believe in the 
Sections 1307, 1308, it directed the Department to not only 
hire and employ but contract out, and it is 22 years later. It 
has not happened.
    Now, you say a significant amount of Natives have been 
hired in Alaska. How many?
    Mr. Hoffman. I do not have the numbers, but I know that for 
four parks, four Arctic parks, 48 percent of the staffing 
levels, about 16 out of 31 of the hires, are Native Alaskans.
    Mr. Young. Sixteen out of 31. How many people do we have in 
the Park Service in Alaska?
    Mr. Hoffman. Four-hundred-and-sixty-five, sir.
    Mr. Young. Four-hundred-and-sixty-five and you have got 16 
Alaska Natives hired.
    Mr. Hoffman. Oh, no, sir, we have more than that, but that 
is just those--I am just referencing that one particular park 
unit.
    Mr. Young. But with one in 35, we have 16 working? How many 
have we got working?
    Mr. Hoffman. I may not have that answer. If you are 
asking--
    Mr. Young. I am going to submit questions for you on this, 
because what I want, and for those people in the back row 
whispering in your ear, you had better have the answers to this 
Committee very soon.
    Mr. Hoffman. Yes.
    Mr. Young. Now, second, are there any of the Native 
corporations contracted to manage a park in the State of 
Alaska?
    Mr. Hoffman. Not at this time--
    Mr. Young. But under the law is it not correct that they 
can do so?
    Mr. Hoffman. Yes, so.
    Mr. Young. Why have you not done that?
    Mr. Hoffman. We have in the past. That contract is expired 
at this time.
    Mr. Young. You have not renewed it?
    Mr. Hoffman. No, sir.
    Mr. Young. Why not? Which park was it?
    Mr. Hoffman. It was for the Kawerak Corporation, sir.
    Mr. Young. We will hear testimony from them a little later 
on. But what I am saying, how many summer employees does the 
Park Service send up every summer to Alaska? I want that 
answer, too.
    Mr. Hoffman. Yes, sir.
    Mr. Young. Because when I find out there are a lot of 
uncles and cousins going to Alaska in the summertime to work in 
the park and I am being told by the Park Service that the 
people that live there do not have the professionalism to run 
or work in a park, so we bring someone out of Massachusetts or 
New York or Michigan or some other high-falluting State and 
they work in my State and take jobs away from my people. We 
have got more parks and more acreage in our State than any 
State in the union, and the reason this legislation was 
introduced and why I am going to commit to promote it is you 
have not done your job. Your agency has not done its job. This 
is inappropriate.
    I remember I went to Anaktuvuk Pass and we had a nice 
Arctic Wildlife Park or whatever you want to call it up there 
at Anaktuvuk Pass, they had 19 employees and one person working 
from that village. Now, that is not good.
    I have been to Noatak, Kawerak, all those areas that we 
made parks and we were telling those people when we passed that 
legislation those parks should be, in fact, managed by natives 
and employing their own people for these jobs. It has not 
happened. This is 22 years later.
    So I am going to suggest, I want to see some very, very 
positive action by this agency. I am going to continue to push 
this bill. I did it last year, I did it the year before, and I 
am going to do it this year. Eventually, if we do not do 
something, maybe we will cut your money off. That may be the 
only way I can get your attention. Otherwise, you have got the 
attitude that the people of Alaska, that live there near a park 
system that we created in Congress, by the way--against my 
wishes--but they cannot work within the park system. I do not 
understand it. So you take that message back, and those in the 
room that are working for the Department of Interior, and some 
of you have been there longer than I have, who still have the 
old fashioned attitude toward what should happen in Alaska, 
that has got to change.
    [The prepared statement of Mr. Hoffman follows:]

 Statement of Paul D. Hoffman, Deputy Assistant Secretary for Fish and 
   Wildlife and Parks, U.S. Department of the Interior, on H.R. 4734

    Mr. Chairman, thank you for the opportunity to discuss H.R. 4734. 
This legislation includes four purposes with which the Department of 
the Interior generally agrees: the promotion of innovative management 
strategies and operating efficiencies; the expansion of Alaska Native 
contracting opportunities; the increase of local employment in Alaska; 
and the connection of conservation system unit resources, Alaska Native 
culture and subsistence practices.
    While we generally support the purposes of H.R. 4734, we have 
significant concerns about the bill. The proposed provisions in many 
cases duplicate authorities already found in the Alaska National 
Interest Lands Conservation Act (ANILCA; 16 U.S.C. 3101), specifically 
in the areas of local hire, Alaska Native contracting, cooperative 
agreements with tribal entities, subsistence management, and the 
preservation of Native culture and heritage. The Department of the 
Interior's agencies have been using these and other relevant 
authorities with positive results, as recently detailed in two reports 
to Congress pursuant to Public Law 106-488: the Department's Report on 
Hiring of, and Contracting with, Local Alaska Residents, Alaska Natives 
and Alaska Native Corporations, dated April, 2002 and transmitted to 
the Committee on Resources on May 17, 2002; and the National Park 
Service Pilot Program to Employ Residents of Local Communities in 
Northwest Alaska, dated November, 2001 and transmitted to the Committee 
on January 24, 2002.
    We have a number of concerns about specific sections in the bill 
which I will outline at this time.
Section 3/Indian Self Determination and Education Assistance Act 
        (ISDEAA; P.L. 93-638; 88 Stat.2203)
    This bill applies Title I of the ISDEAA to the National Park 
Service (NPS) and Fish and Wildlife Service (FWS), as well as the 
Bureau of Land Management. Currently, Title I does not apply to units 
of the National Park System and the National Wildlife Refuge System as 
because they are not ``programs for the benefit of Indians because of 
their status as Indians.'' Rather, they are programs--conservation 
system units--established for the American people as a whole. While 
ANILCA does provide for special consideration of Alaska Natives, it did 
not apply ISDEAA Title I to parks and refuges.
    H.R. 4734 would treat non-Bureau of Indian Affairs programs as if 
they were ``Indian'' programs and not programs for the public. It would 
unduly limit the discretion of the Secretary with regard to the NPS and 
FWS and BLM by applying the terms of ISDEAA Title I to conservation 
system units and other public land units in Alaska.
    Title I applies special rules for contracting to tribes and tribal 
organizations for programs that tribes are running for the benefit of 
themselves and their members. Title I makes good sense for these 
programs that benefit Indians because of their status as Indians, 
because the tribes should be given the latitude to ``self determine'' 
the functioning of programs for their benefit. These special rules for 
contracting do not make sense, however, for the operation of national 
parks and national wildlife refuges for the general public. With parks 
and refuges, as opposed to programs for Indians, there are no issues of 
self-determination, and there is no basis for excepting the parks and 
refuges from normal applicable contracting rules.
    Both the NPS and FWS already participate in the Tribal Self-
Governance Program under Section 403(c) of ISDEAA as amended by the 
Tribal Self-Governance Act (P.L. 103-413). That section requires that 
NPS and FWS negotiate at the request of a participating tribe, but the 
Secretary has the discretion to decide whether to enter into an annual 
funding agreement subject to its terms. This bill would limit 
discretion by requiring that the Secretary ``shall negotiate and enter 
into a contract'' with participating tribes.
Effects on Alaska Employees
    Section 3(g)(3) attempts to limit the disruption to employees by 
the change to contract management of conservation system units. 
Nevertheless, we believe the legislation would cause significant 
disruption to the efficient management of conservation system units. In 
the Department's Alaska field operations, a large number of the Alaska 
Native permanent and seasonal employees have been hired under ``local 
hire'' provisions of Section 1308 of ANILCA, bringing tremendous local 
knowledge to the Department. Some employees may not desire to accept a 
contractor position under the Intergovernmental Personnel Act, or wish 
to move to other locations offered by the Department. We risk losing--
rather than gaining--local expertise under the provisions of H.R. 4734.
    Two examples of the Department's commitment to local and Native 
hire are instructive. As a result of the NPS pilot program directed in 
P.L. 106-488, four parks in northwest Alaska hired four local residents 
into career positions, promoted or upgraded four local hire employees, 
established three additional seasonal ranger/liaison positions in 
villages, and hired a new GS-11 Special Assistant for Native issues, 
who is a tribal member. Of 33 permanent NPS employees in Western Arctic 
National Parklands in 2001, 48% (16 people) were originally hired under 
local hire authority. Local hire Alaska Natives make up 26 % of the 
staff, including two of six division chiefs. Of 20 temporary employees, 
8 (40%) were local hire.
    The staff of the Koyukuk/Nowitna National Wildlife Refuge Complex 
has 11 permanent full-time employees and another three to four seasonal 
employees. Five of the 11 permanent full-time employees, ranging in 
grade from GS-6 to GS-12, are Koyukuk Athabascan Alaska Natives hired 
from the local area, as are two of the seasonal employees. The Kanuti 
Refuge employs permanently a Koyukuk Athabascan Alaska Native hired 
from the local area as its seasonal park ranger at Bettles.
    Unlike employees working for a contractor, Alaskans who work for 
our bureaus are an integral part of our statewide operations. As they 
gain experience and fill positions with greater responsibility within 
the government, they will be an increasing part of our management teams 
and will have a voice in the future management of conservation system 
units across the nation. The Department benefits by having employees 
with diverse backgrounds, and employees benefit by having wider 
employment opportunities than can be offered by a tribal contractor.
    Also, the Office of Government Ethics notes that section 3(g) may 
further cause disruption because of the vagaries of its terms. For 
example, the legislation is ambiguous with respect to the matter of 
supervision of affected employees, specifically, whether the affected 
employees will be transferred under the Intergovernmental Personnel Act 
(IPA) so that they may be supervised by a non-Federal individuals, or 
supervisors will be transferred under the IPA to avoid having Federal 
employees supervised by non-Federal individuals. In addition, 
privatization of programs or transfer of Federal employees to non-
Federal employers can raise significant issues with Federal conflict of 
interest statutes. These issues are also not addressed by this section 
or elsewhere.
Subsistence Management/Technical Research
    The language of Section 3(f)(2) focuses on biological research, 
harvest monitoring or other data gathering activities undertaken by the 
Federal Subsistence Program. If the intent is to provide for 
contracting by tribes for these functions, this section is unnecessary, 
particularly as a demonstration project, because programs in place 
already provide for this purpose.
    The Federal Subsistence Program, administered by the Fish and 
Wildlife Service's Office of Subsistence Management, provides funds to 
tribal and other rural organizations, academia, the State of Alaska, 
and Federal agencies, and others to conduct fisheries and fisheries 
harvest monitoring projects. These projects are selected based on a 
lengthy public and technical review process where monitoring priorities 
are identified and projects identified to meet those priorities.
    A high priority in project selection is capacity building in tribal 
organizations. Tribal and other rural organizations are provided the 
opportunity to participate on multiple levels, either as principal 
investigators, direct and equal partners with State and Federal 
agencies, or as project staff to be trained by principal investigators 
from State and Federal agencies. Over one-third of the funding (about 
$2 million annually) is provided to tribal or other rural 
organizations.
    The Office of Subsistence Management also provides funding to 
tribal organizations to hire professional technical staff (fisheries 
biologists and anthropologists) to build capacity in these 
organizations to more fully participate in the monitoring projects 
mentioned above. In Fiscal Year 2002, over $900,000 is being provided 
to six tribal organizations to hire seven of these positions. Funding 
for these positions is provided for a minimum of five years and can be 
renewed. Provisions of H.R. 4734 would disrupt this program which has 
been well-received by our constituents (including tribes).
Section 4/Koyukuk and Kanuti NWR Demonstration Project
    This section contracts the management of two national wildlife 
refuges to tribes and transfers the refuge employees to those tribes. 
Refuges are managed as part of a national, connected network of lands 
and waters managed to help conserve this nation's fish and wildlife 
habitats for the benefit of present and future generations of 
Americans. H.R. 4734 significantly conflicts with provisions of the 
National Wildlife Refuge System Administration Act, as amended, P.L. 
105-57.
    There are refuge management decisions and functions that cannot be 
made outside of the National Wildlife Refuge System, and others that 
would be difficult to translate into a contracting arrangement. Many 
functions performed on a National Wildlife Refuge are directed at 
meeting our public trust. While we will continue to contract certain 
functions, and consult and collaborate with our local refuge neighbors, 
Federal employees who have spent years training and working in the 
National Wildlife Refuge System are in the best position to meet the 
public's expectation of management with a national view.
    For instance, our managers must determine whether an activity is 
compatible with all of the establishing purposes of the refuge and the 
mission of the National Wildlife Refuge System--a decision made more 
difficult if not impossible when a contractor has experience in only 
one location. Even within Alaska, our refuge managers must coordinate 
management of resource monitoring and other activities with the State 
of Alaska and other Federal land managers. Again, we believe this would 
be difficult for a contractor to accomplish in a way that meets our 
national mission and our responsibilities to the public for operating 
an efficient organization.
    In addition to the above concerns, if this legislation is to move 
forward, there are a number of other issues that will need to be 
addressed, and amendments that will need to be made.
    Mr. Chairman, this concludes my prepared remarks, and I would be 
pleased to answer any questions that you and other members of the 
Committee may have.
                                 ______
                                 
    Mr. Young. Mr. Gibbons, do you have any comments, or just 
the one bill?
    Mr. Gibbons. Just the one bill.
    Mr. Young. Thank you. You are lucky.
    Mr. Hession?

  STATEMENT OF JACK HESSION, SENIOR REGIONAL REPRESENTATIVE, 
              SIERRA CLUB, NORTHWEST/ALASKA REGION

    Mr. Hession. Thank you, Mr. Chairman. We strongly oppose 
this bill, Mr. Chairman.
    Mr. Young. Surprise, surprise.
    Mr. Hession. I am pleased to hear that, Mr. Chairman--for 
the following reasons. It would require the Secretary of the 
Interior to essentially turn over management of up to 14 
National Conservation System units to a private organization. 
Granted, they are Indian organizations, but the essence of it 
is that they are private organizations, and that would be an 
unprecedented departure from historic and existing 
Congressional policy.
    If I can sum up our position, we are wholeheartedly in 
support of local hire of Alaska local residents, including 
Natives. We have supported it in the past. We have supported 
the previous bill here, legislation both in ANILCA and 
subsequently.
    There is no question that progress has been made, Mr. 
Chairman. I have reviewed both reports, one on the pilot 
program established by the previous legislation and a second 
one submitted this year by Secretary Norton involving progress 
made under the two local hire provisions of ANILCA. We think 
this is the approach the Committee should pursue to do 
everything in its power to promote local hire, including Alaska 
Natives.
    But the key distinction here is that this bill would go far 
beyond that worthy goal. It is breathtaking in its sweeping 
nature. Where else in the Nation does a private entity manage a 
national park? I know of no other. This is a--I am trying to be 
diplomatic here, Mr. Chairman, but it is almost a radical 
departure from existing law and policy.
    Mr. Young. Let me interrupt you there, because your time is 
about up. I would just like to suggest one thing. That may be 
good, because I do not think the Park Service itself is doing a 
good job. It might be good if we put a criterion in that it 
could be managed correctly. I do not think the Park Service 
does such a great job. There is sort of like a holy grail, that 
we cannot talk about how bad the Park Service is. They are not 
a well managed organization. Maybe we ought to try that.
    And, by the way, the two projects, am I correct in this 
statement that they have not been implemented?
    Mr. Hession. No, sir. In my understanding, the project that 
you authorized the last time around has been fully 
implemented--
    Mr. Young. No, that is not my understanding. The 
negotiation had collapsed with Kawerak--
    Mr. Hession. There is a report--
    Mr. Young. --and Maniilaq, both of them collapsed. They 
have never done it. Can the Department of Interior clarify 
that?
    Mr. Hoffman. I cannot, sir.
    Mr. Young. My understanding is it has not happened. I mean, 
I will have to hear from other witnesses that were involved in 
that. If it has happened, maybe I am wrong in my information. 
But it is my understanding it has not been implemented. After 
we passed a law to try to see if this would work, the Park 
Service has objected to it. You know, it is great to pass a law 
and then we let the locals within the Department say, no, you 
cannot do it, and then the law means nothing. So we will have 
to have a little review on that one.
    All right. Anybody else on any of these bills? Have you got 
another one, Mr. Hoffman? Are you willing to come to bat? I 
have to say, I have to give you credit. Come to bat on the 
veterans now. This is a good one.
    [Laughter.]

STATEMENT OF PAUL HOFFMAN, DEPUTY ASSISTANT SECRETARY FOR FISH 
       AND WILDLIFE AND PARKS, DEPARTMENT OF THE INTERIOR

    Mr. Hoffman. Yes, sir, Mr. Chairman, I would like to 
testify on H.R. 3148.
    Mr. Young. Would you really like to testify?
    [Laughter.]
    Mr. Hoffman. I can honestly say, I have not had so much fun 
since the pigs ate my little sister.
    [Laughter.]
    Mr. Young. Go ahead. I hope they did not have hoof-and-
mouth disease. Go ahead.
    [Laughter.]
    Mr. Hoffman. We believe that the Alaska Native Vietnam 
Veterans Allotment Act of 1998 is a good Act and represents a 
good compromise. It established the window of opportunity for 
those Vietnam veterans from 1969 to 1971 to apply for allotment 
claims. In 1969 to 1971, there was a large public effort to 
notify Native Alaskans of this opportunity in anticipation of 
the repeal of the Allotment Act, and certainly many of our 
veterans who were overseas fighting for us missed out on that 
opportunity and we believe it was appropriate and continues to 
be appropriate to restore those opportunities for them.
    We believe that extending the eligibility to veterans 
serving all the way to 1975 presents an interesting fairness 
and equity issue, since no other Native Alaskan had an 
opportunity to apply after 1971, when the Allotment Act was 
repealed.
    We fully admit that progress in processing the claims has 
been abysmally slow, and I would like to offer some explanation 
of that. It took us 18 months to promulgate regulations for the 
1998 Act. Fully two-thirds of the applications filed were 
within the last 2 months of the filing period, which ended 
January of 2000. The Department focused first primarily on 
rejecting those applications that were correctable so that 
those applications could be returned to the applicant and give 
them time to reapply in time.
    A field examination is required prior to any application 
being approved, and as you well know, sir, the season for field 
examinations in Alaska is short. Many of the applications have 
been incomplete. In particular, 25 percent of them have lacked 
a land description and it is impossible for us to process them 
without that.
    A new bill would start the regulatory process all over 
again, setting us behind time-wise. The new bill also makes 
available new lands that previously had not been available to 
Native Alaskans and this causes concerns. Again, back to the 
fairness and equity issue, this would make available lands to 
Vietnam-era veterans that would not and are not available to 
other veterans, and these additional lands could potentially 
include Department of Defense installations as well as Fish and 
Wildlife Service and Forest Service lands.
    Also, this Act would remove the provision for a personal 
representative of heirs of Vietnam veterans, which presents a 
critical challenge for us in terms of processing claims because 
we oftentimes get multiple heirs filing multiple claims, and 
witness the problem we have had with the Cobell trust issue and 
how multiple titles causes concerns there.
    The Department of the Interior supports the fair and 
equitable treatment of our veterans who serve overseas in 
defense of our freedoms. We believe that we have been true to 
that commitment. We believe the 1998 Act represents fair 
treatment. We would like to continue implementing the 
provisions of the 1998 Act, and, therefore, the Department 
opposes H.R. 3148.
    Mr. Young. Thank you.
    [The prepared statement of Mr. Hoffman follows:]

  Statement of Paul Hoffman, Deputy Assistant Secretary for Fish and 
   Wildlife and Parks, U.S. Department of the Interior, on H.R. 3148

    Mr. Chairman, I appreciate the opportunity to appear before you 
today to present the views of the Department of the Interior on H.R. 
3148, which would amend section 1629(g) of the Alaska Native Claims 
Settlement Act (ANCSA), originally enacted as the Alaska Native Vietnam 
Veterans Allotment Act of 1998 (Section 432 of Public Law 105-276). The 
purpose of the 1998 Act was to redress unfairness that may have 
resulted for certain Alaska Native Veterans of the Vietnam War who may 
have missed an opportunity to apply for an allotment under the 1906 
Native Allotment Act because of service in the armed forces immediately 
prior to the repeal of the Allotment Act. The Allotment Act was 
repealed with the enactment of ANCSA on December 18, 1971. The 1998 Act 
gave qualified Vietnam veterans a renewed opportunity to apply under 
the Allotment Act.
    We certainly support the principle of equitable treatment of Alaska 
Vietnam Veterans, and we have made every effort at fairness under the 
1998 Act. While we have made considerable progress under the 1998 Act, 
we appreciate that there may be frustrations among many Alaska Native 
veterans under the current act, frustrations in that there are 
limitations on eligibility and entitlements under the Act, frustrations 
about time of administration, and frustrations in that all are not 
entitled. We believe there may be a misconception among many Native 
veterans that because they served, they are entitled to an allotment. 
That was not the purpose of the 1998 Act.
    The new bill, H.R. 3148, while it aims at fairness, raises a number 
of serious new policy, management, and technical concerns, and it would 
give rise to new issues of fairness with respect to other Alaska 
Natives and other Vietnam veterans. It would undo the important 
compromises reached in the passage of the 1998 Act. It would stall, if 
not negate the progress made so far under the 1998 Act, and it would 
disrupt ongoing progress, settled land use arrangements under ANCSA and 
ANILCA, and efforts to finalize land entitlements under ANCSA, the 
Statehood Act, and the 1906 Allotment Act. Therefore the Administration 
is opposed to H.R. 3148.
    H.R. 3148 is a significant departure from the original ``missed 
opportunity'' concept of the Alaska Native Vietnam Veterans Allotment 
Act. H.R. 3148 extends the eligibility period of the current law from a 
three year period to the entire Vietnam Era, from 1964 to 1975, 
including four additional years after the 1971 repeal of the Alaska 
Native Allotment Act, when other Alaska Natives could no longer apply. 
Essentially, most, if not all Alaska Native Vietnam veterans, or the 
heirs of deceased veterans, would appear to be eligible to apply for an 
allotment.
    The 1998 Act limited military service eligibility to those 
individuals who served between 1969 and 1971. The rationale behind this 
limitation was the fact that that was the period when missed 
opportunity because of service was likely to occur. Also, there was a 
major effort by the Bureau of Indian Affairs, Alaska Legal Services 
Corporation, the Rural Alaska Community Action Program (RurAlCAP) and 
other entities during this period to solicit the filing of Native 
allotment applications in anticipation of the repeal of the 1906 Act. 
Those Alaska Natives who were serving in the military during this 
period may not have been able to benefit from the outreach effort. 
Veterans who served prior to January 1, 1969, generally had the same 
opportunities to learn about the Native allotment program and to apply 
as any other Alaska Native. Those who served after December 18, 1971, 
as with all other Alaska Natives, had no further opportunity to apply 
for allotments because of repeal of the Act. Neither group can be 
considered to have missed their opportunity to apply for an allotment 
because of their military service.
    The new bill, H.R. 3148, essentially makes the renewal of the 
opportunity to apply for an allotment under the 1906 Allotment Act a 
special bonus or reward for service for one class of Alaska Natives, 
those who served in the Vietnam war, but no longer has any basis in 
missed opportunity.
    H.R. 3148 would thus discriminate and create inequities between 
Alaska Native Vietnam veterans and Natives who did not serve in the 
military, between Native veterans and non-Native veterans, and between 
Native veterans with military service during the Vietnam Era and Native 
veterans who served in World War II, Korea, or other conflicts. This 
bonus program, available only to Alaska Natives and to no other 
veterans, also raises the possibility of Constitutional challenge as to 
whether it may be an impermissible preference.
Progress under the current law
    From the passage of the 1998 Act until the final regulations were 
published, BLM conducted extensive outreach efforts to reach potential 
Alaska Native Veteran Allotment applicants. These efforts are detailed 
on the attached appendix.
    Section 432 of Public Law 105-276 required the Secretary of the 
Interior to promulgate regulations within 18 months to carry out the 
Alaska Native Veterans Allotment program. The law also provided for an 
18-month application filing period to begin when the regulations became 
effective. On February 8, 2000, following a series of public meetings 
to gather input from Native groups, State and Federal entities, and 
private individuals and groups, a proposed rule was published in the 
FEDERAL REGISTER. Following a 60-day comment period, the final rule was 
published on June 30, 2000. Revised regulations to implement the terms 
of a December 2000 amendment to the 1998 Act were published in final 
form on October 16, 2001.
    During development of the regulations to implement the 1998 Act, 
the BLM estimated that as many as 1,100 Alaska Native veterans might be 
eligible to apply for allotments under the provisions of that Act. This 
estimate was based on analysis of the DVA data used to prepare the 
Department's 1997 Report to Congress, and was inflated somewhat to 
account for the fact that there were potentially eligible individuals 
who were not identified by DVA.
    The filing period for Native veterans allotment applications began 
on July 31, 2000, and continued through January 31, 2002. BLM received 
applications for 991 parcels of land from more than 700 individual 
applicants. A majority of the applications were received, and 
approximately 700 parcels were claimed during January 2002, the last 
month of the filing period. Many of the applications filed in 2000 and 
2001 have been rejected because of non-resident status, failure to meet 
military service criteria, or application for lands that have been 
conveyed or are not available. For applications involving unavailable 
lands, BLM made every effort to identify those applications as quickly 
as possible so that applicants who are otherwise eligible could still 
have the opportunity to apply for other land.
    We do not know at this time how many of the applications filed in 
January 2002 are legally sufficient or defective, in part because we 
have had to concentrate our efforts on serializing the large, late 
influx of new applications and having them noted to the official BLM 
records. We note that approximately 250 applications received at the 
end of the filing period contained no land descriptions. Work is 
ongoing on other veterans applications. Field examination and survey of 
veterans allotment parcels are mixed in with existing schedules for 
similar work on original applications filed under the 1906 Act.
    Also pursuant to section 432 of P.L.105-276, the Department has 
submitted a report to the Congress on the status of Alaska Vietnam 
veterans who served during a period other than that specified for 
eligibility under section 432. The report made an extensive survey of 
circumstances of Alaska Vietnam veterans and reasons why they did not 
apply under the Allotment Act, but it recommended against expanding the 
eligibility period and raised no considerations consistent with terms 
proposed by H.R. 3148.
Other problems with H.R. 3148
    In addition to the fairness and potential Constitutional problems 
noted above, the bill raises other serious concerns
H.R. 3148 rescinds all regulations promulgated to implement the current 
        law.
    H.R. 3148 would repeal all regulations promulgated under the Alaska 
Native Veterans Allotment Act of 1998, which includes the original 
regulations published in the FEDERAL REGISTER in June 2000 (43 CFR 
2568) as well as the amended regulations published on October 16, 2001, 
to implement the changes made by Public Law 106-559 in December 2000 
(the amended regulations became effective on November 15, 2001). 
Eliminating the veterans allotment regulations would not only leave BLM 
and the other land management agencies without any guidance to 
implement the program, but it would also leave applicants with no 
certainty of what is expected of them. These regulations provide, among 
other matters, the guidance essential for the processing of veterans 
allotment applications, the rules governing compatibility 
determinations for applications in Conservation System Units, the rules 
governing appeals from different types of decisions, and safeguards to 
State and ANCSA entitlements.
H.R. 3148 removes protections for certain lands provided under the 1998 
        Act.
    The change in the definition of available lands for allotments from 
``vacant, unappropriated, and unreserved'' to ``vacant lands that are 
owned by the United States'' raises the question whether the prior 
requirements of the 1906 Allotment Act still apply. Section (b)(1) of 
the 1998 Act, as kept under H.R. 3148, would indicate that they do, but 
the new (a)(2) is conflicting. If the term ``vacant land of the United 
States'' controls, then any vacant U.S. lands are open, including 
parks, refuges, wilderness, and possible defense properties. CSU 
protections may be rendered moot. Previously withdrawn lands, 
including, for instance, Tongass National Forest, would presumably 
become available. Further, H.R. 3148 proposes to repeal 43 U.S.C. 
1629g(a)(3), which protected numerous special areas, including acquired 
lands, lands withdrawn for defense purposes, National Forest lands, 
wilderness, campsites, trade and manufacturing sites, lands containing 
buildings or other development, cemetery sites, home sites, and more. 
Defense and acquired lands would be available. For instance, since 
1991, the Fish and Wildlife Service has spent over 150 million dollars 
acquiring land on Alaska's National Wildlife Refuges, mostly from 
Native corporations and allotted. These newly acquired lands would be 
available for Native veteran allotment applications under this bill.
    Additionally, H.R. 3148 may eliminate the standard Allotment Act 
rules concerning use and occupancy of the land. This changes previous 
tenets of law for occupancy of public lands.
    In a related issue, it is unclear whether H.R. 3148 would eliminate 
the requirement of the 1906 Native Allotment Act that an applicant must 
be a resident of Alaska. Allowing Native allotments in Alaska for non-
residents, many of whom have never lived in Alaska, we believe would be 
totally contrary to the intent of both the 1906 Act and the 1998 Alaska 
Native Veterans Allotment Act. While we do not interpret the language 
in H.R. 3148 as eliminating the residency requirement, we wish to make 
it clear that we are opposed to any effort to eliminate this 
requirement and we object to any language which could be interpreted to 
do so.
H.R. 3148 provides for legislative approval of all applications 
        eighteen months after the filing deadline.
    This, combined with the rescission of the regulations, virtually 
assures that most applications will be approved without the regular 
review process and without the applicants demonstrating that they used 
and occupied the claimed land in accordance with the 1906 Native 
Allotment Act and remaining regulations. Persons who do not meet the 
use and occupancy requirements can apply for land secure in the 
knowledge that because of short time frames and lack of regulations, 
BLM will not be able to field examine and adjudicate most claims by the 
deadline and most will ultimately be legislatively approved. This will 
encourage wrongful claims and result in wrongful conveyance of Federal 
land. It will also render ineffective the protections provided to 
conservation system units (CSU's) by Section (1)(a)(5) of the existing 
law.
Eligibility of all heirs of all decedents
    Although the right to file an application under the 1906 Allotment 
Act did not survive the death of an individual, the 1998 Act, for the 
first time in the history of public land law, allowed the filing of an 
allotment application by the personal representative of the estate of a 
deceased veteran if that veteran died in combat or as a POW during a 
certain period of time or died later as a result of a service connected 
wound received during that time. The military service eligibility 
period for deceased veterans in Section 432 was January 1, 1969, 
through December 31, 1971; this period was expanded by the December 
2000 amendment to include the period beginning August 5, 1964, and 
ending December 31, 1971. These provisions were a carefully limited 
compromise from earlier pre-enactment provisions that allowed all heirs 
to apply, strongly opposed by the Department.
    The lack of manageability of allowing all heirs to apply can be 
illustrated by reference to one word, Cobell. At the core of that now 
infamous law case is the essential impossibility of tracking 
multiplying heirs and fractionated heirships. H.R. 3148 would eliminate 
all reference to a personal representative and would allow ``an heir'' 
to apply for an allotment on behalf of the estate of a deceased 
veteran. Many Native allotment applicants have numerous heirs, and many 
estates of deceased Natives have never been probated so heirship is 
unknown. H.R. 3148 would put the Department in the business of 
attempting to determine eligible heirs, of having to establishing the 
class of possible eligible heirs in order to grant an allotment, and of 
risking, after such allotment were granted, facing another claim by 
some other undiscovered heir. Multiple potential heirs could apply on 
behalf of a single estate, and if there is a dispute among heirs, BLM 
would have to engage in the conflict.
    When combined with the 18 month legislative approval, a likely 
result of the heirship provisions is that several claims could be 
approved for the same decedent, even if conflicting, because necessary 
review would not be achieved in the 18 months.
    Added to this is the inevitable additional difficulty of proof of 
site and of use and occupancy through heirs, rather than by the 
original occupant. There is substantial potential for conflict, 
litigation, and delay of all allotment applications by virtue of any 
heirship provision. The Department is strongly opposed to any expansion 
of rights of heirs to apply.
Unrealistic deadlines and impacts on current ANCSA, State, and 
        Allotment Act conveyances and on third party interests
    Because the work on new Veterans applications is necessarily mixed 
in with current work on already pending Allotment, State, and ANCSA 
applications the bill would result in devastating impacts on BLM's 
ability to finalize State and ANCSA land transfer entitlements and to 
complete conveyances to other Alaska Natives under the 1906 Native 
Allotment Act.
    We estimate that the potential exists for as many as 5200 parcels 
of land to be claimed under the expanded eligibility provisions of H.R. 
3148. H.R. 3148 would create a filing period for applications ending on 
July 31, 2003. The bill also contains a provision for approval of 
veterans allotment applications and issuance of certificates of 
allotment ``not later than January 31, 2005, that is, eighteen months 
after the end of the filing period. This deadline is problematic for 
two reasons: (1) it is unrealistic to expect as many as 5200 individual 
parcels of land to be adjudicated, examined, surveyed, and conveyed in 
an eighteen-month period (survey alone normally takes longer than 
eighteen months from issuance of survey instructions and contracts to 
approval of survey plats and field notes and notation of surveys to BLM 
records); and (2) the deadline would necessitate that the processing of 
veterans allotment applications be placed ahead of State applications 
and other Native applications under the 1906 Act and under the Alaska 
Native Claims Settlement Act.
    BLM records show that more than 3100 parcels claimed under the 1906 
Allotment Act are still pending and awaiting final disposition. Many of 
the applicants for these parcels have been waiting for decades to 
receive title to their allotments
    Third party or adverse interests could be compromised by the 
application and protest deadlines and automatic approvals of allotment 
applications, resulting in potential takings, since the Department will 
not have the time to identify all third party interests in time to meet 
the protest requirements of the bill and third parties may not be 
informed and be able to protest and adjudicate their interests before 
an allotment is approved.
    These are some, but not all of the serious concerns raised by the 
bill. We believe that the bill will cause far more problems than it 
will solve and will not be a service to the community of Alaska Natives 
or Alaska Native veterans. Thank you for the opportunity to appear. I 
will be happy to answer any questions you may have.
                                APPENDIX
blm outreach efforts to reach potential alaska native veteran allotment 
                               applicants
    <bullet> From the passage of the law until the final regulations 
were published BLM held five public meetings across the State for 
comments on the proposed regulations. These meetings were held in five 
key communities around the State and public notices were given in 
advance of each meeting.
        Anchorage
        Fairbanks
        Nome
        Bethel
        Juneau
    Notice was also given in the Federal Register concerning commenting 
on the proposed regulations. There were some written comments from 
around the State and some from outside the State.
    The final regulations were published in the Federal Register and 
included the beginning and ending dates of the filing period.
    <bullet> BLM prepared application packets with copies of the final 
regulations which included the 18 month filing period beginning and 
ending dates, list of BIA Service Providers, and the application form. 
These packets were available in the Alaska State Office of the BLM and 
the District Offices. These packets were also given to BIA and 
distributed by the BIA Service Providers to those potential Native 
Veteran applicants in their areas. Some of these packets were even sent 
to potential applicants who for whatever reason were not currently in 
the State of Alaska.
    <bullet> The BIA, BLM, and Alaska Legal Services held about 9 
public meetings in key communities across the State. These meetings 
were advertised in the local communities by various means including 
public notices, radio announcements, and local newspapers.
        Dillingham - held at beginning of local festival (Beaver 
        Roundup)
        Bethel - held in conjunction of with local festival
        Nome
        Kotzebue
        Copper Center
        Fairbanks
        Anchorage
        Haines and Barrow
    <bullet> Radio programs -
    Call in format and translation into Yupik from radio station in 
Dillingham
    Radio station in Nome recorded the broadcast so they could play it 
at various times throughout the day.
        Anchorage
        Barrow
    Teleconferences
        BLM/BIA/Alaska Legal Service and BIA service providers--monthly 
        from the beginning of the filing period until the beginning of 
        January, 2002, and then it was held weekly.
        BLM/BIA/Alaska Legal Services have held a number of 
        teleconferences with individual villages who wanted to ask 
        questions about the Alaska Native Veteran Allotment program.
    Publication in major newspapers of January 31, 2002, end of filing 
period.
    There have also been two Alaska Federation of Natives (AFN) 
Convention agendas that contained discussions of the Alaska Native 
Veteran Allotments.
                                 ______
                                 
    Mr. Young. The problem is, the original bill in 1998 was 
what we are introducing now, and it was the only thing we could 
get out of the Clinton administration. Again, I hope we had a 
little broader vision about what the veterans should be 
receiving.
    Nelson, can I ask you a question? How many Alaska Natives 
live--you mentioned in Southeast Alaska--would receive an 
allotment under this provision of Public Law 105-276?
    Mr. Angapak. Mr. Chairman, as of April 5, 2002, 77 Alaska 
Native veterans in Southeast Alaska have applied for Native 
allotments. Another 12 from the Chugach area, almost all of 
them--in fact, all of them located in national forest lands. 
Because of the specific national forest exclusion, none of 
those veterans will be able to get their Native allotments.
    Mr. Young. Nelson, I bring that up because we have got the 
Forest Service there and Fish and Wildlife there in the 
Department of Interior. We just heard the Department supports 
the veterans receiving these lands under the 1998 Act, but if 
we exclude the Forest Service lands, how can they get their 
allotment?
    Mr. Hoffman. There are a number of lands available, BLM 
unappropriated and vacant lands.
    Mr. Young. But in the Southeast? Remember what the 
allotment criteria is based on. Both of you should remember. 
Mr. Gibbons, what is the allotment in theory based on? It is 
not just a piece of land. What is it based on? It is based on 
previous use.
    Now, if I am living in Southeast Alaska, I am in Vietnam 
defending my country, doing what I have been asked to do by 
Uncle Sam and I am not available to pick my land and the 
Congress at the behest of the AFN passes a Native allotment 
deal, but because of the Clinton administration, they are not 
allowing them to pick land in the Forest Service? You talk 
about forked tongues, because the land that they wish to pick 
is the land that their forefathers themselves used. They cannot 
pick land off of BLM that is not because they had no previous 
use.
    Now, that is why we have got to pass some type of bill in 
this allotment to make sure even the 1998 Act is implemented 
correctly. You see the logic in that? If you do not see the 
logic in it, I am going to really be disturbed. If you cannot 
select it by the criteria, and yet the Forest Service says you 
can pick it, you cannot do that.
    And that means I have got--how many, Nelson, did we have in 
Southeast, 78?
    Mr. Angapak. Seventy-seven.
    Mr. Young. Seventy-seven have asked for allotment, have 
legitimate prior use of, and Mr. Hession's group and the rest 
of them set it aside in a wilderness area and now they cannot 
select the land. You talk about injustice, there is something 
wrong here, and this is why we have to address this issue. The 
1998 Act was good. It should have been extended further. But 
even under the 1998 Act, you have got 77 people that did not 
get their land. Gosh, our government is a great government, do 
you know that? It will think of every reason in the world it 
cannot do something that is justice. It is very disturbing.
    All right, that is enough. Panel one is excused. Oh, excuse 
me. Do you have a question, Mr. Kildee? You have been sitting 
here. Everybody else has not been sitting here. Go ahead.
    Mr. Kildee. There are still a few Democrats around here.
    Mr. Young. Well, there are Democrats. I am not worried 
about that. I hope you see the logic in what I have just said. 
If you do not see the logic, then I may not give you the time. 
Go ahead.
    Mr. Kildee. The Chairman and I are very good friends and I 
have great respect for him. As a matter of fact, from time to 
time, Mr. Young and I will disagree, but the only way you can 
understand Don Young is to realize that he deeply loves Alaska. 
It helps in understanding him. He has passionate feelings, 
strong feelings, and he, as I say, deeply loves Alaska.
    I would just like to make one inquiry. Let me ask this 
question. I am co-Chairman of the Native American Caucus and I 
recognize that Native Americans, wherever they may be, in the 
lower 48, Hawaii, the Hawaiians, the Aleuts or the Indians or 
the Inuits in Alaska have not been treated fairly through the 
years by our country.
    I have a question which I think we can resolve. In the one 
bill, it would seem that in H.R. 4734, that we would be giving 
preference--and I believe in Native American preference--that 
we would be giving preference to Alaskans, non-Indian programs, 
and we do not do that in the other 49 States. It is not 
irresolvable. I think we can always find some unique situation 
in Alaska on that, but if you can help us work through that, I 
would be glad to work with you to try to do that.
    Mr. Young. If the gentleman will yield, if you will go back 
and you and your staff look at the original Act, the Alaska 
Native Land Claims Act, my argument has been the Alaska Native 
Claims Act did set up different recognition of Alaska Natives 
over the other reservations in the lower 48, including 
contracting, including management of lands designated by the 
Federal Government. They just have not done it. And poor Mr. 
Hoffman is catching my ire, but it is nothing personal. Every 
Department of Interior has sought not to implement the law and 
I just think that is wrong.
    Mr. Kildee. And as I say, I think we can probably work this 
out. I just wanted to make sure how we can explain that there 
is a unique situation in Alaska that need not apply to the 
other 49 States. But I appreciate your testimony here today and 
look forward to working with you.
    Mr. Young. Thank you.
    Mr. Hession, out of curiosity, did you ever own land in a 
national park or a preserve?
    Mr. Hession. I do own a tract in--it is within the 
boundaries of Wrangell-St. Elias National Park, but I have 
never laid eyes on it, Mr. Chairman, and I do not intend to 
go--
    Mr. Young. Are you an absentee landlord?
    Mr. Hession. I am trying to get the land back into Federal 
ownership. It was a State land disposal and I deliberately 
bought it to keep it out of the State's hands. The State would 
simply turn around and sell it off.
    Mr. Young. Now, you are not going to ask us to buy it, are 
you?
    Mr. Hession. I will devise some means--
    Mr. Young. You could give it away pretty easily, you know--
    Mr. Hession. I may have to do that, Mr. Chairman, but I 
assure you, it will never be developed by anyone else.
    Mr. Young. But you still own it and it does have value?
    Mr. Hession. I assume it has value, yes.
    Mr. Young. Are you going to give it back to the Park 
Service?
    Mr. Hession. I may do that, yes, sir.
    Mr. Young. That is a great idea. Where you live, I think it 
is a grand idea. Everybody heard it on television.
    Mr. Hession. Well, just so that--
    Mr. Young. I do not have any lands within a park, I will 
have you know. I do have an old mining claim that I found that 
you made a wilderness out of, which is interesting. I cannot 
use it anymore, unless I get out of this job and go do it 
quietly, but you made a wilderness area out of it.
    Mr. Hession. I hope the National Park Service, when it 
finally acquires my small piece of property, makes it a 
wilderness area, Mr. Chairman.
    Before you excuse this panel, could I offer a brief remark 
on the Native allotment issue?
    Mr. Young. Yes, brief.
    Mr. Hession. All right. We honor our Alaska Native 
veterans. We supported the previous law. I testified in support 
of it. But with all due respect, we cannot support this one, 
and the reason why is that it is unnecessary, Mr. Chairman. 
That previous legislation addressed the issue specifically and 
in our view is all that--there is just one little problem, 
perhaps. Native veterans of that 3-year period who are 
physically disabled, mentally or physically disabled, may not 
have had the opportunity. Fine. That can be easily fixed.
    But beyond that, let me, if I may, suggest a solution to 
this problem of where the lands are going to come from for our 
distinguished Alaska veterans. In doing that, I need to take 
you back to 1976--
    Mr. Young. Not too long, now.
    Mr. Hession. All right. I think this is important, Mr. 
Chairman.
    Mr. Young. You and I are the only ones who remember this, 
but go ahead.
    Mr. Hession. In 1976, the Alaskan Congressional delegation 
requested that Alaska be given an exemption from the pending 
FLPMA, Federal Land Policy Management Act--
    Mr. Young. That is what you call the Homesteading Act.
    Mr. Hession. --homesteads, etcetera. This Committee, in its 
wisdom, pointed out to the delegation that 104 million acres 
had just been transferred to the State of the Alaska for, among 
other purposes, exactly that, providing settlement lands to 
Alaskans, all Alaskans.
    This suggests, Mr. Chairman, that in a comparable 
situation, perhaps the Alaska Native community as a whole 
should shoulder that same responsibility with respect to its 
own members. I am referring, of course, to about 45 million 
acres of ANCSA settlement lands. Surely those allotments, many 
hundreds of them, could come out of that pool of land.
    The alternative is to create hundreds, perhaps thousands of 
in-holdings in National Conservation System units at a time 
when the Federal Government is spending tens of millions of 
dollars in an effort to acquire them. It makes no sense, Mr. 
Chairman.
    Mr. Young. Let me interrupt you there. What do we do about 
the Southeast?
    Mr. Hession. Southeast Alaska?
    Mr. Young. Yes.
    Mr. Hession. There are thousands--at least 250,000 acres of 
Sealaska lands alone.
    Mr. Young. Let us go back to the allotment requirement?
    Mr. Hession. Yes, sir.
    Mr. Young. Let us say my father's father's father's father 
fished on this creek. It does not belong to Sealaska. It does 
not belong to any of the village corporations. It belongs to 
the Forest Service. I am a veteran and I cannot select that 
piece of ground?
    Mr. Hession. Both national forests have never been open to 
the Allotment Act, Mr. Chairman.
    Mr. Young. Well, I understand that, but you said veterans 
in Southeast Alaska should be eligible under the 1998 Act.
    Mr. Hession. I am suggesting that the village and 
corporation take the responsibility on its--
    Mr. Young. No, no, no. This is not their land. This is land 
outside of the corporation. It is outside the corporation. This 
is not about acreage. This is about allotment.
    Mr. Hession. It is about allotment--
    Mr. Young. I am not going to argue with you.
    Mr. Hession. It can be filed anywhere--
    Mr. Young. I am not going to argue with you. That is 
enough.
    Mr. Hession. If you do not want to listen--
    Mr. Young. That is enough. Nelson, do you want to rebut 
that?
    Mr. Angapak. Mr. Chairman, please allow me to respond to 
that--
    Mr. Young. That is what I am asking you to do.
    Mr. Angapak. --in the following fashion. This history, this 
nation, the U.S. Government, the United States nation, the 
United States of America, has a rich history of providing land 
to its veterans. Those folks who served in the Civil War, those 
folks who served during World War II, World War I, the Korean 
War, were all provided, the military personnel and their 
veterans were provided ways and means of access to the lands in 
this nation. At the same time, those folks who were not in the 
military service were not given that same ability to acquire 
land in this nation.
    Mr. Chairman, our asking is that the Alaska Native veterans 
who served during the Vietnam era, some of whom never came back 
from Vietnam, some of whom when they came back were not here 
altogether, but because of their support and support of their 
families have been able to get their act together, Mr. 
Chairman, to say that it is not equitable, I think is wrong. I 
think the most equitable thing, Mr. Chairman, is to provide the 
veterans that we have the same kind of opportunity that this 
nation has always provided to its veterans. Mr. Chairman, thank 
you very much.
    Mr. Young. Thank you. The first panel is excused.
    Mr. Young. The second panel is Ms. Brown from Cook Inlet 
Region, Loretta Bullard from Kawerak, Eben Olrun and Walter 
Sampson.
    I want to thank the panel for being here. Ms. Margie Brown, 
you can testify first.

      STATEMENT OF MARGARET BROWN, COOK INLET REGION, INC.

    Ms. Brown. Thank you, Mr. Chairman. Mr. Chairman and 
members of the Committee, I appreciate the opportunity to 
testify before you today on a matter of importance to Cook 
Inlet Region and to urge your approval of the Russian River 
Land Act, H.R. 3048.
    My name is Margie Brown. I represent Cook Inlet Region, 
which is often referred to as CIRI. CIRI is an Alaska Native 
regional corporation created under the Alaska Native Claims 
Settlement Act. CIRI is owned by Alaska Native shareholders. I 
am one of those shareholders. I worked nearly 20 years with 
CIRI, working my entire career in the land and resources 
divisions of the company.
    Twenty-five years ago, I helped prepare and file CIRI's 
ANCSA land selections at Russian River on the Kenai Peninsula 
in Alaska. At that time, I had no idea that over 25 years 
later, CIRI would still be awaiting land conveyance at Russian 
River. This lack of conveyance has been a source of frustration 
to CIRI in the past.
    But today, I am pleased to report that CIRI has moved 
beyond this frustration. We have moved beyond our simple, yet 
very justified request for outright conveyance of lands at 
Russian River. We now wish to embark on a collaborative 
approach to management of the area with the two current Federal 
land management agencies.
    This collaborative approach is embodied in an agreement 
between CIRI, the Fish and Wildlife Service, and the Forest 
Service that was entered into on July 26, 2001. The agreement 
reflects 3 years of negotiations between the parties. Because 
of the contract terms, this agreement requires legislation in 
order to be effective. H.R. 3048 ratifies the agreement that is 
reached between the parties and it does it in a way that 
fulfills CIRI's entitlement and protects the public's interest.
    Why did it take over 3 years to negotiate the settlement, 
or perhaps another question, why was conveyance to CIRI not 
easily forthcoming in the first place? Simply put, this area is 
important to both CIRI and the Federal agencies and it was 
difficult to compromise. The area surrounding the confluence of 
the Kenai and Russian Rivers is rich in archaeological and 
other cultural features, reflecting intense Native Alaskan use 
of the area, perhaps going back 10,000 years. In fact, many of 
CIRI's shareholders are descendants of the Outer Inlet 
Dena'ina, who occupied the Russian River area in earlier times. 
CIRI believes that this is precisely the kind of land that was 
contemplated as being available for its selection under ANCSA.
    The Federal agencies representing the public also feel 
strongly about the Russian River area because it is the site 
perhaps of the most heavily used public sports fishery in 
Alaska today. Because of the intense public use and scrutiny, 
the Federal agencies were placed in a position to resist 
conveyance to CIRI for fear that that conveyance would disrupt 
the public's enjoyment of the area.
    It was clear to the parties that absent a settlement, long 
and difficult litigation was likely and that land ownership at 
Russian River would remain uncertain for years. While CIRI is 
no stranger to difficult litigation in order to secure its 
entitlement under ANCSA, in this case, CIRI believes that it 
can best achieve what it desires at Russian River through 
settlement.
    In reaching this settlement, CIRI's goals were threefold. 
First, CIRI desired to ensure that proper management of the 
rich cultural resources is maintained and that an understanding 
of the enduring use of the area by Alaska Natives is achieved. 
Further, CIRI wished that this be achieved in a manner that 
provide CIRI and its larger family of Alaska Native 
organizations an opportunity to participate in the management 
of these cultural resources.
    Second, CIRI desired that the Federal management of the 
intense public use of the Russian River area remain in place so 
that burden is not shifted to CIRI.
    And third, CIRI wished an opportunity to develop new 
economic opportunities in tourism and recreation consistent 
with the cultural resources of the area and it wished to 
promote new economic opportunity at Russian River for its 
shareholders through training programs and employment venues.
    I believe CIRI met its goals in reaching the Russian River 
Section 14(h)(1) selection agreement. Through the negotiation 
process, CIRI has come to recognize the interests of the Fish 
and Wildlife Service and the Forest Service at Russian River. 
In turn, we hope that the agencies have come to recognize 
CIRI's legitimate interests in the area. We look to a future 
where CIRI, the Fish and Wildlife Service, and the Forest 
Service, together with the Kenaitze Indian Tribe, will work 
together to manage and to celebrate the past history and the 
new opportunities at Russian River.
    Mr. Chairman, in consideration of the time, I would just 
like to submit in writing a paper that describes the agreement 
in more detail, and with that, I will conclude my oral 
testimony. Thank you.
    Mr. Young. Thank you, Ms. Brown. I appreciate that a great 
deal.
    [The prepared statement of Ms. Brown follows:]

    Statement of Margie Brown, on behalf of Cook Inlet Region, Inc.

    Thank you, Mr. Chairman, Congressman Young, and members of the 
Committee. I appreciate the opportunity to testify before the House 
Resources Committee today on a matter of importance to Cook Inlet 
Region, Inc. and to urge approval of the ``Russian River Land Act. --
H.R. 3048.
    My name is Margie Brown. I represent Cook Inlet Region, Inc., which 
is often referred to as CIRI. CIRI is an Alaska Native Regional 
Corporation created under the Alaska Native Claims Settlement Act of 
1971 (ANCSA). CIRI is owned by Alaska Native shareholders. I am one of 
those shareholders. I began my work at CIRI in 1976, not many years 
after the corporation was formed. For my entire career at CIRI, I was 
directly involved in CIRI's land entitlement issues.
    Twenty-five years ago, I helped prepare and file CIRI's ANCSA land 
selections at Russian River on the Kenai Peninsula in Alaska. At that 
time, I had no idea that over twenty-five years later CIRI would still 
be awaiting land conveyance at Russian River. This lack of conveyance 
has been a source of frustration to CIRI in the past, but today I am 
pleased to report to you that CIRI has moved beyond this frustration. 
We have moved beyond the simple, but justified request of outright 
conveyance at Russian River. CIRI now wishes to embark on a 
collaborative approach to management of the area with the two current 
Federal land managing agencies.
    This collaborative approach is embodied in an agreement between 
CIRI, the Fish and Wildlife Service and the Forest Service that was 
entered into on July 26, 2001 and is titled the ``Russian River Section 
14(h)(1) Selection Agreement''. This agreement reflects three years of 
negotiations between the parties. Because certain terms contained in 
the agreement require new authority in order to be implemented, the 
settlement is not effective without ratifying legislation. HR. 3048 
ratifies the agreement reached between CIRI, the U.S. Forest Service 
and the U.S. Fish and Wildlife Service and settles the land ownership 
issue at Russian River in a way that fulfills CIRI's entitlement and 
protects the public's interest.
    Why did it take over three years to negotiate this settlement 
agreement? Why was conveyance to CIRI not easily forthcoming in the 
first place? Simply put, the area is so important to both CIRI and the 
Federal agencies involved that compromise was difficult to obtain. The 
area surrounding the confluence of the Kenai and Russian Rivers is rich 
in archeological features reflecting intense Alaska Native use of the 
area--perhaps going back ten thousand years. In fact, many CIRI 
shareholders are descendants of the Outer Inlet Dena ina who occupied 
the Russian River area in earlier times. CIRI believes it is precisely 
this kind of site that was contemplated as being available for 
selection by Alaska Native Regional Corporations under ANCSA.
    The Federal agencies, representing the public, also feel strongly 
about the Russian River area because it is the site of perhaps the most 
heavily used public sports fishery in Alaska today. Because of the 
intense public use and scrutiny, the Federal agencies were placed in a 
position to resist conveyance to CIRI for fear that conveyance would 
disrupt the public's enjoyment of the area.
    It was clear to the parties that without a settlement agreement, 
long and difficult litigation was likely, and the land ownership at 
Russian River would remain uncertain for years. While CIRI is no 
stranger to pursuing long and difficult litigation in order to secure 
its entitlement under ANSCA, in this case CIRI believes that it can 
best achieve what it desires at Russian River through settlement.
    In reaching settlement at Russian River, CIRI goals were threefold.
    First, CIRI desired to insure that proper management of the rich 
cultural resources is maintained and that an understanding of the 
enduring use of the area by Alaska Natives is achieved. Further, CIRI 
wished that this be achieved in a manner that provides CIRI and its 
larger family of Alaska Native organizations an opportunity to 
participate in the management of those resources.
    Second, CIRI desired that Federal management of the intense public 
use of the Russian River area remain in place so that burden is not 
shifted to CIRI.
    Third, CIRI wished an opportunity to develop new economic 
opportunities in tourism and recreation consistent with the cultural 
resources of the area and to promote new economic opportunity at 
Russian River for CIRI shareholders through training programs and new 
employment venues.
    I believe CIRI met its goals in reaching the Russian River Section 
14(h)(1) Selection Agreement. Through the negotiation process, CIRI has 
come to recognize the interests of the Fish and Wildlife Service and 
Forest Service at Russian River. In turn, we hope that the agencies 
have come to recognize CIRI's legitimate interests at Russian River. We 
look forward to the future where CIRI, and the Fish and Wildlife 
Service and Forest Service, together with the Kenaitze Indian Tribe, 
will work together to manage and to celebrate the past history and the 
new opportunities at Russian River.
    Mr. Chairman, in consideration of the time allotted me, I would 
like to extend my testimony to include a written summary of the Russian 
River Section 14(h)(1) Selection Agreement. I would be happy to answer 
any questions the Committee may have.
    Thank you.
                    EXTENDED REMARKS BY MARGIE BROWN
    H.R. 3048 ratifies The Russian River Section 14(h)(1) Selection 
Agreement (Agreement) covering lands surrounding the confluence of the 
Russian and Kenai Rivers. The Agreement benefits the parties and the 
general public in the following ways:
    <bullet> The Forest Service campground and Fish and Wildlife ferry 
site and most of the land at the Russian River remains in Federal 
ownership and control.
    <bullet> The right of the public to continue fishing remains 
unchanged from the current status.
    <bullet> From Forest Service lands, CIRI is to be conveyed a 42-
acre parcel on the bluff overlooking the confluence of the Kenai and 
Russian Rivers, and an approximately 20-acre parcel near where the 
Sterling Highway crosses the Kenai River. The 20-acre parcel is subject 
to Section 14(h)(1) restrictions. In addition, a public easement 
managed by the Forest Service along the banks of the Kenai River is 
reserved on the 20-acre parcel.
    <bullet> From Fish and Wildlife lands, CIRI is to be conveyed the 
limited estate of the archeological and cultural resources in 
approximately 502 acres. The lands are well-documented villages and 
cultural sites. In other lands, CIRI's future rights to any 
archeological material, if and when any of this material is removed, is 
clarified. Thus, CIRI's ANCSA entitlement is fulfilled in a manner that 
accommodates the public's interest.
    <bullet> With these conveyances, CIRI will relinquish its ANCSA 
Section 14(h)(1) selections in the area, now totaling 2,010 acres.
    <bullet> The parties agree to pursue a public visitor's 
interpretive center for the shared use of all three parties to be built 
on the 42-acre parcel to be conveyed to CIRI. The visitor's center 
would provide for interpretation of both the natural and cultural 
resources of the Russian River area. A public joint visitor's 
interpretive center would include interpretive displays, thereby 
enhancing educational and cultural experiences for Alaskans and 
tourists alike.
    <bullet> In conjunction with the visitor's interpretive center, 
the parties agree to seek the establishment of an archeological 
research center that will facilitate the management of the cultural 
resources in the area.
    <bullet> CIRI seeks a $13,800,000 Federal appropriation to plan, 
design, and build the joint visitor's center and the archaeological 
research center that is contemplated in the Agreement.
    <bullet> Certain visitor-oriented facilities may be developed by 
CIRI on the 42-acre parcel. These facilities may include a lodge, 
dormitory housing for staff and agency people, and a restaurant. CIRI 
agrees to seek input from the Federal agencies as to their needs and 
desires for the area.
    <bullet> The parties commit to enter into a memorandum of 
understanding for the purpose of ensuring the significant activities at 
Russian River are carried out in a cooperative and coordinated manner. 
Management of the area is enhanced through the parties' commitment to 
address the long-term protection of the natural and the cultural 
resources. In addition, the Kenaitze Indian Tribe, the local tribal 
entity, has been invited and has expressed interest in participating in 
future efforts and planning at Russian River.
    <bullet> The Agreement also authorizes, but does not require, the 
exchange of land lying adjacent to the Sterling Highway at Russian 
River for important brown bear habitat near the Killey River in the 
Kenai Peninsula owned by CIRI.
                                 ______
                                 
    Mr. Young. Loretta Bullard of Kawerak?

     STATEMENT OF LORETTA BULLARD, PRESIDENT, KAWERAK, INC.

    Ms. Bullard. Thank you, Mr. Chairman. My name is Loretta 
Bullard and I am President of Kawerak, which is the regional 
tribal nonprofit consortium serving the Bering Straits region 
of Alaska. We have 20 Federally recognized tribes that are 
members of our consortium.
    I am here today to express our support for H.R. 4734. The 
bill, as drafted, would authorize the negotiation of up to 12 
contracts, six per year over a 2-year period, by which tribal 
organizations would administer some Federal land management 
functions in Alaska, principally within national park and 
national wildlife refuges. To qualify, tribes or tribal 
organizations would have to demonstrate a significant use or 
reliance on the land in question, have a history of clean 
audits, and to complete a planning process.
    I want to summarize a little bit what the bill would not 
do. The bill is a contracting bill that authorizes tribes and 
tribal organizations to form some activities of the Federal 
Government through negotiated government-to-government 
agreements. The bill does not change the underlying nature or 
purpose of the Federal activities. It does not change the 
organic laws and regulations governing national parks and 
refuges in Alaska. Refuges will still be part of the National 
Wildlife Refuge and the parks will still be parks. Nor does the 
bill alter the ANILCA subsistence preference.
    The draft bill is modeled on Title III of P.L. 93-638, 
which first established a demonstration project for tribal 
self-governance compacting of BIA and Indian Health Service 
programs. Essentially, H.R. 4734 would extend contracting and 
compacting mechanisms on a pilot project basis to Interior 
Department agencies outside of the Bureau of Indian Affairs.
    The reason we believe that this language is necessary is 
that under Title IV of P.L. 93-638, there is language there 
that makes available the opportunity to compact non-BIA 
Department of Interior functions, and I participated for a 
number of years in a negotiated rulemaking process whereby, 
even though the language in the Act says that the Department 
shall enter into these agreements, the Department in the 
negotiation process interpreted the language to say that was 
purely discretion on their part and that was purely applying to 
Indian programs.
    There is what they call nexus programs, which, because of 
your geographic, historic, or other ties to a particular piece 
of land, those could be considered to be compacted for. But 
through that process, we found that the Department of Interior 
has exercised its authority or its discretion to not enter into 
compacts, and that is the reason that we feel this bill is 
necessary.
    The Interior Department construed Title IV so narrowly that 
it is virtually never used outside the Bureau of Indian 
Affairs. Both the Park Service and the U.S. Fish and Wildlife 
Service have concluded there are no Native programs so they 
have no mandatory obligation to enter into self-governance 
agreements.
    Common sense might suggest that even though Congress in 
Title IV chose to leave the Department of Interior with some 
discretion in regard to entering into self-governance 
agreement, it did not expect the Department of Interior to 
completely ignore the Title IV authorization. Title IV itself 
required DOI to interpret laws and regulations so as to 
facilitate the inclusion of Federal programs in self-governance 
agreements.
    Given the number of parks and refuges in Alaska, the number 
and location of tribes and tribal organizations, and the 
success of BIA self-governance agreements in Alaska, one would 
think that after 8 years after Title IV, there would be a 
reasonable number of National Park Service and U.S. Fish and 
Wildlife Service self-governance agreements in Alaska. There 
are not.
    In looking at the Federal individual who was testifying in 
opposition to this bill, I noted that they say that there is 
currently the authority to contract with tribes and tribal 
organizations under Title IV, but in reality, they have 
exercised their discretion not to do that. So it really is not 
an avenue for addressing this.
    Just in commenting on the reports that the Department did 
in response to the bill that was introduced and passed last 
session, S. 748--I am not sure what the law finally ended up 
being, but the bill number itself--one problem with those 
reports is that the Department does not confront, explain, or 
even acknowledge National Park Service or U.S. Fish and 
Wildlife Service's policy against entering into funding 
agreements under Title IV of P.L. 93-638.
    The reports were supposed to include their progress and 
plans for implementing 638 contacting as well as the ANILCA 
sections. Yet, the reports we have seen report on the local 
hire pilot program, and under ANILCA, local hire is anybody 
that has lived in a rural area for a year or longer. That is 
local hire. So pretty much, you have pretty wide discretion on 
who you hire under the local hire provisions. Their reports 
basically skirt the issue on self-governance compacting. It 
leaves it out, but rather, they concentrate on cooperative 
agreements by Indian Act contracts, everything except P.L. 93-
638.
    I will just close by just reiterating our support. The 
Title IV funding mechanisms which would be authorized by this 
bill has advantages over other types of contractual mechanisms 
used by the Federal Government. In our experience, it is much 
more flexible, involves less bureaucratic red tape than typical 
grants or contracts, and because self-governance agreements are 
negotiated on a government-to-government basis, they carry a 
sense of equality and respect that other Federal funding 
mechanisms do not.
    Our people are directly impacted by the activities of these 
agencies in rural Alaska and it only makes sense that we should 
have a meaningful role in the operation of the land units which 
surround our communities.
    And just in closing, I had heard mentioned that Kawerak 
negotiated an annual funding agreement with the Park Service, 
and we did, in fact. That was a number of years ago. But 
basically, that was not any of the land management or resource 
functions associated with the park, but rather, we were 
successful in negotiating an annual funding agreement for 3 
years for a portion of the Berengia dollars which Congress 
appropriated to support our activities in support of the 
Berengia concept.
    Basically, they treated it like a grant. It was for 3 
years. It was cutoff. We were never successful at negotiating 
any of the resource or support functions associated with the 
Bering Land Bridge. The only function that they were willing to 
let us contract or compact for was the functions associated 
with the reindeer range management in the park, and my sense of 
it is they just thought that was something they did not want to 
do, so that was the reason they were willing to make that 
available to us.
    But thank you for this opportunity to testify.
    Mr. Young. Thank you, Loretta. What you just said refutes 
what has been said by the Department. In defense of this 
Department, there are so many of those that have been there 
prior to that still have that old, we are not going to deal 
with the Alaska Natives, we are not going to listen to what was 
said in the law, we will ignore it, and there are too many 
loopholes.
    This is the intent of this legislation, that we have, in 
fact, the right, and they shall, in fact, compact with. They 
are going to oppose it and we will see what happens as time 
goes by, but they certainly have not done what we intended to 
do, the agreement that I got with Mr. Udall that there was to 
be, in fact, local hire, preferential hire, those involved, 
including management of those lands. That was what was sold to 
the Alaska Natives, and by the way, who supported the Alaska 
National Lands Act, and they have not done it.
    It is just that turf war, that they do not recognize, 
frankly, that the Native corporations, the people that live 
there have just as much expertise, if not more, and if they do 
not have it, by God, they are being trained. They have got 12 
of the most successful corporations and a lot of village 
corporations have done quite well, and to say they cannot 
manage it, to me, is beyond my comprehension.
    Ms. Bullard. I was going to say, I was thinking about that. 
I mean, I am sure that the Bureau of Indian Affairs and the 
Indian Health Service, when Native people first started 
contracting to provide those services, thought that Native 
people could not do it, either, but I really disagree. I think 
that through our contracting for the last 25, 30 years, I think 
we have proven that we can do the job.
    Mr. Young. Well, again, and then I will go to Mr. Olrun, 
this is one of the things. It was modeled after the health 
contracting, which has been quite successful and expertise has 
been established. It is those that do not want, in fact, not to 
have only Park Service on board. That is all they want. They 
want these little fiefdoms and they have their little programs 
and they ask for money to have their little fine complexes put 
up for them and their visitors' centers. It is all sort of a 
turf war. It has nothing to do with the management of the park. 
You can do a lot better job. We have proved that health-wise. 
But no, they have got to hang on to their little fiefdom.
    [The prepared statement of Ms. Bullard follows:]

         Statement of Loretta Bullard, President, Kawerak, Inc.

    Mr. Chairman, thank you for the opportunity to testify today on 
H.R. 4734, which would create a demonstration project for Alaska Native 
contracting of Federal land management activities in Alaska.
    My name is Loretta Bullard, and I am the President of Kawerak, 
Inc., which is a regional tribal consortium serving 20 Native villages 
in the Bering Straits region of Alaska, centered in Nome. I am also 
Chairperson of the Human Resources Committee of the Alaska Federation 
of Natives. On behalf of AFN, Kawerak, and our member tribes, I wish to 
express our strong support for H.R. 4734 and to thank Congressman Young 
for his efforts.
    When enacted, H.R. 4734 will authorize the negotiation of up to 12 
contracts, six per year over a two-year period, by which tribal 
organizations would administer some Federal land management programs in 
Alaska, principally within national park units and national wildlife 
refuges. To qualify, the tribes or tribal organizations would have to 
demonstrate significant use or reliance on the land in question, have a 
history of clean audits, and to complete a planning process. The 
applications would be limited to lands units in the tribe or tribal 
organization's own area.
    Tribal applicants could choose to target their applications to 
particular programs or activities of the Federal agency, or opt to 
contract the full administration and management of the land unit, 
excluding only those things that have to be done by a Federal official. 
The bill also authorizes the inclusion of support activities for the 
Federal subsistence management program. This is referenced separately 
in the bill because Federal subsistence management in Alaska is 
operated from Anchorage and is not necessarily linked to the 
administration of particular Federal land units.
    Although the bill does not provide for a specific ``one contract 
per region'' allocation of these contracts among the 12 Native regions 
in Alaska, it does require DOI to select applicants with an eye to 
statewide geographic representation. The bill makes provision for 
prioritizing applications if there are competing ones.
    I am less familiar with Section 4 regarding the Koyukuk and Kanuti 
National Wildlife Refuges, and that my comments are directed to the 
other parts of the bill. It seems to me that Section 4 is essentially a 
stand-alone section, and might need some technical amendments to mesh 
more clearly with the other sections.
    Except for Section 4, H.R. 4734 is modeled on Title III of P.L. 93-
638, which first established the demonstration project for tribal self-
governance compacting of BIA and Indian Health Service programs. 
Essentially, H.R. 4734 would extend the 638 contracting and compacting 
mechanisms, on a pilot project basis, to Interior Department agencies 
outside of the BIA.
    I would like to comment briefly on what the bill does not do. Like 
P.L. 93-638 itself, H.R. 4734 is a contracting bill that authorizes 
tribes and tribal organizations to perform some activities of the 
Federal Government through negotiated, government-to government 
agreements. The bill does not change the underlying nature or purpose 
of the Federal activities; it simply allows tribes to perform work 
within their own areas that the Federal Government would otherwise be 
doing. Except for the planning grants authorized by the bill, it will 
not cost the Federal Government more money. Tribal contractors would be 
stepping in to administer Federal programs at the same funding level 
the agency would have if it were running the program.
    It is important to stress that the bill would not change the 
organic laws and regulations governing national parks and refuges in 
Alaska. The wildlife refuges will still be part of the national refuge 
system, and the parks will still be parks. Nothing in this bill changes 
the purposes or mandates of the Federal conservation units.
    Nor does the bill alter the ANILCA subsistence preference. Since 
the promulgation of Federal regulations is something only the Federal 
Government can do, the policy-making authority for Federal subsistence 
management will not shift. Tribal organizations could only provide 
support services such as harvest data collection, scientific studies, 
and administrative support for the regional subsistence councils.
    To put H.R. 4734 in its historic and geographic context, Federal 
lands constitute about 60% of the land area in Alaska. While many 
people in the Lower 48 states may view all of Alaska's national parks 
and refuges as remote wildernesses, that perspective is not shared by 
Alaska Natives. Alaska's Federal lands are the back yards of Native 
villages. In many places in Alaska, park and refuge lands completely 
surround Native communities and are the primary location for village 
subsistence hunting, fishing and gathering activity. Continuation of 
subsistence activity was a statutory purpose of the new conservation 
units created by ANILCA.
    In this context, Alaska Native are not just another interest group. 
Our entire culture is inextricably linked to the land. For millennia 
our people have hunted, fished, and lived on lands that are now 
Federally owned. Our stewardship of the land speaks for itself; if we 
had not taken care of the land, it would not have been worth putting 
into parks and refuges.
    When ANILCA dramatically expanded the national park and refuge 
systems in 1980, Alaska Natives were very wary of the legislation. Many 
had opposed ANILCA, fearing that the land would be locked up, that we 
would have no say in how it was managed, and that opportunities for 
economic development would be lost. But ANILCA also did many things 
that Natives supported. It expedited the conveyance of Native allotment 
land. It provided that subsistence would be a purpose of the new park 
and refuge units, and it plugged a gap in ANCSA by providing, however 
imperfectly, a priority for subsistence harvesting of fish and game in 
rural areas.
    Among the protections built into ANILCA were sections 1306, 1307, 
and 1308. Specifically, Section 1306 gave a preference for using Native 
lands as the site for park and refuge facilities outside of the 
conservation units. Section 1307 grandfathered existing park 
concessionaires but prospectively gave preferences to Native 
corporations and local residents to provide revenue-producing visitor 
services. Section 1308 allowed the Interior Department to hire local 
people with ``special knowledge'' of natural or cultural resources, 
without regard to normal civil service rules.
    Collectively, these were clearly intended to ensure that local 
people generally and Natives specifically would derive economic benefit 
from the new conservation system units, thus compensating somewhat for 
the more restricted status of the lands.
    As this Committee well knows, putting so much land in national 
monuments, preserves, parks, refuges and wilderness areas greatly 
impacted rural Alaska communities. While some of ANILCA's impact has 
unquestionably been good, it has also had negative consequences. It 
certainly reduced opportunities for economic diversification. Even the 
most basic expansion of rural Alaska's ground transportation system is 
problematic when most any connecting route of any length would have to 
pass through a park or refuge unit.
    Unfortunately, none of these sections of ANILCA has had much 
practical effect. Although some Federal facilities are sited on Native 
corporation land, this likely would have happened anyway simply because 
Native corporations are the main private landowners in rural areas. The 
Section 1307 priority for Native corporation and local concessionaires 
has had limited impact. Hunting and fishing guides are exempted from 
Section 1307. In most places NPS and USFWS have not found it necessary 
to limit the number of other commercial operators. Most of park and 
refuge units don't have much in the way of visitor facilities, and 
visitor services such as air taxis or birding tour operators are not 
restricted. The June 2001 DOI report in response to P.L. 106-488 
identified only three Alaska Native corporation concessionaires 
statewide benefiting from Section 1307, and these are at Glacier Bay 
and at Kantishna within Denali National Park & Preserve--not in western 
Alaska.
    The local hire provision of 1308 received little attention at all 
until recent years, and contains several built-in limitations, some of 
which Congress probably did not foresee. It has only been applied in 
the locality of the conservation units, but most of the Interior 
Department jobs are actually in Anchorage. There are so many other 
priorities in the Federal hiring system--for veterans, students, 
displaced career employees--that Section 1308 has not led to a 
workforce that reflects the local population.
    One of the most ironic constraints is that DOI's diversity in 
hiring goals look to the number of Native Americans in the national 
population rather than in the local area. Thus, if a DOI agency in 
Alaska has 4% Natives it has met the diversity goal for Natives, even 
though Alaska Natives are about 16% of the statewide population and are 
a large majority in many of the rural communities near the Federal 
conservation units.
    The DOI agencies' normal hiring and retention system is geared 
toward people who transfer between locations nationally as their 
careers progress. People hired under Section 1308 are not regular civil 
service employees and cannot compete for jobs outside of their areas, 
which restricts career advancement. There is no incentive for 
supervisors to convert local hire employees to competitive civil 
service positions because the local hire positions, unlike competitive 
positions, do not count against the agency's FTE cap.
    Obviously, from our perspective a weakness of Section 1308 is that 
it is a ``local hire'' provision rather than Native hire. While there 
is nothing wrong in concept with local hire, people who are hired 
locally may not really be local from the perspective of long-time 
residents. The rural Alaska hub communities where park and refuge 
offices are located have a lot of transient residents who only stay for 
a few years at most, but who may qualify under Section 1308.
    The Native community in Alaska was hopeful in 1994 that Title IV of 
P.L. 93-638 would cut through the limits of the ANILCA provisions and 
open the door to broader Native involvement in the Parks and Refuges. 
Title IV required the non-BIA Interior agencies to enter self-
governance agreements for distinctively ``Native'' programs, and also 
authorized such agreements for other DOI programs when there is a 
significant geographic, historic or cultural connection between the 
tribe and the Federal program in question. Title IV self-governance 
agreements would not only allow tribal organizations to actual run the 
Federal program, but to apply a direct Native hire preference. Title IV 
seemed to fit Alaska very well, since so many of the parks and refuges 
in Alaska are close to Native villages.
    Unfortunately, the Interior Department has construed Title IV so 
narrowly that it is virtually never used outside of the BIA. Both the 
National Park Service and the U.S. Fish & Wildlife Service have 
concluded they have no Native programs, so they have no mandatory 
obligation to enter self-govemance agreements. Not even the ANILCA 
subsistence program is considered ``Native.''
    In regard to discretionary self-governance agreements based on a 
close geographic, historic or cultural nexus, DOI has exercised its 
discretion not to enter into self-governance agreements. When 
regulations were developed for Title IV under a negotiated rule-making 
process, DOI could have developed guidelines for when it would use 
self-governance agreements. Tribes nationally urged DOI to do so. But 
DOI refused, in favor of retaining absolute discretion. The U.S. Fish & 
Wildlife Service, which is the agency primarily responsible for Federal 
subsistence management in Alaska, has never entered into a Title IV 
self-governance agreement anywhere in the United States. The other DOI 
agencies, excepting the BIA, have only entered a handful.
    Common sense might suggest that even though Congress chose to leave 
DOI with discretion in regard to entering self-governance agreements 
based on geographic and cultural proximity, it did not expect DOI to 
completely ignore the Title IV authorization. Title IV itself required 
DOI to interpret laws and regulations so as to ``facilitate the 
inclusion'' of Federal programs in self-governance agreements. Given 
the number of parks and refuges in Alaska, the number and location of 
tribes and tribal organizations in Alaska, and the success of BIA self-
governance agreements in Alaska, one would think that eight years after 
Title IV there would be a reasonable number of NPS and USFWS self-
governance agreements in Alaska. There are not.
    Congress took steps to look into these issues two years ago by 
enacting P.L. 106-488, which required DOI to submit a detailed report 
on the implementation of ANILCA Sections 1307 and 1308 and P.L. 93-638 
contracting. This was to include a report on the legal and policy 
obstacles that act as a deterrent to hiring Alaska Natives or 
contracting with Alaska Natives. P.L. 106-488 also required NPS to 
conduct ``pilot programs'' to employ local residents in conjunction 
with its operation of the four Western Arctic National Parklands units. 
One of these units, the Bering Land Bridge National Preserve, is within 
Kawerak's region and the other three are to our north, in the Maniilaq/
Northwest Arctic region. The NPS Western Alaska Parklands unit has 
offices in Nome and Kotzeure.
    The reports that DOI has issued as a result of P.L. 106-488 clearly 
reveal that additional legislation is necessary. While we appreciate 
the work that NPS did in implementing the local hire pilot program, 
their November 2001 report raises as many questions as it asks. 
Essentially, the report shows that they had some success in increasing 
their hire rate for local people and Natives by undertaking a fairly 
diligent effort to do so, increasing their outreach, and developing 
recruitment plans for the positions they had opened. They had two 
consultation meetings, one in Kotzebue and one in Nome, with local and 
regional Native organizations. Kawerak co-sponsored the one in Nome. We 
believe these efforts were very positive, the kind of dialogue that 
should have been occurring all along. But the question remains, why did 
it take an Act of Congress to prompt these efforts? It was all under 
existing legal authority, and Congress did not provide any additional 
funds for the pilot program. To what extent will this effort continue 
or be expanded into other regions of Alaska, now that the pilot program 
is completed?
    One serious substantive problem with DOI's reports in response to 
P.L. 106-488 is that they do not directly confront, explain, or even 
acknowledge NP S and USFWS's policy against entering funding agreements 
under Title IV of P.L. 93-638. Their reports were supposed to include 
their progress and plans for implementing 638 contracting as well as 
the ANILCA sections. Yet the reports we have seen--a June 2001 DOI 
progress report and the November 20, 2001 report on local hire pilot 
program- totally skirt the issue. The June 2001 report, on page 7, 
quotes from the ISDEAA provision regarding the contracting of Indian 
programs but leaves out, as if it didn't exist, the provision of Title 
IV which authorizes self-governance compacts based on a geographic or 
cultural nexus. The sections of the report dealing with USFW & NPS 
progress in regard to P.L. 93-638 are unresponsive to the question; 
instead they talk about cooperative agreements, Buy Indian Act 
contracts, etc.; everything except P.L. 93-638.
    The November 2001 report on the pilot program in the Western Arctic 
does acknowledge, on pages 41-42, that NPS has discretionary authority 
to enter into funding agreements under Title IV of P.L. 93-638, and 
also that Native groups in the area do have a geographic and cultural 
connection to the Western Arctic park units. The report also says that 
NPS would cooperate and potentially enter into an agreement for 
eligible programs. What the report does not state is that both Kawerak 
and our sister consortium in the Kotzebue region, Maniilaq, have 
attempted this in the past in regard to the Western Arctic park units 
and got nowhere. Kawerak spent an enormous amount of time, effort and 
money in 1995 and 1996 attempting to negotiate a Title IV agreement for 
some functions of the Bering Land Bridge Preserve, and had enormous 
difficulty even getting the budgetary information necessary to 
negotiate. We do not want to go down that road again based on a vague 
promise to negotiate.
    Neither report acknowledges NPS or USFWS's policy bias against 
negotiating self-government agreements or makes any real commitment to 
use Title IV in the future. In fact, the June 2001 DOI report's 
concluding paragraph simply states that it will continue contracting on 
the same basis as it has in the past.
    I believe the reports in response to P.L. 106-488 clearly show why 
additional legislation is needed. Even after the success of the pilot 
program, the Native hire rate in the Western Arctic Parklands is only 
24%. The Selawik National Wildlife Refuge, also in the Northwest Arctic 
region, had 11% (1 out of 9 employees). In contrast, the Native 
population in the Northwest Arctic Borough is 83%, and in the Nome area 
61%. The villages closest to park units are more than 90% Native. While 
some other state and Federal agencies also have low rates, the report 
shows that local employers have much higher rates--the Northwest Arctic 
Borough government, 61 %, the NW Arctic School District, 55%, Maniilaq, 
68%. Kawerak's Native hire rate is about 80%. Statewide, Alaska Natives 
are 16% of the population.
    The obstacles to Native hire identified in the pilot program report 
on pages 37-39 would be reduced or eliminated if Native organizations 
were able to operate the Federal programs. Obviously, if P.L. 93-638 
rules applied, we could use a Native hire preference. But regardless of 
Native hire, regional Native organizations such as Kawerak and Maniilaq 
are able to structure personnel systems to attract qualified employees 
in the socio-economic environment in which we work. We do not have to 
make a national personnel system fit local conditions. We have the 
flexibility to accommodate subsistence activities and to tailor job 
descriptions so that they match the job, without requiring excessive 
paper qualifications. We already operate training and educational 
programs, including college scholarships, and make use of on-the-job 
training. And although we would be subject to the same overall funding 
constraints as the Federal agencies, we would not be locked into the 
Federal wage ranges categories, which the report suggests is a major 
obstacle to local hire.
    The Western Alaska Parklands unit reports that when they advertise 
higher range positions under local hire rules their typical response 
rate is between zero and two applicants. I can assure you that Kawerak 
does better than that for comparable positions.
    Barriers of perception and local hostility toward the Federal 
agencies would be reduced if Native organizations were more engaged in 
park and refuge management and operated some of the programs. I have 
previously testified before this Committee about how historically park 
and refuge employees tended to form separate enclaves and how the 
agencies were often viewed as alien intruders. While I think the 
relationship has improved over the years, and that NPS and USFWS have 
made progress in hiring locally and in entering some kinds of contracts 
and agreements with Native entities, we are still a long way from the 
kind of partnership we would like to see, and that should be desirable 
from all perspectives.
    H.R. 4734 is a logical and needed next step in fulfilling the 
Federal policies expressed in ANILCA and in Title IV of the Indian 
Self-Determination and Education Assistance Act. Tribal organizations 
in Alaska have been performing Federal functions for years, and should 
be given the chance to show they can take a greater role in Federal 
land management. Kawerak's BIA self-governance compact, for example, 
has been in effect since Fiscal Year 1992. We were one of the original 
self-governance compactors under the Self-Governance Demonstration 
Project, authorized by Title III of P.L. 93-638. Our BIA programs 
include higher education scholarships, vocational training, child 
welfare, general assistance, Native allotment land management, a 
reindeer program, and various services to tribal governments. We also 
operate approximately 40 grants and contracts with other Federal and 
state agencies. These include marine mammal and migratory bird funding 
from the U.S. Fish and Wildlife Service and the National Park Service.
    I believe that any applicant under H.R. 4734 would take a 
reasonable approach; it would not be to any applicant's benefit to take 
on a contract of this nature, and fail. If Kawerak, for example, were 
to apply to assume some of the Bering Land Bridge operations, we would 
use the planning period and the negotiation process to determine what 
aspect of the unit's management would make sense for us to assume. This 
would involve analyzing the laws and regulations governing park 
administration, the available funding, the workload, the staffing, and 
transitional issues. We have a long history of operating programs in 
our area, and would make an informed and reasonable decision.
    The Title IV funding mechanism, which would be authorized by this 
bill, has advantages over other kinds of contractual mechanisms used by 
the Federal Government. In our experience, it is much more flexible and 
involves less bureaucratic red tape than typical grants or contracts. 
Because self-governance agreements are negotiated on a government-to-
government basis, they carry a sense of equality and respect that other 
Federal funding mechanisms do not. They bring the parties together on 
an annual basis. NPS and USFWS ought to be using them now.
    For many years Native organizations in Alaska have sought a closer 
relationship to the Federal agencies that manage the lands in our 
areas. Our people are directly impacted by the activities of these 
agencies, and it only makes sense that we should have a meaningful role 
in the operation of the land units. H.R. 4734 is large step in the 
right direction. Thank you for the opportunity to testify in its 
support.
                                 ______
                                 
    Mr. Young. Eben, you have listened to most of my tirades. 
You go right ahead.

STATEMENT OF EBEN OLRUN, CHAIRMAN, NATIVE VETERANS ASSOCIATION 
                           OF ALASKA

    Mr. Olrun. Mr. Chairman, honorable members of the U.S. 
Resources Committee, my name is Eben Olrun. I am a Cup'ik 
Alaska Native. I currently serve as Chairman of the Board of 
Directors of the Native Veterans Association of Alaska. On 
behalf of the Native Veterans Association of Alaska and those 
we serve, I thank you for allowing me to make this statement to 
this Committee on H.R. 3148. Before I begin, if the Committee 
members ask specific questions that I may not be able to 
answer, I request that Nelson Angapak be allowed to respond to 
such questions.
    I was born in a subsistence fish camp at Nash Harbor, 
Nunivak Island, Alaska. My parents are Nusuun and Olie. I was 
raised in a traditional subsistence culture. I still practice 
subsistence and teach the skills to my two sons.
    Allotments of land in Alaska are important to me and many 
other parents because they protect our subsistence culture. It 
allows us a protected place to teach our children the 
importance of caring for the earth, and learning these beliefs 
and skills is what ensured our survival from generation to 
generation.
    I served in the United States Marine Corps from February 
1970 to February 1972. I completed a tour in Vietnam in the Khe 
Sahn Mountains and Da Nang region. I was honorably discharged 
in 1972.
    The Native Veterans Association of Alaska, which I 
represent today, was formed to help Alaska Natives who 
honorably served in the military during the Vietnam War to get 
allotments. We feel very few veterans would get allotments 
under the current Veterans Allotment Act. Our fears have come 
true. There are so many obstacles in the law that many 
applications have been rejected already. Many veterans were 
discouraged from even applying. H.R. 3148 would change that. 
There are three reasons why the current Federal allotment law 
needs to be amended.
    The first reason is there is hardly any land left in 
Alaska, the type of land that the law allows veterans to select 
for an allotment. H.R. 3148 makes more land available for 
Federal allotment. Valid existing rights to land claims for 
Federal allotments are protected by H.R. 3148.
    To illustrate the problem of lack of land, I would like to 
tell you about an Alaska Native named Gilbert Ketzler, Jr. 
Gilbert bravely served as an Army medic in Vietnam and was 
killed in action. Gilbert's heirs applied for an allotment of 
land, but their application was denied because the land Gilbert 
used was not available. Under H.R. 3148, Mr. Ketzler's heirs 
would stand a greater chance of getting an allotment.
    The second reason that the existing law needs to be amended 
is the use and occupancy requirement. To get an allotment, a 
veteran must prove use and occupancy beginning before the land 
was withdrawn, reserved, or selected. However, vast areas of 
land in Alaska were withdrawn, reserved, and selected before 
those veterans were even born or before we were old enough to 
begin using the land. The problem is solved by the legislative 
approval provision in H.R. 3148.
    The third reason the law needs to be changed is that 
current law has shut the door on about 1,700 Alaska Native 
Vietnam veterans that honorably served in the military during 
the Vietnam era. These veterans are shut out because even 
though they served during the Vietnam era, their military 
service dates do not meet the strict letter of the law. They 
served too early or too late.
    Ronald Paul was an example of a brave veteran who fought in 
line and served his country early and received a Purple Heart 
but is not eligible for allotment. Ronald went to the U.S. Army 
in 1967 and served with the 101st Airborne Division. In 1968, 
he went to Vietnam and 11 months later was critically injured. 
Ronald was hospitalized until February 1969. Ronald is not 
eligible for allotment. This is because right after he was 
wounded, Ronald had agreed to be discharged early in order to 
get into a VA hospital where he had so many surgeries that he 
lost count. Under H.R. 3148, Ronald would be eligible to apply 
for an allotment because his military service from 1967 to 1968 
was during the Vietnam era.
    The opportunity to give testimony has been a great honor 
for me and thank you on behalf of all Alaska Natives who served 
our country during the Vietnam era. I recommend this Committee 
affirmatively vote H.R. 3148 out of the Committee and into the 
House of Representatives.
    Mr. Young. I want to thank Cindy Ahwinona, who has been 
with me for a long time, and yourself for bringing this again 
to the light. There is a great unfairness doctrine here. We 
passed one bill and got the best we could and we are going to 
try to make sure that we keep going and doing this. It is the 
right thing to do.
    People talk about the raiding of the land. I believe if 
every one of the people were to take an allotment, that would 
be 480,000 acres of land totally chosen. Not all of them would 
do that. There are 365 million acres of land in the State of 
Alaska, and why they look upon this as a raid, I do not know. 
And, by the way, under certain restrictions of allotment, as 
you just mentioned, if it has not had prior use, you cannot 
select it. Everybody says, well, they can select another piece 
of ground. You are selecting what is historical ancestral land. 
That is what most of this is based on.
    But thanks, Eben, for your testimony.
    [The prepared statement of Mr. Olrun follows:]

   Statement of Eben Olrun, Chairman, Native Veterans Association of 
                                 Alaska

I. INTRODUCTION
    Mr. Chairman, and Honorable members of the U.S. House Resources 
Committee: My name is Eben W. Olrun. I am a Cup ik Alaska Native and I 
currently serve as the Chairman of the Board of Directors of the Native 
Veterans Association of Alaska. On behalf of the Native Veterans 
Association of Alaska and those we serve, I thank you for allowing me 
to make this statement to this Committee on H.R. 3148. Also, if the 
Committee members ask specific questions that I may not be able to 
answer, I request that Mr. Nelson Angapak, who is present, be allowed 
to respond to these questions.
    I was born in a subsistence fish camp at Nash Harbor on Nunivak 
Island, Alaska in the year 1948. I am the son of Nusuun and Olie Olrun. 
My seven siblings and I were raised in a traditional land based 
subsistence culture which included hunting seals, netting salmon, 
collecting shell fish and other seafood, picking wild vegetables such 
as spinach and celery and various species of berries from around the 
village and island. By preserving our food, we stayed healthy and 
survived through the harsh winters, as did my ancestors before me. My 
diet and the diets of my ancestors before me relied heavily upon our 
closeness to the land where we were born and have lived for thousands 
of years.
    As an adult I still practice a subsistence way of life, my two 
small sons and I catch or hunt wild fish and game. It is this wild fish 
and game that my family eats exclusively as our sole source of protein. 
My family has traditional foods such as seal oil, dry fish and Eskimo 
ice cream every weekend as our mid day meal. None of the fish and game 
that we collect goes to waste. Often we are asked to spare a salmon or 
two to those who have a need. We are happy to share our food in the 
traditional way.
    Allotments of land in Alaska are important to me because they 
protect our subsistence culture and allow us a protected place to teach 
our children the importance of caring for the earth, and learning the 
beliefs and skills that ensure our survival from generation to 
generation. Many of the veterans I know have applied for allotments on 
land where our families have practiced traditional subsistence for many 
generations. We cherish this land and consider it our sacred duty as 
stewards to protect the land and its resources. Most of us are not 
interested in developing this land but instead intend to use it as a 
place to teach our children and grandchildren our traditional beliefs 
and practices such as self-reliance, and to carry out our 
responsibility to care for our families and elders.
    In 1964 I went to the Bureau of Indian Affairs regional residential 
high school in Chemawa, Oregon and graduated in 1969. I served in the 
United States Marine Corp from February 1970 to February 1972. I 
completed a tour in Vietnam from August 1970 until May 19, 1971 in the 
Khe Sahn Mountains and Da Nang region. Typical maneuvers of which I was 
a part were Search and Destroy Operations in addition to the expected 
capture of the North Vietnamese Army (NVA). I received the National 
Defense Service Medal, the Vietnam Service Medal with a star, the 
Vietnam Campaign Medal with the device Combat Action Ribbon and a Good 
Conduct Medal. I was Honorably Discharged in February of 1972 and 
determined by the Veteran's Administration to be disabled Veteran as a 
result of my service.
II. THERE ARE THREE REASONS WHY THE ALASKA NATIVE VIETNAM VETERANS 
        SUPPORT H.R. 3148
    The Native Veterans Association of Alaska, of which I am Chairman 
of the Board of Directors, is a statewide organization formed in March 
2000. Our goal is to help make it possible for all Alaska Natives who 
honorably served in the military during the Vietnam War to receive 
allotments of land in Alaska. We formed this organization out of our 
fear that few if any deserving veterans would ever get an allotment 
under the newly enacted Veterans Allotment Act. Our fears have come 
true. The numerous restrictions in the Act have defeated many of the 
applications filed and even discouraged many from applying. However, 
H.R. 3148 would change that. There are three reasons why the current 
Veterans Allotment Act needs to be amended.
A. The Type Of Land Available For Allotments Under Existing Law Is 
        Practically Non-Existent
    The first reason the existing law needs to be amended is the lack 
of Federal land that is available for veteran allotments. There is so 
little land that very few veterans will get allotments. The problem is 
that the existing law severely limits what type of land can be 
available for allotments. In fact there is hardly any land left in 
Alaska that meets the Act's many restrictions.
    Please let me explain. In order for land to be available for 
veteran allotments, the land must be:
    <bullet> on-mineral, without gas, coal, or oil,
    <bullet> not valuable for minerals, sand or gravel,
    <bullet> without campsites,
    <bullet> not selected by the State of Alaska or a Native 
Corporation,
    <bullet> not designated as wilderness,
    <bullet> not acquired Federal lands,
    <bullet> not contain a building or structure,
    <bullet> not withdrawn or reserved for national defense,
    <bullet> not a National Forest,
    <bullet> not BLM land with conservation system unit sites, (unless 
the manager consents),
    <bullet> not land claimed for mining,
    <bullet> not homesites, or trade and manufacturing sites or 
headquarters site,
    <bullet> not a reindeer site, and
    <bullet> not a cemetery site.
    These restrictions make it almost impossible for veterans to find 
any land that is available. The land restrictions make it especially 
difficult for veterans in southeast Alaska. This is true because land 
in a national forest is not available and most of southeast Alaska is 
within the Tongass National Forest. This restriction prevents many 
deserving veterans in southeast Alaska from obtaining allotments. There 
is a simple solution. That solution is found in H.R. 3148, which makes 
available for veteran allotments Federal land that is vacant. Under 
H.R. 3148, land selected but not yet conveyed to the State or a Native 
Corporation is not available unless the State or Corporation 
voluntarily relinquishes it. It is important to note that valid 
existing rights to land are protected by H.R. 3148.
    To illustrate the problem of lack of land, I would like to tell the 
Committee about an Alaska Native named Gilbert Ketzler, Jr. Gilbert 
volunteered and bravely served as an Army medic in Vietnam. Gilbert 
volunteered to go to Vietnam so that his three younger brothers would 
not have to. Gilbert was killed in action on October 10, 1969.
    On behalf of Gilbert's heirs, Mr. Ketzler's father applied for an 
allotment under the Veterans Allotment Act on land that he knew his son 
used and occupied in a manner that would meet the requirements of the 
Alaska Native Allotment Act. The application was denied because the 
land Gilbert used was not available because it had been selected by 
Native Corporations. Under H.R. 3148, Mr. Ketzler's heirs would be 
eligible for an allotment for two reasons. First, under H.R. 3148 it 
would be possible for the Corporations to voluntarily relinquish land 
for veteran allotments, which is not possible under existing law. 
Second, as discussed in the following section, under the legislative 
approval provisions of H.R. 3148 Mr. Ketzler's heirs could apply for an 
allotment of land that was available without having to prove Gilbert 
used that land in a qualifying manner.
B. The Current Use And Occupancy Requirements Make It Virtually 
        Impossible For Most Veterans To Get Allotments
    The second and equally important reason existing law needs to be 
amended is to eliminate the current use and occupancy requirements. To 
be qualified for an allotment a veteran must meet the extensive use and 
occupancy requirements of the Alaska Native Allotment Act of 1906, as 
amended. This means that Veteran applicants must prove substantially 
continuous use and occupancy of the land for a period of five years 
that is potentially exclusive of others.
    The major problem with this restriction is that the applicant's use 
and occupancy must have started before the land was withdrawn, reserved 
or selected. However, vast areas of land in Alaska was withdrawn, 
reserved or selected before the veterans were even born or before we 
were old enough to begin using the land in the way that is required to 
initiate an allotment claim. For example, much of the land in southeast 
Alaska was withdrawn in the early 1900's. The state of Alaska selected 
land throughout the state beginning in the early 1960's. Most of the 
land on Nunivak Island where I am from was withdrawn in 1929. The 
applications for allotments for land on Nunivak Island filed by both my 
cousin and I were rejected on the grounds that we were not old enough 
to have began using the land before it was withdrawn. The allotments we 
applied for was for land that our families have used for generations as 
our fish camp.
    This problem is solved by the provision in H.R. 3148 that replaces 
use and occupancy requirements with legislative approval of allotments. 
This provision also provides due process protections of all valid 
existing interests in the land that is claimed for a veteran allotment. 
This provision is similar to the legislative approval provision 
Congress made available to applicants of allotments who applied under 
the Alaska Native Allotment Act. Legislative approval will also save 
time and money because it will eliminate administrative adjudication of 
the applicant's use and occupancy.
C. The Current Military Service Dates Unfairly Excludes Many Who Served 
        During The Vietnam Era
    The third reason the law needs to be changed is that current law is 
unfair to many deserving veterans that do not qualify even though they 
honorably served their country during the Vietnam era. Many Alaska 
Native veterans who served during the Vietnam era do not qualify for an 
allotment under the military service time restrictions in the current 
law.
    This is true because only veterans who served from January 1, 1969 
to December 31, 1971 are now eligible to apply for an allotment. 
However, the Vietnam era covered a much longer time span. The ``Vietnam 
era'' is legally defined as beginning August 5, 1964 and ending May 7, 
1975. Veterans that served during the ``Vietnam era'' from August 5, 
1964 to December 31, 1968, and from January 1, 1972 to May 7, 1975 are 
excluded from getting an allotment under current law.
    We believe it is unfair to treat some Alaska Native veterans that 
honorably served their country during the Vietnam era differently than 
other Native veterans who also served during that same Vietnam era. All 
of us served our country at the time we were most needed. We should all 
get the opportunity to apply for an allotment
    This problem is solved by the provision in H.R. 3148, which expands 
the eligible military service dates to include the dates of the entire 
Vietnam era. There are approximately 1,700 Alaska Native Vietnam 
veterans that will get a chance to apply for an allotment if this 
provision is enacted into law. Those 1,700 veterans are now excluded 
simply because they bravely served their country a little too early or 
a little too late.
    One such brave Alaska Native veteran is Ronald Paul. After serving 
in the National Guard for over five years, Ronald went in the U.S. Army 
in 1967 and served with the 101st Airborne Division. In 1968, he was 
sent to Vietnam and fought eleven months in the TET offensive. Ronald 
was critically wounded on December 11, 1968. He survived after so many 
surgeries that he lost count. Ronald was hospitalized until February 
1969 and today is a disabled veteran. Unfortunately Ronald is not 
eligible for an allotment under current law. This is true because right 
after he was wounded, Ronald had to agree to be discharged early in 
order to get into the VA hospital where he received his numerous 
surgeries. Ronald did receive the Purple Heart medal though. Under H.R. 
3148, Ronald would be eligible to apply for an allotment because his 
military service from 1967 to 1968 was service during the ``Vietnam 
era.
III. CLOSING
    The opportunity to give testimony has been a great honor for me and 
I thank you on behalf of all Alaska Natives who served our country 
during the Vietnam War. I recommend that this Committee affirmatively 
vote H.R. 3148 out of the Committee and into the House of 
Representatives.
                                 ______
                                 
    Mr. Young. Walter Sampson, NANA Regional Corporation.

  STATEMENT OF WALTER SAMPSON, VICE PRESIDENT OF LANDS, NANA 
                      REGIONAL CORPORATION

    Mr. Sampson. Thank you, Mr. Chairman. H.R. 3148 is 
certainly an outstanding bill, like you have indicated earlier.
    Honorable Chairman, members of the Committee, my name is 
Walter Sampson. Thank you for giving me an opportunity to speak 
before you on H.R. 3148. It is an honor for individuals like me 
to raise an issue that impacts our daily lives. Yes, democracy 
at work is a very process that past Presidents and the Founding 
Fathers fought to create, a process you as Members of Congress 
continue to nurture.
    Where outside forces attempt to demoralize that very 
process, but failed, we are a nation of caring people, people 
with big hearts, people who are committed to fight for its 
freedom. Gentlemen, you are looking at two Alaskan Natives who 
are committed to fight for its freedom, committed to make sure 
that the American flag continues to fly freely.
    As a background information, I was born in January 1948 to 
Mildred and Stephen Sampson. I come from a large family. I have 
three sisters and seven brothers. I was traditionally adopted 
by my grandmother, Effie Sampson, whom I highly respect. She 
was my mother, my mentor, and my teacher. I am fortunate in 
that I am proud to say I can fluently speak my Inupiaq 
language.
    I graduated from Chemawa Indian School in May 1968. In 
September 1968, I was being drafted to the regular Army. 
Instead, I volunteered and went in for a 2-year service. I 
spent my basic and advanced individual training in Fort Lewis, 
Washington. After AIT, my orders were to Vietnam.
    On 10 March 1969, I first stepped into the Vietnam soil as 
an infantryman as a 19-year-old, tough and mean--that is what I 
thought, anyway--fully committed to put my training to 
practice. Yes, life was certainly different, but as a soldier, 
I expected to face the elements, ready to face death, but I was 
not ready to die. But some of my comrades, unfortunately, did 
not make it home. But I assure you they died proud, proud 
because they unselfishly made the sacrifice to defend the 
Constitution of the United States. Yes, my comrades did not die 
in vain, but for a justifiable cause.
    As a committed soldier, I spent 12 months in Vietnam, nine-
and-a-half in the field, 1 month as a grenadier, 3 days as a 
machine gunner, and eight-and-a-half months with radio in my 
back. For the service I committed, I received the following 
medals: National Defense Medal, Vietnam Service Medal, Vietnam 
Campaign Medal, two Bronze Stars, one with oak leaf cluster and 
another with ``V'' device, two Army Commendation Medals, and 
the Combat Infantry Badge.
    Mr. Chairman, I would like to first acknowledge your hard 
work in passing the Alaska Native Veterans Act, which allows 
for those of us that did not have a chance to apply for Native 
allotment under the original Act to apply for land. I thank you 
on behalf of my comrades who are missing in action, died in 
combat, those who died after returning from the war, and those 
who are not able to be here in person to speak for themselves. 
Again, thank you.
    The original Act which Congress passed is lacking in the 
following areas. No. 1, limited only to Federal lands where 
maybe, in some cases, veterans are not able to select land 
because of different classifications. Two, occupancy 
requirements, which places a burden on the applicant especially 
if the veteran entered service for a period of time when he or 
she is stationed outside the State, which means the applicant 
could not meet the extensive use and occupancy requirement. 
Three, date requirements from January 1969 to 1971 is a small 
window of opportunity for some veterans who may have decided to 
make a career of the military service.
    With that, Mr. Chairman and members of the Committee, I 
want to thank you for your time and encourage you to pass H.R. 
3148. Thank you.
    Mr. Young. Thank you, Walter.
    [The prepared statement of Mr. Sampson follows:]

  Statement of Walter Sampson, Vice President of Lands, NANA Regional 
                              Corporation

    Honorable Chairman, members of the Committee, my name is Walter G. 
Sampson. Thank you for giving me an opportunity to speak before you on 
H.R. 3148. It's an honor to participate in a process that makes you 
feel good and listened to. A process that allows individuals like me to 
raise issues that impact our daily lives. Yes, democracy at work is a 
very process past Presidents and Founding Father fought to create. A 
process as members of congress continue to nurture.
    Where outside forces attempt to demoralize that very process but 
failed, we are a nation of caring people. People with big hearts. 
People who are committed to fight for its freedom. Gentlemen you are 
looking at three Alaskan Natives who are committed to fight for its 
freedom. Committed to make sure that the American flag continue to fly 
freely.
    As a background information, I was born January, 1948 to Mildred 
and Stephen Sampson. I come from a large family I have three sisters 
and seven brothers. I was traditionally adopted by my grandmother, 
Effie Sampson whom I highly respect. She was my mother, my mentor and 
my teacher. I am fortunate in that I'm proud to say I fluently can 
speak my Inupiaq language.
    I graduated from Chemawa Indian School May 1968. September of 1968 
I was being drafted to the regular army, instead I volunteered and went 
in for a two-year service. Spent my basic and advanced individual 
training in Fort Lewis, Washington. After AIT my orders were to 
Vietnam. 10 March 1969 I first stepped into Vietnam soil as an 
infantryman. As a nineteen-year-old tuff and mean (that's what I 
thought anyway) fully committed to put my training to practice. Yes 
life was certainly different, but as a soldier I expected to face the 
elements. Ready to face death but I wasn't ready to die. But some of my 
comrades unfortunately didn't make it home, but I assure you they died 
PROUD. PROUD because they unselfishly made the sacrifice to defend the 
constitution of the United States. Yes my comrades did not die in vain 
but for a justifiable cause.
    As a committed soldier I spent twelve months in Vietnam, Nine and 
half in the field. One month as grenadier, three days on a sixty 
machine gunner and eight and a half months radio in my back. For the 
service I committed I received the following Medals : National Defense 
Medal, Vietnam Service Medal, Vietnam Campaign Medal, two Bronze Star 
Medals, one with oak leaf cluster and another with V Device, two Army 
Commendation Medals and Combat Infantry Badge.
    Mr. Chairman I would like to first acknowledge your hard working 
into passing the Alaska Native Veterans Act which allows for those of 
us that did not have a chance to apply for native allotment under the 
original Act to apply for land. I thank yo on behalf of my comrades who 
are missing action, died in combat, those who died after returning from 
war and those who are not able to be here in person to speak for 
themselves, again thank you. The original Act which congress passed is 
lacking in the following areas 1] Limited only to Federal land where 
maybe in some cases veterans are not able to select lands because of 
different classifications. 2] Occupancy requirement which places a 
burden on the application especially if the veteran entered service for 
a period of time when he/she is stationed outside the sate. Which means 
the applicant would need to meet the extensive use and occupancy 
requirement/ 3] Date requirement from January 69 to December 1971 is a 
small window of opportunity for some veterans who may have decided to 
make a career of the military service. With that Mr. Chairman and 
members of the Committee I want to thank you for your time and 
encourage you to pass HR3148.
                                 ______
                                 
    Mr. Young. Again, it brings home the necessity for this 
bill. For the life of me, I cannot understand. I heard some of 
the same arguments against the 1998 Act. We could not extend it 
as far as we wanted to at that time. What I would like, you can 
help me out and Eben, both, how many veterans--you may not be 
able to answer it now, so you can submit the answer to me--how 
many veterans have applied under the 1998 Act and have been 
turned down by the Park Service and Fish and Wildlife?
    Mr. Sampson. Mr. Chairman?
    Mr. Young. Yes?
    Mr. Sampson. As far as I know, about 1,100 have applied. I 
am thinking of something different.
    Mr. Olrun. Mr. Chairman, there are 1,174 that would be 
eligible for this under H.R. 3148, if it passes, as of now. I 
know there are a lot of applications that have been rejected, 
but I do not have any numbers.
    Mr. Young. What you can do for me, both of you, and Nelson, 
give me the numbers and who turned them down, on what grounds.
    Mr. Olrun. Bureau of Land Management, the people that were 
dealing with them, they are the ones that reject all our 
applications.
    Mr. Young. But I want the specifics, because what has 
happened is everybody says, look what we have done for the 
veteran, and if you look at it, a lot of the allotments have 
been turned down. So, in reality, they have turned them down 
because of occupancy, they have turned them down because of 
paperwork, they have turned them down a lot of times because 
the allotment was chosen within a certain area, and I just want 
to have that information. As we go through arguing this on the 
floor of the House, we want to know what we are talking about, 
and I am going to challenge people to vote against this 
legislation. I will find out who the real ones that support our 
military forces are.
    Yes?
    Mr. Sampson. I do have the numbers, Mr. Chairman. As of 
April 9, 2002, applications received were 741, and out of the 
741, there were 133 that were already rejected. I am sure that 
the rest will probably go through their adjudication process.
    Mr. Young. They are being adjudicated right now?
    Mr. Sampson. Right. Exactly.
    Mr. Young. That tells me that the Department is failing in 
their responsibility. Why would they adjudicate out of those 
700? I have no idea. They should just review them, not 
adjudicate them. I want to thank the panel for being so 
informative. It was much more pleasant than the first panel, 
but everybody understands I am going to move this legislation 
and then let the games begin. We are going to try to make this 
a success because we think it is the correct thing and the 
right thing to do, especially veterans, especially the Russian 
River, and the contracting.
    Now, the Department in this room had better understand that 
I am dead serious about this one. I have talked to my senior 
Senator and he is not happy, my junior Senator and he is not 
happy, and the intent of the law is very clear when we passed 
it and you have not done the job. I can understand the other 
administration, but this administration had better get rid of 
those that oppose it. They ought to find another job or go on a 
vacation.
    This meeting is adjourned.
    [Whereupon, at 12:22 p.m., the Committee was adjourned.]

    The following materials were submitted for the record:
        <bullet> Caspersen, Jann L., Board Member, Native 
        Veterans Association of Alaska, and Gunnery Sergeant, 
        Retired, U.S. Marine Corps, Statement submitted for the 
        hrecord on H.R. 3148
        <bullet> Joule, Hon. Reggie, Representative, Alaska 
        State Legislature, Letter submitted for the record on 
        H.R. 3148
        <bullet> Kapsner, Hon. Mary, Representative, Alaska 
        State Legislature, Letter submitted for the record on 
        H.R. 3148
        <bullet> Leighton, Robert P., Alaska Native Veteran, 
        Sitka, Alaska, Letter submitted for the record on H.R. 
        3148
        <bullet> Marrs, Carl H., President and CEO, Cook Inlet 
        Region, Inc., Letter submitted for the record on H.R. 
        3148
        <bullet> Nathaniel, Larry A., Chairman, Athabascan 
        Tribal Governments, Letter and statement submitted for 
        the record on H.R. 4734
        <bullet> O'Connor, Michael G., President and CEO, 
        Ouzinkie Native Corporation, Letter submitted for the 
        record on H.R. 3148
        <bullet> Paulsen, Frederick A,, Veteran, Prince 
        William Sound, Alaska, Letter submitted for the record 
        on H.R. 3148
        <bullet> Pourchot, Pat, Commissioner, Alaska 
        Department of Natural Resources, Letter submitted for 
        the record on H.R. 3148
        <bullet> Salcedo, Betsy, University of New Mexico Law 
        School, 2002 Juris Doctor Graduate, Letter submitted 
        for the record on H.R. 3148
        <bullet> Sensmeier, Sergent Raymond, Vietnam Veteran, 
        Yakutat, Alaska, Letter submitted for the record on 
        H.R. 3148
        <bullet> Thomas, Hon. Edward K., President, Central 
        Council of the Tlingit and Haida Indian Tribes of 
        Alaska, Statement submitted for the record
        <bullet> Walker, Hugh, Treasurer, Alaska Native 
        Veterans Association, Letter submitted for the record 
        on H.R. 3148
        <bullet> Walleri, Michael J., Attorney for the Koyukuk 
        River Basin Moose Co-management Team, Inc., Statement 
        submitted for the record on H.R. 4734
        <bullet> Widmark, Lawrence, Chairman, Sitka Tribe of 
        Alaska, Letter submitted for the record on H.R. 3148
        <bullet> Williams, Orie, President and CEO, Doyon, 
        Limited, Letter submitted for the record on H.R. 3148

    [The statement submitted for the record by Mr. Caspersen 
follows:]

     Statement of Jann L. Caspersen, Board Member, Native Veterans 
  Association of Alaska, and Gunnery Sergeant, Retired, United States 
                       Marine Corps, on H.R. 3148

    As an active duty Marine, I witnessed and participated in an annual 
ceremony of passing on the traditions. A key point of the Marine Corps 
birthday ceremony is the passing of a piece of the Marine Corps 
birthday cake from the oldest Marine in the unit to the youngest Marine 
in the unit. This action symbolizes passing of the Marine Corps 
traditions. Traditions are something we Americans cherish.
    The passing of H.R. 3148 would allow a qualified Alaskan native 
Vietnam veteran a greater authentic opportunity of interactively 
passing our subsistence lifestyle tradition on to future generations. 
Please consider the positive impact your decision would have for such a 
small number of beneficiaries as a result of passing H.R. 3148.
    Thank you.
                                 ______
                                 
    [The letter submitted for the record by Mr. Joule follows:]
    [GRAPHIC] [TIFF OMITTED] T0011.001
    
    [The letter submitted for the record by Ms. Kapsner 
follows:]
[GRAPHIC] [TIFF OMITTED] T0011.002

    [The letter submitted for the record by Mr. Leighton 
follows:]
[GRAPHIC] [TIFF OMITTED] T0011.003

    [The statement submitted for the record by Mr. Marrs 
follows:]

Statement submitted for the record by Carl H. Marrs, President and CEO, 
                        Cook Inlet Region, Inc.

    Dear Mr. Chairman:
    On behalf of Cook Inlet Region, Inc., thank you for the opportunity 
to comment on H.R. 3148, the ANCSA Technical Amendment legislation 
before the Committee.
    At the outset, CIRI has fully supported the Alaska Federal of 
Natives and the Alaska Native community in its efforts for to enable 
Viet Nam veterans to apply for a Native Allotment. I served during the 
Viet Nam war in the Marine Corps.
    However, with the current legislation as written, CIRI cannot 
support bill for several reasons. First, I do not believe that it is 
well-understood that not only are public lands being added to the land 
available for selection, state and Native Corporation lands would also 
be conveyed on a voluntary basis. Yet, the important fact that conveyed 
Native land would be offered has not been fully disclosed to the 
Committee. The intent of the Native Allotment program was to convey 
vacant and unappropriated Federal lands, not private property. The 
obligation to veterans is not in dispute, but the Federal Government 
has the responsibility, not the Native corporations who are still 
seeking ANCSA conveyances thirty years after ANCSA's passage.
    Secondly, I do not support the voluntary basis provision. If the 
Federal Government owes land for a Native allotment, and that Native 
allotment is on state or Native lands, then the Federal Government 
should reimburse the owners of the lands at fair market value. The 
reimbursement must be without regard to whether the ANCSA land 
entitlement has been deemed fulfilled by the Federal Government.
    At the minimum, CIRI opposes H.R. 3148 without state and Native 
Corporation reimbursement of its conveyed property. Please consider 
amending the legislation to deal equitably with the Native corporations 
and to place the obligation to veterans where it belongs--with the 
Federal Government.
    Thank you for the opportunity to comment.
                                 ______
                                 
    [The letter and statement submitted for the record by Mr. 
Nathaniel follow:]
[GRAPHIC] [TIFF OMITTED] T0011.004

[GRAPHIC] [TIFF OMITTED] T0011.005

[GRAPHIC] [TIFF OMITTED] T0011.006

[GRAPHIC] [TIFF OMITTED] T0011.007

[GRAPHIC] [TIFF OMITTED] T0011.008


    [The letter submitted for the record by Mr. O'Connor 
follows:]
[GRAPHIC] [TIFF OMITTED] T0011.009

    [The statement submitted for the record by Mr. Paulsen 
follows:]

   Statement of Frederick A Paulsen, Veteran, Prince William Sound, 
                          Alaska, on H.R. 3148

    I am writing in support of this bill. I am a qualified veteran from 
the Prince William Sound. I have not been able to find any open land to 
file on because of the Chugach National Forest. I think that there are 
very few veterans from this area and I do not see were this well harm 
the land.
    Thank you very much
                                 ______
                                 

    [The letter submitted for the record by Mr. Pourchot 
follows:]
[GRAPHIC] [TIFF OMITTED] T0011.010

[GRAPHIC] [TIFF OMITTED] T0011.011

    [The statement submitted for the record by Ms. Salcedo 
follows:]

  Letter submitted for the record by Betsy Salcedo, University of New 
      Mexico Law School, 2002 Juris Doctor Graduate, on H.R. 3148

June 19, 2002

    Hello. My name is Betsy Salcedo and I am writing to express to the 
Committee on Natural Resources as input in the comment period on the 
legislation which allows for extending the time period for Alaska 
Native Veterans to apply for allotments. I strongly urge that the 
Committee approve this time extension, at the very least up to 18 
months, in order for Alaska Natives to have the opportunity to elect 
their rights under ANCSA. This extension will not only be a just act 
extended to United States Veterans who have served our country, but 
will also go to supporting the legitimacy of ANCSA.

Sincerely,

Betsy Salcedo
University of New Mexico Law School
2002 Juris Doctor Graduate
                                 ______
                                 
    [The letter submitted for the record by Mr. Sensmeier 
follows:]

[GRAPHIC] [TIFF OMITTED] T0011.012

    [The statement submitted for the record by Mr. Thomas 
follows:]

Statement of The Honorable Edward K. Thomas, President, Central Council 
            of the Tlingit and Haida Indian Tribes of Alaska

    GREETINGS FROM ALASKA! My name is Edward K. Thomas. I am the 
elected President of the Central Council of the Tlingit and Haida 
Indian Tribes of Alaska, which is a Federally recognized Indian tribal 
government. Most of our 24,000 tribal members reside in southeast 
Alaska, our traditional homeland. I have been the President of my Tribe 
since 1984. I am honored to provide testimony in support of H.R. 4734, 
a bill of very special importance to my Tribe and to other tribes, 
Native organizations, and Alaska Natives throughout Alaska.
    Let me begin by commending Congressman Don Young, Chairman Jim 
Hansen, and this Committee, for its consideration of H.R. 4734. Don has 
always been an adamant, forceful advocate of transferring authority and 
responsibility to Alaska Natives and away from the Federal bureaucracy. 
Don was for devolution before devolution was cool. I applaud him for 
this.
    I am here to express my Tribe's strong support for H.R. 4734 
because this legislation seeks to advance the public and tribal 
interests originally expressed in the Alaska National Interests Land 
Conservation Act (ANILCA). My comments today will focus on the immense 
benefits that H.R. 4734 would provide to Indians and Alaska Natives in 
Alaska by furthering the goals of local control, self-governance, 
economic betterment, and the linking of cultural, land, and resource 
preservation efforts in a more efficient manner.

Self-Governance
    Self-governance is a goal for which Congress and Indian tribes long 
have expressed strong support. Authorizing increased tribal self-
governance creates innumerable benefits for all parties involved, 
ranging from reduced reporting costs to increased program flexibility 
and innovation in implementation. The key to meaningful self-governance 
is a respect for the capacity of tribal governments to carry out 
Federal functions and implement Federal policies. H.R. 4734 is a 
necessary step towards achieving the goals of tribal self-governance 
embodied in ANILCA and Title IV of the Indian Self-Determination and 
Education Assistance Act.
    Tlingit Haida Central Council has been performing Federal functions 
for years and is eager to demonstrate that we can shoulder the burdens 
of assuming a more substantial role in the implementation of Federal 
land management policies.
    The potential for H.R. 4734 to further the interests of self-
governance is of special importance to the Central Council of the 
Tlingit and Haida Indian Tribes. Tlingit and Haida has been a self-
governance Tribe since the late 1980s. Tlingit Haida Central Council 
was one of the ten pioneer Tribes throughout the U.S. that developed 
the Self-Demonstration Project. My Tribe negotiated the first self-
governance agreement with the Department of the Interior in Alaska a 
decade ago. We were the first Tribe to enter into a multi-agency 
agreement under Public Law 103-477, which allows us to consolidate 
employment and training funding from various Federal sources into a 
single, coordinated tribal program. I am proud of the active role my 
Tribe has been able to play in the movement towards expanded tribal 
self-governance, and my people are eager to make every contribution we 
can towards furthering that movement. Accordingly, Central Council 
enthusiastically endorses H.R. 4734 and urges the Congress to enact it 
as soon as possible before the delay of another budget cycle sets in.
    We note that the opposition to this bill appears to be based on two 
basic misunderstandings--that Indian tribes and Native organizations 
cannot handle Federal functions and that program administration by 
Indian tribes and Native organizations would change the fundamental 
nature or alter the core purpose of Federal land management activities. 
Both grounds for opposing this bill are, at best, specious. The bill 
will not alter the laws and regulations that govern national parks and 
refuges in Alaska. Federal conservation units will remain an integral 
part of Federal land management policies.
    Let me be very clear--enactment of H.R. 4734 would not restrict in 
any way the present level of access that the general public would have 
to these lands. My Tribe, and every other tribe assuming the Federal 
obligations and responsibilities under H.R. 4734, would be required to 
meet all present obligations to provide public access to public lands. 
My Tribe, and every other tribe under this legislation, would be 
required to abide by these requirements. Public access, and the public 
character of these lands, would not be affected in any way.
    What H.R. 4734 will do is give Tribes, comprised of local 
decisionmakers, greater flexibility and responsibility in implementing 
Federal land management policy.
    The lands of Alaska have been the home of Native Tribes like the 
Tlingit and Haida since time immemorial. People like us, who of course 
live within the lands in question, have every incentive to vigorously 
implement and carefully oversee Federal policy to protect the 
sustainability of the lands and resources of Alaska so that future 
generations of Native peoples may flourish.
    Alaska Natives have a huge stake and interest in the success of 
Federal land and resource management. Federal lands constitute a 
significant portion of the land area in Alaska and, in many cases, 
surround Native villages and communities. For centuries, these lands 
have provided the opportunity for subsistence hunting, fishing, and 
gathering. One of the purposes of preserving conservation units with 
the passage of ANILCA was to ensure the conditions for the preservation 
of subsistence activities by Alaska Natives. Against this backdrop, it 
is clear that tribes have a substantial interest in conservation of 
these lands. Self-governance in the context of land management is a 
means of furthering, not hindering, the objectives of achieving more 
effective conservation and sustainability policies, while protecting 
local subsistence activities.
    While the Department of the Interior has expressed concerns about 
application of principles of self-determination and self-governance to 
land and conservation policy, these concerns simply are unfounded. 
First, H.R. 4734 is merely an authorization for 12 tribes to engage in 
demonstration projects affording tribes the opportunity to demonstrate 
that indeed we do have the capacity to shoulder the burden of 
implementing important Federal land and resource policies. H.R. 4734 is 
not a permanent transfer of control over land management to Alaska 
Natives. Second, to be eligible for the demonstration project, tribes 
must demonstrate financial and management stability and capability, as 
well as significant use or dependency on the relevant conservation 
unit. These requirements will ensure ahead of time, before any transfer 
of management functions occurs, that the demonstration tribe has the 
capacity to implement Federal policies. In addition, the legislation 
mandates a planning period during which time tribes may formulate and 
develop comprehensive plans for implementing Federal policies. This 
planning period will ensure effective deliberation and give tribes the 
opportunity to put structures in place to assume the responsibilities 
of managing the conservation units. The Department of the Interior's 
concerns do not take into account the restrictions and safeguards built 
into the legislation itself. Moreover, the Department's concerns ignore 
over a decade of practical, proven and competent experience that my 
Tribe, as well as many other tribes, have demonstrated in administering 
Federal programs and functions under Title IV of P.L. 93-638, the 
Indian Self-Determination Act.
    For many years, Native groups in Alaska have sought a more 
substantial relationship with Federal agencies in the areas of land and 
resource management. H.R. 4734 will facilitate a stronger and more 
enriching relationship between tribes and these Federal land management 
agencies. Once enacted, the legislation will better position local, 
tribal people to share our wealth of local knowledge about Alaska's 
lands and resources with Federal officials in a cooperative fashion. In 
that sense, H.R. 4734 holds the promising potential of encouraging 
greater understanding, respect, and cooperation between Federal 
agencies and tribes--an important element in ensuring meaningful 
``government-to-government'' relations. Given the common interests in 
conservation and protection of subsistence activities shared by tribes 
and Federal agencies, land management serves as an ideal area in which 
to expand tribal-agency cooperation and understanding through enhanced 
tribal self-governance.

Economic Betterment
    The second public policy goal greatly advanced by H.R. 4734 is the 
economic betterment of Native people. There are two obvious ways in 
which the bill will advance these interests. First, H.R. 4734 will 
enhance valuable employment opportunities for American Indians and 
Alaska Natives by eroding many of the barriers to greater Native 
employment in land and resource management. The objectives of expanding 
Native contracting and employment, express goals of H.R. 4734, are 
considerations that should weigh heavily in this Committee's 
consideration of the bill.
    Section 1308 of ANILCA attempted to enhance the local economies 
connected to conservation units by establishing a ``local hiring 
preference.'' Unfortunately, this Section 1308 hiring preference has 
been applied only in areas geographically congruent to conservation 
units. And of course, many of the Department of Interior jobs are 
located in Anchorage, away from conservation units, and hence are not 
governed by ANILCA's local hiring preference. In addition, other 
competing priorities in Federal civil service hiring frustrate the 
ability of a local hiring provision to increase the number of Native 
Alaskans involved in land management and conservation. Under ANILCA a 
``local'' hire could be made of someone who moves to an area in 
proximity to a conservation unit even if that person has no connection 
to the area or even to Alaska.
    Such a preference, narrowly construed or distorted from its 
original purpose, does a poor job of enhancing employment opportunities 
for the long-term local residents of Native villages and communities. 
Given how the goals of section 1308 were frustrated by its opponents, 
we were eager to see if Title IV of P.L. 93-638, enacted in 1994, would 
create enhanced opportunities for Alaska Natives in the management of 
Federal parks and refuges. Title IV mandated that distinctly ``Native'' 
programs and programs that are closely related to the geography, 
history, or culture of a Tribe be available for negotiation into tribal 
self-governance agreements. Unfortunately, under the previous 
Administration, those provisions of Title IV were substantially 
undermined by narrow interpretations of the statute by Interior's 
agencies. The National Park Service and the U.S. Fish & Wildlife 
Service concluded that they have no programs that are distinctly 
``Native'', which of course is not a standard to be found anywhere in 
the statute, and hence they resisted all efforts to negotiate 
meaningful and significant self-governance agreements with Indian 
tribes and Native organizations in Alaska. The previous Administration 
even determined that subsistence programs established by ANILCA did not 
satisfy the statutory criteria established in Title IV. We would hope 
better of the present Administration. However, today's testimony 
indicates that Secretary Norton, now more than a year on the job, has 
yet to succeed in wresting control from the old-guard who still control 
the Department's policy. On behalf of my Tribe, I urge you, Congressman 
Young and the entire Committee, to bluntly insist that the Secretary 
exercise her authority to instill within the ranks of her Department a 
respect for the law that honors the intent of Congress in devolving 
this Federal authority and control to the local Native communities most 
directly impacted by these activities.
    It is clear that further steps need to be taken to allow for the 
employment of more Alaska Natives in Federal land management programs. 
H.R. 4734, by authorizing tribes to implement Federal land management 
policies, will overcome many of the significant barriers to greater 
employment of Alaska Natives. Regardless of whether a Native hiring 
preference is used in the operation of the Federal programs, tribes 
would be able to structure personnel systems, hiring practices, and job 
descriptions to match the socio-economic conditions of the community 
and hence attract qualified workers. Tribal control would erode any 
feelings of hostility towards land management agencies and would give 
tribal communities a strong stake in the success and viability of 
Federal land and resource management policies.
    There is a substantial need to expand employment opportunities for 
Alaska Natives across the labor force. There is a grave shortage of job 
opportunities for Natives. Construction contractors often bring their 
labor force in from an urban area or from outside the state. Federal 
and state agencies have been reluctant to enforce hiring policies that 
seek to diversify their workforces by making sure that Alaska Natives 
are fairly represented in the employment sector. H.R. 4734 will not 
overcome all of these problems. By allowing for increased Native 
hiring, however, the bill will give important jobs to some qualified 
Native people and will help demonstrate to other employers in the state 
that Alaska Natives can make valuable contributions to any workforce.
    The second means by which H.R. 4734 may serve the goal of economic 
betterment of Alaska Natives relates to the capacity of tribes to more 
effectively implement and balance subsistence activities. One of the 
stated purposes of the bill is to allow Tribes an opportunity to 
demonstrate that we can implement Federal land management policies in a 
manner that furthers the goal of conservation, while allowing for 
beneficial and necessary subsistence activities. Viable and sustainable 
subsistence activities provide a means of supporting struggling local 
economies through the provisions of supplies to meet the basic needs of 
the communities. Many rural tribes in Alaska face substantial rises in 
unemployment during the winter months. Subsistence products can 
supplement shrinking family budgets during these times and provide a 
vital safety-net for Natives. Alaska Native tribes are close to the 
land. We depend on the land and its resources for our livelihood. H.R. 
4734 will help ensure that subsistence activities are carried out in a 
manner that protects the land and its resources by giving control over 
implementation to the people with the greatest stake in the continued 
viability of the Federal conservation units.
    Just as my Tlingit and Haida people have a substantial interest in 
furthering the self-governance capacity of our Tribe, my people 
likewise have a substantial interest in economic betterment of their 
individual households. Many of our members live with conditions most 
Americans would find shocking. Vast pockets of unemployment exist 
across our Native communities. The needs of our membership tax the 
resources of our tribal government to the limit. Enhanced economic 
opportunities for our people, which can be achieved through H.R. 4734, 
would be a boon to our local economy in Southeast Alaska and to our 
Tribe as a whole. By enhancing the employment opportunities of tribal 
members, the bill would strengthen the self-sufficiency of our tribal 
economy and, coupled with increasing self-governance, will help end the 
economic deprivation that hobbles the long-term aspirations of our 
people.

Culture and Conservation
    H.R. 4734 expressly recognizes the third benefit I would like to 
discuss today'the capacity of the bill to further the protection of 
Alaska Native cultures by recognizing the connection between tribal 
culture, tribal land, and tribal resource management. Our people have 
always been stewards of the land. H.R. 4734 recognizes that the 
geographic proximity of many Alaska Natives to ANILCA conservation 
units, coupled with a strong historical and cultural connection to 
these lands, makes Federal land management and conservation programs in 
Alaska especially suited for tribal performance of conservation system 
unit management functions.
    Land management has been an important interest for the Tlingit and 
Haida people throughout our history. The lands and resources of 
Southeast Alaska have long provided the means of survival for my people 
and served as an important component of tribal culture. To many 
Americans, the lands of Alaska are nothing but wilderness, a mere 
museum piece to be frozen and preserved on the shelf for the occasional 
pictorial beauty it accords people from far away lands. But Alaska 
Natives in Alaska see our land somewhat differently. These lands are 
now, and have long been, our home. We appreciate beauty. But we also 
live here. We draw our sustenance from the land. The land throughout 
history has served to support our tribal cultures, economies, and ways 
of life. This long tradition of respect for the importance of 
conservation and sustainable resource use continues today as land and 
resource management is an important element of our Tribe's self-
governance program. Even within the tight resource constraints that 
confront our Tribe, Tlingit and Haida has chosen to make resource and 
land management an important tribal priority. We have done so with 
consistency, I might add, unlike the mercurial approach toward 
conservation taken by the United States.
    Consistent with our commitment to land and resource issues, our 
Council has established a Native Lands and Resources Department. The 
Department provides management of the trust lands and natural resources 
contained on the land for tribes in our multi-tribal Compact of Self-
Governance with the U.S. Department of the Interior. In addition, our 
Tlingit and Haida Department assists all tribes and Native communities 
in Southeast Alaska in land and resource issues through the provision 
of environmental and land management education and consultation. As a 
part of this general program, our Forestry Department continues to 
pursue innovative and flexible strategies for forest management. H.R. 
4734 would facilitate inter-governmental cooperation between tribal 
agencies like our Native Lands and Resources Department and Federal 
agencies by treating tribes as equal partners in the project of land 
conservation and management. While certain programs and bureaucratic 
rhetoric may pay lip service to this type of government-to-government 
cooperation, Federal statutory directives like those contained in H.R. 
4734 unfortunately are necessary to ensure that Alaska Natives can re-
assume a prominent role in the management of the lands that have long 
served as the home to our people.
Conclusion
    I know most members of this Committee would agree in theory with 
the goals of enhancing tribal self-governance, improving the economic 
conditions of Alaska Natives, and ensuring the effective protection of 
Native lands and cultures. It is with some regret that I must say, 
however, that a law like H.R. 4734 is needed to make these shared goals 
a practical reality. I urge the Committee to insist that the Department 
of the Interior put its money where its mouth is and support this bill. 
Perhaps more importantly, once this bill is enacted, it is of vital 
importance that the Committee demand that the Department fully and 
promptly implement its provisions in the spirit in which they were 
enacted. By this time, it perhaps could go without saying, but I wish 
to be clear--the Tlingit and Haida Central Council wishes to express, 
in the strongest of terms, our support for H.R. 4734 and our commitment 
to working with Congressman Young and this Committee to quickly secure 
its passage.
    Thank you very much Mr. Chairman and members of this Committee for 
the opportunity to present this testimony on behalf of the Central 
Council of the Tlingit and Haida Indian Tribes of Alaska and its 
members. If we can be of any assistance to you in your consideration of 
this bill, please do not hesitate to ask. I wish you well in your 
deliberations and hope my comments are useful as you decide on these 
issues of great importance to our people.
    Gunalcheesh! Howa!
                                 ______
                                 
    [The letter submitted for the record by Mr. Walker 
follows:]

[GRAPHIC] [TIFF OMITTED] T0011.013

    [The statement submitted for the record by Mr. Walleri 
follows:]

[GRAPHIC] [TIFF OMITTED] T0011.014

[GRAPHIC] [TIFF OMITTED] T0011.015

[GRAPHIC] [TIFF OMITTED] T0011.016

[GRAPHIC] [TIFF OMITTED] T0011.017

[GRAPHIC] [TIFF OMITTED] T0011.018

[GRAPHIC] [TIFF OMITTED] T0011.019

    [The letter submitted for the record by Mr. Widmark 
follows:]
[GRAPHIC] [TIFF OMITTED] T0011.020

[GRAPHIC] [TIFF OMITTED] T0011.021


    [The statement submitted for the record by Mr. Williams 
follows:]

 Letter submitted for the record by Orie Williams, President and CEO, 
                      Doyon, Limited, on H.R. 3148

June 18, 2002

Committee on Resources
Subcommittee on Native American and Insular Affairs
U.S. House of Representatives
Washington, D.C.

Gentlemen:

    The purpose of this letter is to provide written comment on H.R. 
3148, a bill which proposes to amend provisions of the Alaska Native 
Claims Settlement Act of 1971 (ANCSA) to provide for equitable 
treatment of Alaska Native Vietnam veterans and for other purposes. Our 
comments are limited to Section 1 of the bill regarding Alaska Native 
veterans.
    Doyon, Limited is the regional corporation established under ANCSA 
to represent Alaska Natives with current and/or historic ties to 
central Alaska. Doyon has approximately 14,000 members. Doyon has the 
largest land entitlement under ANCSA, about 12.5 million acres, and is 
one of the largest private landowners in North America. Provisions of 
H.R. 3148, if they become law, will directly impact Doyon land 
ownership interests.
    Doyon continues to strongly support the efforts of Alaska Native 
Vietnam era veterans in their quest to be afforded the opportunity to 
apply for and receive title to Native allotments that they were 
otherwise denied application opportunities prior to repeal of the 
Native allotment authority in Alaska in 1971. Doyon specifically 
supports (1) the provisions of H.R. 3148 that would grant veterans the 
right to apply for lands they used and occupied, though currently 
unavailable for selection as a result of numerous Federal land disposal 
and classification actions during the intervening years, and (2) the 
expansion of eligibility requirements so to allow applications from 
veterans who served between 1964 and 1975, and from their heirs.
    However, Doyon does not support H.R. 3148 in its present form due 
to likely unintended negative impacts on Native corporations. Those 
impacts, described below, can be easily remedied.
    Under H.R. 3148, Native corporations would now be able to 
relinquish portions of ANCSA land conveyances and selections in order 
for a veteran to gain title lands that they could have received under 
the 1906 Allotment Act. With respect to Native corporation lands 
already conveyed, there needs to be a provision requiring the Interior 
Department to credit against a corporation's remaining unconveyed ANCSA 
land entitlement the same number of acres relinquished. There is no 
good public policy reason why village and regional corporations should 
have to use their ANCSA land entitlement to ``pay'' for allotments 
under H.R. 3148.
    The other needed change to H.R. 3148 involves the provision 
requiring, as part of any veteran Native allotment, the reservation to 
the Federal Government of all oil, gas and coal interests. The 1906 
Act, as amended, requires such reservations. Doyon is concerned that 
this provision may be used to require Native regional corporations to 
relinquish subsurface interests before allotment title can pass to a 
Native veteran. There is no good public policy or sound land management 
reason why subsurface interests beneath veterans' Native allotments 
should be owned by the Federal Government when all the surrounding 
lands are or will be owned by Native corporations. Doyon and other 
Native corporations should be given the opportunity to relinquish 
surface interests and keep the subsurface.
    We have not provided specific language changes at this time. We 
would however like to be afforded the opportunity to work with 
Committee staff and the Alaska Federation of Natives to draft 
appropriate language which would address our concerns.
    Thank you for the opportunity to provide these comments.

Sincerely Yours,

Orie Williams
President and CEO

                                   - 

</pre></body></html>
